<html>
<title> - Department of Homeland Security Appropriations for Fiscal Year 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                        TUESDAY, APRIL 23, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:36 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Mikulski, Begich, Coats, 
Cochran, Murkowski, and Moran.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. JANET NAPOLITANO, SECRETARY


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good afternoon, everyone. Let me call the 
Subcommittee on Homeland Security appropriations to order and 
welcome Secretary Janet Napolitano as she presents the 
administration's budget for this important Department today.
    I'm going to open with a brief statement and then turn it 
over to my ranking member, acknowledge the other members that 
are here, and then turn to your statement, Madam Secretary.
    Last week's events in Boston were a stark reminder of the 
threats we continue to face as a Nation and that we must remain 
vigilant at all times. Securing our homeland is a partnership 
between the Federal Government and our local entities, one that 
we must continue to support, strengthen, and fine-tune. Just as 
the runners set out that bright Monday morning for a long-
distance run, so must our country take the long view with 
regular and routine investments in local, State, and Federal 
homeland security assets.
    The heroic effort by first responders and law enforcement 
officers in Boston who worked together seamlessly and saved 
many lives because of their actions continue to inspire us. Our 
thoughts and prayers are with the victims and their families, 
the runners, the volunteers in the Boston Marathon, and the 
whole city of Boston and the region.
    Madam Secretary, thank you for being here this morning and 
presenting the administration's budget and for your leadership 
through very difficult times.
    Just over 10 years ago, this Department was formed, cobbled 
together from 22 disparate Federal agencies and in the shadow 
of the worst attack on American soil. Since that time, you and 
your predecessors have worked hard to join together these 
separate entities to be one unified force, an integrated 
Department. While this integration has not always gone 
smoothly, there have been some notable accomplishments.
    State and local grant investments paid dividends this past 
week in Boston. Since 2003, the Boston metropolitan area 
received from our subcommittee $370 million. Within the last 
year, grants were used to equip and train tactical and 
specialized response teams on explosive detection and 
disruption, as well as trained first responders in how best to 
operate in close proximity to SWAT teams in very dynamic and 
evolving scenarios, one that, unfortunately, we watched in 
action, almost live, last week.
    The exercises the city of Boston, Watertown, and the 
surrounding communities completed with State and Federal 
partners in hopes they would never have to use those skills 
were unfortunately put to the test. But lives were saved 
because communities and citizens were prepared to respond and, 
in fact, did. Federal investments to facilitate this level of 
preparedness must continue.
    Both Customs and Border Patrol (CBP) and the Transportation 
Security Administration (TSA) are working hard to invigorate 
the travel experience while still providing ramped-up security, 
as is required. For example, CBP, in expanding enrollment 
travel programs such as Global Entry, has increased 
participation by 25 percent this year, making more than 2.5 
million members of the traveling public eligible for expedited 
screening. Similarly, due to TSA's rollout of PreCheck 
(Pre3<SUP>TM</SUP>) in 2011 and flexible measures for children, 
military personnel and the elderly, 25 percent of the traveling 
public should receive some form of expedited screening by 
year's end. But there is much more that can be done to expedite 
this travel and keep it secure. I intend to explore this 
particular topic in more detail in the weeks and months ahead.
    Our southern border, which is much the focus of our 
immigration debate, is, in fact, more secure today than it has 
ever been. Today there are 18,500 Border Patrol agents along 
the southwest border, more than double the amount we had in 
2005; 651 miles of fencing has been built; and a crackdown on 
illegal immigrants means that illegal crossings have plummeted 
to levels not seen since the early 1970s. Sensors have been 
planted, cameras have been erected, and unmanned aerial 
vehicles monitor the border from above. Couple these efforts 
with targeted outbound inspections of vehicles for illegal 
drugs, weapons and cash and other contraband headed south into 
Mexico, resulting in some impressive seizures, and one can see 
much improvement.
    But challenges remain, and as you know, that is going to be 
a topic of debate in this subcommittee and other committees of 
jurisdiction.
    Let me mention that the Federal Emergency Management Agency 
(FEMA) has made significant strides since its disastrous 
performance following Hurricanes Katrina and Rita in 2005. I 
have seen firsthand how much this agency's response and 
recovery capabilities have evolved, thanks to experienced 
leadership, a more proactive and inclusive approach, and most 
recently several key reforms implemented by Congress to the 
Stafford Act have really come in handy.
    Since Hurricane Isaac struck Louisiana and Hurricane Sandy 
ravaged the northeast last year, a new FEMA model has emerged, 
one that leads a whole-of-Government approach to recovery and 
one that will work, in my view, much better.
    The Coast Guard has received new assets to replace the 
deteriorating fleet, such as the national security cutters 
(NSC), fast response cutters (FRC), and marine patrol aircraft. 
However, significant work remains in this area and, in my view, 
the budget before us severely underfunds these critical 
acquisitions, putting the Coast Guard further behind in 
acquiring the assets it needs to fulfill its mission.
    Your agency is managing the constant onslaught of cyber 
attacks in our Federal civilian Government networks, financial 
institutions and critical infrastructure. The Department of 
Homeland Security (DHS) responds and issues warnings to an 
average of 70 incidents per month arising from more than 10,000 
daily alerts. While no one has managed yet to seriously damage 
or disrupt our U.S. infrastructure, your Department now plays a 
key role in helping the Federal Government, State and local 
governments, as well as the private sector stay safe. As our 
enemies become more adept at attacking us, we have to keep up 
with the technology in blocking those attacks. I am looking 
forward to hearing more about that in your budget.
    In 2013, we provided the necessary funding and increases 
for: Customs and Border Protection salaries that were 
significantly underestimated; restored proposed cuts to the 
Coast Guard acquisition program to replace aging and decrepit 
assets; appropriated a 70-percent increase in cybersecurity 
technology and education programs; and restored critical 
funding for advanced research; and State and local preparedness 
grants; all of which were at historic lows in 2012. Coupling 
these increases with supplemental appropriations enacted for 
Hurricane Sandy in January, the Department should have been in 
good standing to support its essential frontline employees, 
State and local responders, and disaster victims.
    However, many of the increases I just highlighted will be 
eaten away by the 5-percent reduction required by sequester and 
set us back even further. While I recognize that you are still 
finalizing how these impacts of sequestration will be felt, it 
is an area that deeply concerns me.
    For 2014, the discretionary request for the Department is 
$39 billion, 1.4 percent less than the full appropriation we 
enacted just last month. If this request is met, it would be 
the fourth year in a row that the Department has faced reduced 
funding, down from its peak of $42 billion.
    In regard to the request before us, DHS, like all Federal 
agencies, has been asked to do more with less, and this has 
required some tough decisions. Your budget includes many 
examples where administrative and overhead costs have been 
reduced and where programs have been trimmed and stretched out 
or suspended to achieve cost savings without significantly 
degrading critical security requirements. By making these 
reductions, you were able to preserve the most essential 
frontline security operations, but this budget calls for 
funding a new facility construction at the expense of ongoing 
acquisition needs, which could even more delay recapitalization 
necessary for the Coast Guard, and Customs' Air and Marine 
fleets for years.
    Just last week, the Senate unveiled the bipartisan 
compromise immigration reform package, something that is 
urgently needed for the economic strength and security of our 
country, in my view, but also something that will have serious 
implications on how DHS directs personnel and resources over 
the next 5 to 10 years. This bipartisan effort to craft this 
legislation is admirable, but there will be financial measures 
necessary to implement it. The budget before us today contains 
only a few proposals to fund these reforms, so I am looking 
forward to hearing from you how our immigration reform efforts 
will be paid for.
    And finally, let me say that I am pleased that the budget 
requests funding to hire 1,600 new Customs and Border 
Protection officers. Many people complain, and rightly so, that 
inspection lines at our air and land ports of entry for 
international arriving passengers are simply too long. Studies 
and surveys indicate that these long lines are a major reason 
why tourists choose simply, Madam Secretary, to go to other 
nations for vacations and for business. While we are back up to 
the pre-9/11 level, and that is something to celebrate, I must 
underscore that we have lost 40 percent of our global market 
share for these tourist dollars. That is not specifically your 
fault, but it is the reality of the traveling public and where 
they are making decisions to go. As a State that is reliant on 
hospitality dollars, I am very sensitive to this.


                           prepared statement


    So today I look forward to exploring how this Department, 
one so critical to safety and security of our Nation, is 
assessing risk and prioritizing funding in this era of calls 
for smaller and weaker Government from some quarters, but not 
from this chair. It is also time to reflect about where the 
Department of Homeland Security has been and where it is going 
in the future.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Good afternoon. I call the subcommittee to order.
    Last week's events in Boston were a stark reminder of the threats 
we continue to face as a Nation and that we must remain vigilant at all 
times. Securing our homeland is a partnership between the Federal 
Government and local entities--one that we must continue to support and 
strengthen. Just as the runners set out that bright Monday morning on 
this long distance run, so must our country take the long view with 
regular and routine investment in local, State and Federal homeland 
security assets.
    The heroic effort by first responders and law enforcement officials 
in Boston, who worked together seamlessly and saved many lives because 
of their action, continue to inspire us. Our thoughts and prayers are 
with the victims and their families, runners and workers of the Boston 
Marathon, and the whole city of Boston.
    Secretary Napolitano, thank you for presenting the administration's 
budget today for review and comment. Just over 10 years ago, the 
Department of Homeland Security was formed, cobbled together from 22 
disparate Federal agencies in the shadow of the worst attack on 
American soil. Since that time, you and your predecessors have worked 
hard to join together these separate entities into a unified and 
integrated Department. While this integration has not always gone 
smoothly, there has been notable success:
  --State and local grant investments paid dividends this past week in 
        Boston. Since 2003, the Boston metropolitan area has received 
        $370 million. Within the last year, grants were used to equip 
        and train tactical and specialized response teams on explosive 
        detection and disruption, as well as train first responders how 
        to best operate in close proximity to SWAT teams in very 
        dynamic and evolving scenarios. The exercises that the city of 
        Boston, Watertown, and the surrounding communities completed 
        with local, State, and Federal partners--in hopes they would 
        never have to use the skills--were unfortunately put to the 
        test. Lives were saved because communities and citizens were 
        prepared for the unthinkable. Federal investments to facilitate 
        this preparedness must continue.
  --Both Customs and Border Patrol (CBP) and the Transportation 
        Security Administration (TSA) are working hard to reinvigorate 
        the travel experience, while still providing ramped up 
        security. For example, CBP is expanding enrollment in its 
        trusted travel programs, such as Global Entry, by 25 percent 
        this year, making more than 2.5 million members of the 
        traveling public eligible for expedited screening next year. 
        Similarly, with TSA's rollout of PreCheck (Pre3<SUP>TM</SUP>) 
        in 2011 and flexible measures for children, military personnel, 
        and the elderly, 25 percent of the traveling public should 
        receive some form of expedited screening by year's end. But 
        there is much more that can be done and hopefully we will 
        explore this topic in much more detail.
  --Our southern border is more secure today than it has ever been. 
        Today there are 18,500 Border Patrol agents along the southwest 
        border (more than double the amount we had in 2005), some 651 
        miles of fencing has been built, and a crackdown on illegal 
        immigrants means that illegal crossings have plummeted to 
        levels not seen since the early 1970s. Now sensors have been 
        planted, cameras erected, and unmanned aerial vehicles monitor 
        the border from above. Couple these efforts with targeted 
        outbound inspections of vehicles for illegal drugs, weapons, 
        cash, and other contraband heading south into Mexico, resulting 
        in some impressive seizures, and one can see much improvement.
  --Federal Emergency Management Agency (FEMA) has made significant 
        strides since its disastrous performance following Hurricane 
        Katrina in 2005. I have seen firsthand how much that agency's 
        response and recovery capabilities have evolved, thanks to 
        experienced leadership, a more proactive and inclusive 
        approach, and most recently several key recovery reforms to the 
        Stafford Act that we have enacted. Since Hurricane Isaac struck 
        Louisiana and Hurricane Sandy ravaged the northeast last year, 
        a new FEMA model has evolved, one that leads a whole of 
        government approach to recovery.
  --The Coast Guard has received new assets to replace a deteriorating 
        fleet, such as national security cutters, fast response 
        cutters, and maritime patrol aircraft. However, significant 
        work remains in this area and in my view the budget before us 
        severely underfunds critical acquisitions, putting the Coast 
        Guard further behind in acquiring the assets it needs to 
        fulfill its mission.
  --Your agency is managing the constant onslaught of cyber attacks on 
        our Federal civilian government networks, financial 
        institutions, and critical infrastructure. The Department of 
        Homeland Security (DHS) responds and issues warnings to an 
        average of 70 incidents per month arising from more than 10,000 
        daily alerts. While no one has managed to seriously damage or 
        disrupt critical U.S. infrastructure networks so far, DHS now 
        plays a key role in helping the Federal Government, State and 
        local governments, as well as the private sector, reinvent our 
        network foundations so that we can become more resilient to 
        attacks.
    Unfortunately, the notable progress the Department has made will be 
hampered by sequestration. While I am pleased that a full-year DHS 
appropriations bill was included in the final continuing resolution, 
thereby providing funding certainty for your components, very damaging 
sequestration cuts have been locked in for all Federal agencies. As my 
letter to you earlier this month indicated, I am particularly concerned 
about the impacts of sequestration cuts on small businesses contracting 
with Federal agencies.
    In 2013, we provided necessary funding increases for Customs and 
Border Protection salaries that were significantly underestimated in 
the request; restored proposed cuts to the Coast Guard's acquisition 
program to replace aging and decrepit assets and military housing; 
appropriated a 70-percent increase in cybersecurity technology and 
education programs; and restored critical funding for advanced research 
and State and local preparedness grants, all of which were at historic 
lows in 2012. Coupling these increases with supplemental appropriations 
enacted for Hurricane Sandy in January, the Department should have been 
in good standing to support its essential frontline employees, State 
and local responders, and disaster victims for the remainder of this 
fiscal year. However, many of the increases I just highlighted will be 
eaten away by the 5-percent reduction across every program, project, 
and activity this year. While I recognize that you are still finalizing 
how the impacts of sequestration will be felt, this is an area that 
deeply concerns me and one we will need to discuss more fully today.
    For 2014, the discretionary request for the Department of Homeland 
Security is $39 billion, 1.4 percent less than the full-year 
appropriation we enacted just last month. If we were to approve this 
request, it would be the fourth year in a row that the Department has 
faced reduced funding, down from its peak of $42.4 billion in 2010.
    In regards to the budget request before us, DHS, like all Federal 
agencies, have been asked to do more with less, and this has required 
some tough decisions. Your budget includes many examples where 
administrative and overhead costs have been reduced, and where programs 
have been trimmed, stretched out, or suspended to achieve cost savings 
without significantly degrading critical security requirements. By 
making these reductions, you were able to preserve most essential 
frontline security operations. But this budget calls for funding new 
facility construction at the expense of ongoing acquisition needs, 
which could delay recapitalizing the Coast Guard and the Customs Air 
and Marine fleets for years. It also funds investments in necessary 
cybersecurity technologies like Einstein and continuous monitoring of 
Federal networks through shortsighted cuts to training and educating 
the cyber warriors of the future. We need to do both.
    Just last week, the Senate unveiled a bipartisan comprehensive 
immigration reform package, something that is urgently needed for the 
economic strength and security of our country, but also something that 
will have serious implications on how DHS directs personnel and 
resources over the next 5 to 10 years. As bipartisan efforts to craft 
this legislation continue, there is no doubt that security at the 
border will remain center stage. The budget before us today only 
contains a few proposals to fund these reforms and in some cases--such 
as detention resources--funding moves in the opposite direction. More 
will be required if not in 2014, certainly in the years to come, and I 
look forward to exploring these requirements in more detail as the 
comprehensive immigration reform package is developed.
    I am pleased that the budget requests funding to hire 1,600 new 
Customs and Border Protection officers (a 7.3-percent increase). Many 
people complain--and rightly so--that inspection lines at our air and 
land ports of entry for international arriving passengers are too long. 
Studies and surveys indicate these long lines are a major reason why 
tourists chose to go countries other than the United States for their 
vacations. International arrivals to the United States finally 
rebounded in 2012 to their pre-9/11 level for the first time in over a 
decade, but during that same period, we have lost 40 percent of global 
market share of these important tourists. This problem has profound 
impacts on our economy in general. Adding new CBP officers will start 
to address this challenge. I am also pleased to see creative financing 
proposals in this budget for other ways in which the Department can 
address some of its staffing and facilities needs at our 101.5 land 
ports of entry. We will discuss this more during questioning.
    Today, I look forward to exploring how this Department, one so 
critical to the safety and security of our Nation, is assessing risk 
and prioritizing funding in this era of calls for smaller and weaker 
government from some quarters. It is also time to reflect about where 
the Department of Homeland Security has been and what challenges lie 
ahead.
    Since this subcommittee was established, we have striven to do our 
work professionally, collaboratively, and in a bipartisan fashion. I 
look forward to continuing this strong, bipartisan working relationship 
with Senator Coats and the Department this year. With that, I will turn 
to my Ranking Member, Senator Coats, for his opening statement.
    Following Senator Coats' opening statement, I will turn to our full 
Committee Chairwoman Mikulski for opening remarks. After that, we will 
hear from Secretary Napolitano. Once the Secretary concludes her 
statement, each member will be recognized in order of arrival for up to 
5 minutes for remarks and questions. I now recognize Senator Coats for 
any opening remarks he may wish to make.

    Senator Landrieu. With that, let me turn it over to Senator 
Coats who, unfortunately, has a conflicting meeting, 
intelligence briefing, so he is going to give his opening 
statement and submit some questions for the record. Then I will 
turn to our full Committee chair, Chairwoman Mikulski, who is 
joining us today for her remarks.
    Senator Coats.

                     STATEMENT OF SENATOR DAN COATS

    Senator Coats. Madam Chairman, thank you, and I appreciate 
your tolerance here in my trying to balance two essential 
Committee hearings at the same time.
    Secretary Napolitano, you have had quite a week, and we 
have too. You have a lot of balls in the air and are juggling a 
lot of difficult issues. So with your acceptance here, let me 
name just a few of the issues that I would like to get some 
responses back from you, your staff, your Department, and 
excuse myself to run over and get to the briefing with the 
Federal Bureau of Investigation (FBI). It is all related to the 
Boston incident, and the chairman there, Diane Feinstein, is 
urging me to get there as quickly as possible.
    Two or three things. First, I am still concerned about the 
poor resource decisions made by Immigration and Customs 
Enforcement (ICE) earlier this year relative to the release of 
immigrants from detention. Even though ICE was resourced 
adequately under the continuing resolution to fund 34,000 
detention beds, they were operating at a significantly higher 
level, and as such, with what I think was unfortunate timing, 
there was a release of illegal aliens into surrounding 
communities. It raised a lot of concerns. And I have just 
learned that, once again, they are back over the 34,000 
authorized level, with 36,000 or more. What do we expect 
relative to how we deal with that, how we pay for that? Is 
there going to be another release? That is question number one.
    Second, related to the tragedy in Boston, there are too 
many facts, so-called facts, maybe facts, maybe corroborated, 
maybe not, that we gain from the media and not enough from the 
source that we ought to get that from. My understanding is that 
there has been a real mix-up here relative to the watchlisting 
of one of the individuals here, the relationship between shared 
information with the various agencies, including the FBI and 
Homeland Security. It could have just been a blip. It could 
have been a mistake. I think someone said there might have been 
a mistake in spelling and that's why it turned up in one place 
and not another place. But clearly, we have to work to 
coordinate these efforts so that we can prevent things like 
this, when one agency knows something that the other agency 
doesn't and something slips through. It reminds you a lot of 9/
11 when we didn't have that kind of coordination. I know a lot 
has been done to address that in the last decade or so, but I 
would like to get your take from your perspective from Homeland 
Security relative to what might have happened there.
    Finally, just some direct issues here related to the 
budget. I continue to be concerned about the aviation passenger 
security fees. I also have concerns about the impact of the 
budget on ICE investigations, Coast Guard missions, Customs and 
Border Protection, and air and marine operations, as well as 
drug interdiction.
    As you know, the issue of immigration starts with border 
security, but we are still waiting for the Department to 
produce the measures by which the American people can judge 
both the current level of security and the goal and what it is 
going to cost to reach the intended level which at least the 
Gang of Eight immigration proposal has put forward. We need to 
have that information to better evaluate how we go forward.
    So those are my questions. I am not asking you to answer 
those now. I hope to get back here. I don't want to hold you. I 
know you also have some engagements that are critical to the 
Boston situation. But, Madam Chairman, if the hearing is still 
going on, I will come back and we can talk about that directly. 
If not, if you or your staff would communicate with us, I would 
appreciate it.
    Senator Landrieu. Thank you, Senator Coats.
    Chairwoman Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Senator Landrieu. I, 
too, am a member of the Intelligence Committee and will be 
joining Senator Coats, and hopefully can return. I would like 
to compliment Senator Coats who, on a Sunday talk show, as 
everyone was responding, he presented his usual serious, sober, 
thoughtful commentary that I think really was very edifying, 
because there was a lot of second-guessing and chest pounding 
and so on that was going on. He really, I think, added an 
excellent dimension to it.
    Madam Chair, I wanted to come by to talk to Secretary 
Napolitano for a very few minutes with both you and Senator 
Coats and members of the subcommittee. This subcommittee is 
going to be where the action is when we get ready to mark up 
our bill. It will be there because not only of its role to 
protect the border--excuse me--I mean to protect the homeland, 
but we will be hopefully working on immigration reform.
    You already have the President's budget. You already have a 
framework. But we are going to need flexibility to be able to 
include whatever comes out of the authorizing to do this. So 
that is going to be a big issue and a big challenge.
    Also, there is another dimension related to cybersecurity 
that I would hope, as full Committee chair, to conduct first a 
roundtable on the issue across Committee lines with everybody 
on the Committee learning about it and learning about 
directions and some of the challenges that the Nation is 
facing, and then to work with our subcommittee chairs, 
particularly you, Defense, me with FBI and National Institute 
of Standards and Technology (NIST), so that we are all going in 
the same direction with our funding and work in a kind of 
coordinated way to get the right resources in the Federal 
checkbook that are being asked of the people to coordinate on 
the ground.
    But we have excellent members here who are on Armed 
Services, the vice chairman of the Armed Services Committee, 
you and Senator Coats, Senator Shelby and me, and I think if we 
focus and work together, we will be able to do a great job.
    But you, Madam Secretary, first of all, we want to thank 
you for the job that Homeland Security did do. I note that 2 
years before this awful, awful, awful event in Boston, that 
there was an exercise that helped Boston prepare, again 
practicing the three R's of emergency response--readiness and 
preparedness, response when an event happens, and then the 
difficult job of recovery. So we thank you for that.
    Also, we salute once again the first responders not only in 
Boston but in West, Texas, who dashed into that burning factory 
because it was so close to a school. Five firefighters died, 
four emergency technicians died from a very small, rural, 
volunteer fire department in West, Texas.
    So we know that through Federal emergency management, the 
FIRE grants, the SAFER grants, they need that money in those 
rural communities and in those big-city fire departments. We 
love to give all praise and thanksgiving to our first 
responders, but they need help from their Federal Government, 
and I want to work with you and Senator Coats and the Committee 
to make sure that the President comes in at $645 million for 
these grants, and I think we need to do more. It is a 
bipartisan support program, and whether you are from West, 
Texas or you are from the north end in Boston, we've got to be 
there to do that.

                           PREPARED STATEMENT

    So to that end, Madam Secretary, and I say to you, Madam 
Chair, we hope to mark up our bill at $1,058 trillion following 
the American Taxpayers Relief Act, which passed the Senate. 
That is what I hope to mark up the bill, noting that the House 
has marked up their bill at the sequester level. I think we 
have to find a solution to sequester if we are going to find a 
path forward because there is $92 million. But this 
subcommittee, Madam Chair, along with Defense, as well as 
Federal law enforcement, our job is to protect the Nation, and 
I look forward to protecting your funding so that you, as the 
bipartisan framework of this bill, will be able to move 
forward.
    We have to all think that we are all in this together. We 
are all Boston. We are all West, Texas. And we all have to be 
Americans that work together on this.
    [The statement follows:]
           Prepared Statement of Senator Barbara A. Mikulski
                              introduction
    Thank you, Chairwoman Landrieu and Ranking Member Coats for your 
leadership.
    Thank you, Secretary Napolitano for your commitment to first 
responders and to our Nation's security.
    The marathon bombings in Boston was terrible tragedy. Our thoughts 
and prayers are with the families of those killed and everyone injured. 
And our thanks go to the first responders at the local level who were 
first to respond and State, local and Federal law enforcement who 
worked together to identify and capture suspects.
    The resiliency and spirit of Boston shouldn't be underestimated and 
is felt by the whole Nation. When a disaster strikes, the American 
people expect their government to be there to help. The Boston bombing 
proved that the investments we made after 9/11 in law enforcement 
emergency medical capabilities and emergency planning have made a 
difference.
                            budget statement
    The resources provided in this bill are so important and touch the 
lives of American everyday, especially in times of disaster. That is 
why I support the President's budget request level--$1.058 trillion, 
the same as the deal we made 3 months ago in the American Taxpayer 
Relief Act. The bill passed the Senate by a vote of 89-to-8. A deal 
should be a deal. In contrast, the Ryan budget and sequester level 
would be $966 billion, $92 billion less than the President's request, 
with all of the cuts coming from non-Defense programs, such as the 
Department of Homeland Security.
    We need a balanced approach to end sequester, including revenues, 
targeted cuts.
                               conclusion
    I look forward to working with Landrieu and Coats to move this bill 
in regular order. Need to support our first responders, anti-terrorism 
efforts, emergency preparedness initiatives, and cybersecurity.

    Senator Landrieu. Thank you very much.
    Let me acknowledge the Senator from Alaska and the Senator 
from Mississippi here, but I would like to go to the Secretary 
for her opening comments. Thank you, Senator Cochran and 
Senator----

                           PREPARED STATEMENT

    Senator Cochran. Madam Chairman, could I ask unanimous 
consent that my statement welcoming the Chairman be printed in 
the record?
    Senator Landrieu. Absolutely, and without objection.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Madam Chairman, I am pleased to join you in welcoming the Secretary 
of the Department of Homeland Security to review the annual budget 
request of the Department with her. We look forward to working to 
recommend appropriate funding levels for the important programs and 
activities of the Department. We appreciate the Secretary's leadership 
in responding to weather-related disasters in several areas around the 
country and in developing effective strategies for dealing with them in 
the future.

    Senator Landrieu. Senator Murkowski.
    Senator Murkowski. I'm waiting for the Secretary.
    Senator Landrieu. Thank you.
    Madam Secretary.

               SUMMARY STATEMENT OF HON. JANET NAPOLITANO

    Secretary Napolitano. Well, thank you, Chairman Mikulski, 
Chairman Landrieu, members of the subcommittee, for the 
opportunity to discuss the President's fiscal year 2014 budget 
for the Department of Homeland Security.
    First, let me say a few words about the attack in Boston. 
Certainly, our thoughts and prayers remain with the victims, 
their families, and with the entire greater Boston community. 
We continue to support the ongoing investigation, working 
closely with the FBI, as well as other State and local 
partners. I know all of us here are committed to finding out 
why this happened, what more we can do to prevent attacks like 
this from occurring, and making sure that those responsible for 
this unconscionable act of terror are brought to justice.
    We will learn many lessons from this attack, just as we 
have from past instances of terrorism and violent extremism. We 
will apply those. We will emerge even stronger.
    Over the past week, as you have noted, we saw a very quick, 
coordinated, and cohesive response by the law enforcement 
community, as well as by our private-sector partners, citizens, 
and community members. Immediately after the attack, we saw 
people at the scene of the explosions, from first responders 
and trained medical staff to citizens and even marathoners, 
contribute to the triage operation. We saw a very orderly 
process of helping victims and securing the area. Area 
hospitals were prepared to handle the surge of incoming 
patients, and as a result, lives were saved.
    Law enforcement at all levels joined together and shared 
knowledge, expertise, and resources. Many had been specifically 
trained in improvised explosive device threats. Many had 
exercised for this type of scenario. The response was swift, 
effective, and in many ways will serve as a model for the 
future.
    The public was enlisted to help identify the suspects, and 
within hours of the FBI releasing their photos, they were 
identified and located. In the ensuing manhunt, the public 
cooperated with shelter-in-place orders, public safety was 
maintained, and eventually a tip helped law enforcement bring 
the remaining suspect into custody. I think the people of 
Boston showed tremendous resilience over the past week, and so 
did America.
    Today, after 10 years of investments in training and 
equipment and improved information sharing, our cities and 
communities and our Nation are stronger, more prepared and 
engaged, and better equipped to address a range of threats.
    Of course, as you noted, this year marks the 10th 
anniversary of the creation of DHS, the largest reorganization 
of the Federal Government since the creation of the Department 
of Defense. After 10 years of effort, DHS has transformed 22 
legacy agencies into a single integrated Department, building a 
strengthened homeland security enterprise and a more secure 
America, better equipped to confront the range of threats we 
face.
    The President's fiscal year 2014 budget for DHS allows us 
to build on our progress over the past 10 years by preserving 
core frontline priorities. At the same time, given the current 
fiscal environment, this is the third straight year our budget 
request reflects a reduction from the previous year. 
Specifically, the budget request is 2.2 percent or more than 
$800 million below the fiscal year 2013 enacted budget.
    While our mission has not changed and we continue to face 
evolving threats, we have to become and have become more 
strategic in how we use limited resources, focusing on a risk-
based approach. This is coupled with an unprecedented 
commitment to fiscal discipline, which has led to over $4 
billion in cost avoidances and reductions over the past 4 years 
through our efficiency review.
    The recent full-year appropriations bill enabled DHS to 
mitigate, to some degree, the projected sequester impacts under 
the continuing resolution on our operations and workforce, but 
there is no doubt that these cuts, totaling more than $3 
billion across 6 months, will affect operations in the short 
and long terms. Sustained cuts at these sequester levels will 
result in reduced operational capacity, breached staffing 
floors, and economic impacts to the private sector through 
reduced and canceled contracts.
    We continue to do everything we can to minimize the impacts 
on our core mission and on our employees consistent with the 
operational priorities in our 2014 budget. So let me, if I 
might, go ahead and identify a few of those.
    First, to prevent terrorism and enhance security, the 
fiscal year 2014 budget continues to support risk-based 
security initiatives, including TSA PreCheck 
(Pre3<SUP>TM</SUP>), Global Entry, and other trusted traveler 
programs. As a result, we expect one in four travelers to 
receive some form of expedited screening by the end of the 
year.
    The budget supports administration efforts to secure 
maritime cargo and a global supply chain by strengthening 
efforts to interdict threats at the earliest point possible.
    We continue our strong support for State and local partners 
through training, fusion centers, and information sharing on a 
wide range of critical homeland security issues. We also fund 
cutting-edge research and development to address evolving 
biological, radiological, and nuclear threats, including 
construction of the National Bio and Agro-Defense Facility 
known as NBAF.
    Next, to secure and manage our borders, the budget 
continues the administration's robust border security efforts 
while facilitating legitimate travel and trade. It sustains 
historic deployments of personnel along our borders, as well as 
continued utilization of proven effective surveillance 
technologies along the highest trafficked areas of the 
southwest border.
    To expedite travel and trade while reducing wait times at 
the ports of entry, the budget requests an additional 3,500 
port officers, 1,600 paid for by appropriations and the 
remainder by an increase to the immigration user fees that have 
not been adjusted since 2001. To secure maritime borders, the 
budget invests in recapitalization of Coast Guard assets, 
including the seventh national security cutter and two fast 
response cutters.
    The budget also continues the Department's focus on smart 
and effective enforcement of our Nation's immigration laws. It 
supports the administration's unprecedented effort to more 
effectively focus the enforcement system on public safety 
threats, border security, and the integrity of the immigration 
system through initiatives such as the deferred action for 
childhood arrivals, and greater use of prosecutorial 
discretion. At the same time, the budget makes significant 
reductions to inefficient programs like 287(g) task force 
agreements, while supporting more cost-effective initiatives 
like the nationwide implementation of Secure Communities.
    The budget invests in monitoring and compliance, promoting 
adherence to worksite-related laws, form I-9 inspections, and 
enhancements to the E-Verify program, while continuing to 
support alternatives to detention, detention reform, and 
immigrant integration efforts.
    Comprehensive immigration reform will help us continue to 
build on these efforts and strengthen border security by 
enabling DHS to further focus existing resources on criminals, 
human smugglers and traffickers, and national security threats.
    Next, to safeguard and secure cyberspace, the budget makes 
significant investments to strengthen cybersecurity, including 
funds to secure our Nation's information and financial systems 
and defend against cyber threats to private-sector and Federal 
systems, the Nation's critical infrastructure, and our economy; 
to support the President's Executive order on improving 
critical infrastructure cybersecurity and a Presidential policy 
directive on critical infrastructure and security resilience; 
and to expedite the deployment of Einstein 3 to prevent and 
detect intrusions on Government computer systems.
    Finally, to ensure continued resilience to disasters, the 
President's budget focuses on a whole-of-community approach to 
emergency management. It includes resources for the Disaster 
Relief Fund, the DRF, to support Presidentially Declared 
Disasters or emergencies. The administration is again proposing 
the consolidation of 18 grant programs into one national 
preparedness grant program to create a robust national response 
capacity while reducing administrative overhead.
    This competitive risk-based program will use a 
comprehensive process to assess gaps, identify and prioritize 
deployable capabilities, put funding to work quickly, and 
require grantees to regularly report progress. It is precisely 
this kind of funding that has enhanced preparedness and 
response capabilities in cities like Boston.
    Since 2002, the Boston urban area has received nearly $370 
million in Federal grant funding, which has been used to equip 
and train tactical and specialized response teams specifically 
in improvised explosive device (IED) detection, prevention, 
response, and recovery. Importantly, grants have supported 
increased coordination, particularly with respect to joint 
exercises and training, including more than a dozen exercises 
involving the city of Boston over the past several years. This 
includes a large-scale, mass-casualty exercise with more than 
1,800 first responders that was conducted just this past 
November.
    Because of the investments we have made with the help of 
this subcommittee and the Congress over the past 10 years, our 
State and local jurisdictions now have greater capabilities to 
prevent and respond to incidents. We must continue this 
support.

                           PREPARED STATEMENT

    In conclusion, the fiscal year 2014 budget proposal 
reflects this administration's strong commitment to protecting 
the homeland and the American people through the effective and 
efficient use of DHS resources. Madam Chairman, members of the 
subcommittee, thank you for the opportunity to testify with you 
this afternoon, and I will be pleased to answer your questions.
    [The statement follows:]
              Prepared Statement of Hon. Janet Napolitano
    Chairman Landrieu, Ranking Member Coats, and members of the 
subcommittee: Let me begin by saying thank you to this subcommittee for 
the strong support you have provided me and the Department over the 
past 4 years. I look forward to continuing to work with you in the 
coming year to protect the homeland and the American people.
    I am pleased to appear before the subcommittee today to present 
President Obama's fiscal year 2014 budget request for the Department of 
Homeland Security (DHS).
    This year marks the 10th anniversary of the creation of DHS, the 
largest reorganization of the U.S. Government since the formation of 
the Department of Defense. After 10 years of effort, DHS has 
transformed 22 agencies from across the Federal Government into a 
single integrated Department, building a strengthened homeland security 
enterprise and a more secure America better equipped to confront the 
range of threats we face.
    Our workforce of nearly 240,000 law enforcement agents, officers, 
and men and women on the frontlines put their lives at risk every day 
to protect our country from threats to the homeland, securing our land, 
air, and maritime borders; enforcing our immigration laws; and 
responding to natural disasters. Our employees are stationed in every 
State and in more than 75 countries around the world, engaging with 
State, local, and foreign partners to strengthen homeland security 
through cooperation, information sharing, training, and technical 
assistance. Domestically, DHS works side by side with State and local 
\1\ law enforcement (SLLE) and emergency responders in our communities, 
along our borders, and throughout a national network of fusion centers. 
The Department also collaborates with international partners, including 
foreign governments, major multilateral organizations, and global 
businesses to strengthen the security of the networks of global trade 
and travel, upon which our Nation's economy and communities rely.
---------------------------------------------------------------------------
    \1\ Local law enforcement includes all law enforcement at the 
municipal, tribal, and territorial levels.
---------------------------------------------------------------------------
    DHS employs a risk-based, intelligence-driven approach to help 
prevent terrorism and other evolving security threats. Utilizing a 
multi-layered detection system, DHS focuses on enhanced targeting and 
information sharing, and on working beyond our borders to interdict 
threats and dangerous actors at the earliest point possible. Each day, 
DHS screens 2 million passengers at domestic airports; intercepts 
thousands of agricultural threats; expedites the transit of nearly 
100,000 people through trusted traveler and known crewmember programs; 
and trains thousands of Federal, State, local, rural, tribal, 
territorial, and international officers and agents through more than 
550 basic and advanced training programs available at the Federal Law 
Enforcement Training Center (FLETC). We conduct vulnerability 
assessments of key infrastructure, disseminate intelligence regarding 
current and developing threats, and provide connectivity to Federal 
systems to help local law enforcement and homeland security agencies 
across the country in reporting suspicious activities and implementing 
protective measures.
    Our borders and ports are stronger, more efficient, and better 
protected than ever before. At the southwest border, apprehensions have 
decreased to the lowest point in more than 30 years. We have 
significantly invested in additional personnel, technology, and 
infrastructure, leading to historic progress along the border. We have 
deepened partnerships with Federal, State, local, and international law 
enforcement to combat transnational threats and criminal organizations 
to help keep our border communities safe. We have strengthened entry 
procedures to protect against the use of fraudulent documents and the 
entry of individuals who may wish to do us harm. And we have made our 
ports of entry (POEs) more efficient to expedite lawful travel and 
trade. Each day, almost 1 million people arrive at our POEs by land, 
sea, and air. In fiscal year 2012, DHS processed more than 350 million 
travelers at our POEs, including almost 100 million international air 
travelers and $2.3 trillion of trade, while enforcing U.S. laws that 
welcome travelers, protect health and safety, and facilitate the flow 
of goods essential to our economy.
    DHS has focused on smart and effective enforcement of U.S. 
immigration laws while streamlining and facilitating the legal 
immigration process. We have established clear enforcement priorities 
to focus the enforcement system on the removal of individuals who pose 
a danger to national security or a risk to public safety, including 
aliens convicted of crimes, with particular emphasis on violent 
criminals, felons, and repeat offenders, while implementing a 
comprehensive worksite enforcement strategy to reduce demand for 
illegal employment and protect employment opportunities for the 
Nation's lawful workforce. DHS has implemented major reforms to the 
Nation's immigration detention system to enhance security and 
efficiency and protect the health and safety of detainees while 
expanding nationwide the Secure Communities program, which uses 
biometric information to identify criminal aliens in State and local 
correctional facilities. Over the past 4 years, the Department has also 
improved the legal immigration process by streamlining and modernizing 
immigration benefits processes; strengthening fraud protections; 
protecting crime victims, asylees, and refugees; updating rules to keep 
immigrant families together; and launching new initiatives to spur 
economic competitiveness.
    Today, our borders are more secure and our border communities are 
among the safest communities in our country. We have removed record 
numbers of criminals from the United States, and our immigration laws 
are being enforced according to sensible priorities. We have taken 
numerous steps to strengthen legal immigration and build greater 
integrity into the system. We are using our resources smartly, 
effectively, responsibly.
    Despite these improvements, however, our immigration system remains 
broken and outdated. That is why the Department stands ready to 
implement common-sense immigration reform that would continue 
investments in border security, crack down on companies that hire 
undocumented workers, improve the legal immigration system for 
employment-sponsored and family-sponsored immigrants, and establish a 
responsible pathway to earned citizenship. Comprehensive immigration 
reform will help us continue to build on this progress and strengthen 
border security by providing additional tools and enabling DHS to 
further focus existing resources on preventing the entry of criminals, 
human smugglers and traffickers, and national security threats.
    Our Nation's critical infrastructure is crucial to our economy and 
security. DHS is the Federal Government's lead in securing unclassified 
Federal civilian government networks as well as working with owners and 
operators of critical infrastructure to secure their networks and 
protect physical assets through risk assessment, mitigation, forensic 
analysis, and incident response capabilities. In 2012, DHS issued 
warnings and responded to an average of 70 incidents per month arising 
from more than 10,000 daily alerts. The President also issued an 
Executive order on cybersecurity and a Presidential policy directive on 
critical infrastructure security and resilience to strengthen the 
security and resilience of critical infrastructure against evolving 
threats through an updated and overarching national framework that 
acknowledges the interdependencies between cybersecurity and securing 
physical assets.
    In support of these efforts, DHS serves as the focal point for the 
U.S. Government's cybersecurity outreach and awareness activities and 
is focused on the development of a world-class cybersecurity workforce 
as well as innovative technologies that sustain safe, secure, and 
resilient critical infrastructure. We work hand-in-hand with our 
private-sector partners, recognizing the importance of public-private 
partnerships to build resilience through a whole-of-community approach. 
In addition to these responsibilities, DHS combats cybercrime by 
leveraging the skills and resources of the law enforcement community 
and interagency partners to investigate and prosecute cyber criminals.
    DHS has fundamentally changed how we work with our State and local 
partners to prepare for, respond to, recover from, and mitigate the 
effects of disasters. Through the Federal Emergency Management Agency 
(FEMA), we have implemented innovative practices to transform our 
disaster workforce through the creation of FEMA Corps and the DHS Surge 
Capacity Workforce. Working closely with State and local officials, we 
preposition resources before disasters hit and have 28 national urban 
search and rescue teams on standby in addition to dozens of State and 
local teams to support response efforts. We train more than 2 million 
emergency management and response personnel annually at the Emergency 
Management Institute, National Fire Academy, and through Community 
Emergency Response Teams to improve capabilities across all hazards. 
Additionally, we have deployed new capabilities to help disaster 
survivors recover and communities rebuild.
                maximizing efficiency and effectiveness
    The fiscal year 2014 budget for DHS is $60.0 billion in total 
budget authority and $48.5 billion in gross discretionary funding. 
These two amounts include $5.6 billion in Disaster Relief Fund (DRF) 
appropriations for recovery from major disasters, pursuant to the 
Budget Control Act. Excluding the $5.6 billion funding within the DRF, 
the net discretionary total is $39 billion.
Realizing Efficiencies and Streamlining Operations
    The Department has implemented a variety of initiatives to cut 
costs, share resources across components, and consolidate and 
streamline operations wherever possible. In fiscal year 2014, these 
initiatives will result in $1.3 billion in savings from administrative 
and mission support areas, including contracts, information technology 
(IT), travel, personnel moves, overtime, directed purchasing, 
professional services, and vehicle management.
    Through the Department-wide, employee-driven Efficiency Review 
(ER), which began in 2009, as well as other cost-saving initiatives, 
DHS has identified more than $4 billion in cost avoidances and 
reductions, and redeployed those funds to mission-critical initiatives 
across the Department.
            Strategic Sourcing
    Through ER and component initiatives, DHS has used strategic 
sourcing initiatives to leverage the purchasing power of the entire 
Department for items such as language services, tactical communications 
services and devices, intelligence analysis services, and vehicle 
maintenance services. In fiscal year 2012, we achieved $368 million in 
savings, and we project $250 million in savings for fiscal year 2013. 
We expect a comparable level of savings as we continue forward with 
this approach in fiscal year 2014.
            Travel and Conferences
    In support of the administration's Campaign to Cut Waste, DHS 
strengthened conference and travel policies and controls to reduce 
travel expenses, ensure conferences are cost-effective, and ensure both 
travel and conference attendance is driven by critical mission 
requirements. During 2012, DHS issued a new directive that establishes 
additional standards for conferences and requires regular reporting on 
conference spending, further increasing transparency and 
accountability. The Department's fiscal year 2014 budget projects an 
additional 20-percent reduction in travel costs from fiscal years 2013-
2016.
            Real Property Management
    DHS manages a real property portfolio of approximately 38,000 
assets, which spans all 50 States and 7 U.S. territories. The 
Department has adopted strategies to achieve greater efficiencies in 
the management of its real property portfolio that includes expediting 
the identification and disposal of under-utilized assets as well as 
improving the utilization of remaining Department inventory. These 
efforts will result in reductions in the size of our civilian real 
estate inventory, annual operating and maintenance costs, and energy 
usage. DHS anticipates that the amount of space and cost per full-time 
equivalent employee will continue to decline as spaces are reconfigured 
or new space is acquired on the basis of new workplace planning 
assumptions. DHS is committed to continuing to improve the management 
and alignment of its real property with advances in technology, 
mission, and work requirements.
Management and Integration
    Over the past 4 years, DHS has significantly improved departmental 
management, developing and implementing a comprehensive, strategic 
approach to enhance Department-wide maturation and integration. We have 
improved acquisition oversight, ensuring full consideration of the 
investment lifecycle in cost estimates, establishing procedures to 
thoroughly vet new requirements and alternative solutions, and 
supporting full funding policies to minimize acquisition risk. The 
fiscal year 2014 budget includes key investments to strengthen the 
homeland security enterprise, increase integration, address challenges 
raised by the U.S. Government Accountability Office (GAO), and continue 
to build upon the management reforms that have been implemented under 
this administration.
    Modernization of the Department's financial management systems has 
been consistently identified as critical by the Office of Management 
and Budget, the GAO, and Congress, and is vital to our ability to 
provide strong stewardship of taxpayer dollars. Over the past several 
years, we have made significant progress improving financial management 
practices and establishing internal controls. In 2012, DHS earned a 
qualified audit opinion on its balance sheet, a significant milestone 
and a pivotal step toward increasing transparency and accountability 
for the Department's resources. This full-scope audit opinion is a 
result of DHS's ongoing commitment to instituting sound financial 
management practices to safeguard taxpayer dollars.
    Although DHS continues to maximize cost efficiencies and savings 
wherever possible, new investment must be made to improve our outdated 
financial systems and tools. The fiscal year 2014 budget supports 
financial system modernization at the U.S. Coast Guard (USCG), which 
also provides financial management services to two other DHS 
components.
    DHS is also implementing a coordinated management approach for 
strategic investments and resource decisions involving multiple 
components through the Integrated Investment Life Cycle Model. This 
initiative will help the Department enhance mission effectiveness while 
achieving management efficiencies by providing a broader, enterprise-
wide perspective and ensuring DHS investments address the greatest 
needs of the Department.
Strategic Re-Organizations
    In today's fiscal environment, the Department has challenged its 
workforce to fundamentally rethink how it does business, from the 
largest to the smallest investments. To help reduce costs, DHS 
conducted a formal base budget review, looking at all aspects of the 
Department's budget to find savings and better align resources with 
operational requirements.
            United States Visitor and Immigrant Status Indicator 
                    Technology (US-VISIT)
    To better align the functions of US-VISIT with the operational 
components, the budget re-proposes the transfer of US-VISIT functions 
from the National Protection and Programs Directorate (NPPD) to U.S. 
Customs and Border Protection (CBP), consistent with the President's 
fiscal year 2013 budget. Currently, CBP operates numerous screening and 
targeting systems, and integrating US-VISIT within CBP will strengthen 
the Department's overall vetting capability while also realizing 
operational efficiencies and cost savings.
            State and Local Grants
    Given the fiscal challenges facing the Department's State and local 
partners, DHS is also approaching these partnerships in new and 
innovative ways. The budget re-proposes the National Preparedness Grant 
Program (NPGP), originally presented in the fiscal year 2013 budget, to 
develop, sustain, and leverage core capabilities across the country in 
support of national preparedness, prevention, and response, with 
appropriate adjustments to respond to stakeholder feedback in 2012. 
While providing a structure that will give grantees more certainty 
about how funding will flow, the proposal continues to utilize a 
comprehensive process for assessing regional and national gaps; support 
the development of a robust cross-jurisdictional and readily deployable 
State and local assets; and require grantees to regularly report 
progress in the acquisition and development of these capabilities.
            Land Port of Entry (LPOE) Delegation
    Beginning in fiscal year 2013, the General Services Administration 
(GSA) will work with DHS to delegate the operations of LPOE facilities 
to CBP. The distinctive nature of LPOEs as mission-oriented, 24/7 
operational assets of CBP, as well as national trade and transportation 
infrastructure, differentiates this part of the portfolio from other 
Federal buildings managed by GSA. The delegation facilitates faster 
delivery of service tailored to the specific needs of CBP's mission and 
will be more responsive to changing priorities and critical operations.
DHS Commonality Efforts
    The successful integration of 22 legacy agencies into DHS was an 
important and ambitious undertaking that has increased the Department's 
ability to understand, mitigate, and protect against threats to the 
Nation. Further integration of the Department and of the development of 
a ``One-DHS'' culture will strengthen effectiveness, improve 
decisionmaking to address shared issues, and prioritize resources in an 
era of fiscal constraint. The fiscal year 2014 budget continues this 
emphasis and supports ongoing efforts aimed at furthering integration, 
some of which are highlighted as follows.
            Common Vetting
    It is estimated that DHS spends approximately $1.8 billion annually 
on information-based screening. Consequently, DHS has established a 
Common Vetting Initiative to improve the efficiency and effectiveness 
of vetting operations within the Department. Although this work is 
ongoing, it is expected that this effort will identify opportunities 
for streamlining operations and strengthening front-end assessment of 
requirements as part of an integrated investment lifecycle.
    Additionally, DHS is leveraging existing capabilities and its 
research and development (R&D) capabilities at the Science and 
Technology Directorate (S&T) to enhance the Department's exit program, 
and to identify and sanction those who overstay their lawful period of 
admission to the United States. This initiative is focused on 
aggregating information within existing data systems, enhancing review 
of potential overstays, increasing automated matching, and 
incorporating additional biometric elements to provide the foundation 
for a future biometric exit solution. The transfer of US-VISIT 
functions to CBP and U.S. Immigration and Customs Enforcement (ICE) 
supports this effort and better aligns mission functions.
            Aviation Commonality
    The Department is projected to spend approximately $1.2 billion 
over fiscal years 2014-2018 on procurement of aviation assets. In 2011, 
DHS stood up an aviation commonalities working group to improve 
operational coordination in acquisition, facilities, maintenance, and 
logistics between CBP and USCG. The Department also launched an 
Aviation and Marine Commonalities Pilot Project in the fall of 2012 to 
test the unified command and control of departmental aviation and 
marine forces. Complementing this effort, DHS recently began an ER 
initiative, which will increase cross-component collaboration for 
aviation-related equipment and maintenance by establishing excess 
equipment sharing, maintenance services, and contract teaming 
agreements, as well as other opportunities for aviation-related 
efficiencies.
            Investigations
    A recent partnership between ICE's Homeland Security Investigations 
and the U.S. Secret Service (USSS) demonstrates the Department's 
commitment to leveraging capabilities across components and finding 
efficiencies. Both ICE and USSS are expanding participation in the 
existing Secret Service Electronic Crimes Task Forces (ECTFs), which 
will strengthen the Department's cybercrimes investigative capabilities 
and realize efficiencies in the procurement of computer forensic 
hardware, software licensing, and training. This collaboration will 
integrate resources devoted to investigating transnational criminal 
organizations; transnational child exploitation; financial crime, 
including money laundering and identity and intellectual property 
theft; and network intrusions by domestic and international threats. 
This will further enhance the response capability of the Department to 
a cyber event by leveraging the assets of the Secret Service's 31 
ECTFs, which bring together more than 2,700 international, Federal, 
State, and local law enforcement partners; 3,100 private-sector 
members; and 300 academic partners.
            CBP Staffing and Mission Integration
    Given the administration's strong and continued focus on border 
security, DHS has undertaken a series of initiatives to ensure that 
CBP's operations are integrated and that Border Patrol agents (BPAs) 
and CBP officers (CBPOs) are optimally deployed. As part of its mission 
integration efforts, CBP has applied complementary BPA and CBPO 
deployments to enhance mission sets both at and between the POEs. 
Toward this goal, CBP has identified numerous mission areas where BPAs 
can substantially support: port operations, including canine detection 
operations for drugs and concealed humans; outbound operations that 
target currency, firearms, and fugitives; port security, counter-
surveillance, and perimeter enforcement operations; inbound secondary 
conveyance inspections for narcotics and human smuggling. CBP has also 
identified mission areas where BPAs secure and transport seized 
contraband.
    CBP is realizing significant operational and force-multiplying 
benefits from deploying BPAs to support POE requirements. Over the last 
year, these efforts have augmented POE operations, enabling CBP to more 
effectively address the threat of money and weapons being smuggled 
southbound into Mexico for use by transnational criminal organizations. 
In 2013, CBP is expanding these efforts by synchronizing mission 
integration efforts across the four key southwest border operational 
corridors: South Texas, El Paso/New Mexico, Arizona, and southern 
California. The harmonization of current efforts will increase rapid 
response capability, develop unified intelligence and targeting 
approaches, and identify additional areas for on-the-ground operational 
collaboration.
Supporting Economic Growth and Job Creation
    In support of the President's Executive order on travel and tourism 
and to continue building upon the administration's significant 
investments in border security, the fiscal year 2014 budget includes 
several proposals to invest in the men and women on the frontlines of 
our 329 POEs along the border and at airports and seaports across the 
country. Processing the more than 350 million travelers annually 
provides nearly $150 billion in economic stimulus, yet the fees that 
support these operations have not been adjusted in many cases for more 
than a decade. As the complexity of our operations continues to expand, 
the gap between fee collections and the operations they support is 
growing, and the number of workforce hours fees support decreases each 
year. Accordingly, the budget supports 3,477 new CBPOs to reduce 
growing wait times at our POEs and increase seizures of illegal items 
(guns, drugs, currency, and counterfeit goods). This includes 
appropriated funding for 1,600 additional CBPOs and, with congressional 
approval, 1,877 new CBPOs through adjustments in immigration and 
customs inspections user fees to recover more of the costs associated 
with providing services. These fee proposals will also help address the 
staffing gap outlined in CBP's Resource Optimization at Ports of Entry, 
fiscal year 2013 Report to Congress, submitted with the President's 
budget. In addition, CBP and the U.S. Department of Agriculture are 
evaluating financial models to achieve full cost recovery for 
agricultural inspectional services provided by CBP.
    Beyond the additional frontline positions, the President's budget 
also provides direct support for thousands of new jobs through major 
infrastructure projects such as the National Bio and Agro-Defense 
Facility (NBAF) and a consolidated departmental headquarters at the St. 
Elizabeths Campus. Investment in USCG recapitalization projects 
supports more than 4,000 jobs as well in the shipbuilding and aircraft 
industries. Through our grant programs we will continue helping local 
communities to create and maintain jobs, while strengthening the 
resiliency of important economic sectors and infrastructure. The budget 
additionally supports CBP and ICE efforts to combat commercial trade 
fraud, including intellectual property law infringement, estimated to 
cost the economy up to $250 billion each year.
    Continued investment in Coast Guard frontline operations and 
recapitalization of its aging fleet helps to protect the Nation's 
Exclusive Economic Zone, a source of $122 billion in annual U.S. 
revenue, and to secure 361 ports and thousands of miles of maritime 
thoroughfares that support 95 percent of trade with the United States. 
Through CBP and the Transportation Security Administration (TSA), we 
continue to promote safe and secure travel and tourism, supporting a 
$2.3 trillion tourism industry. These programs, among others, enhance 
our Nation's safety and security while fostering economic growth and 
job creation.
                           budget priorities
    The fiscal year 2014 budget prioritizes programs and activities 
within the homeland security mission areas outlined in the Department's 
2010 Quadrennial Homeland Security Review, the 2010 Bottom-Up Review, 
and the fiscal year 2012-2016 DHS Strategic Plan, undertaken by the 
Department to align its DHS resources with a comprehensive strategy to 
meet the Nation's homeland security needs.
    The budget builds on the progress the Department has made in each 
of its mission areas while strengthening existing capabilities, 
enhancing partnerships across all levels of government and with the 
private sector, streamlining operations, and increasing efficiencies.
    Mission 1: Preventing Terrorism and Enhancing Security.--Protecting 
the United States from terrorism is the cornerstone of homeland 
security. DHS's counterterrorism responsibilities focus on three goals: 
preventing terrorist attacks; preventing the unauthorized acquisition, 
importation, movement, or use of chemical, biological, radiological, 
and nuclear materials and capabilities within the United States; and 
reducing the vulnerability of critical U.S. infrastructure and key 
resources, essential leadership, and major events to terrorist attacks 
and other hazards.
    Mission 2: Securing and Managing Our Borders.--The protection of 
the Nation's borders--land, air, and sea--from the illegal entry of 
people, weapons, drugs, and other contraband while facilitating lawful 
travel and trade is vital to homeland security, as well as the Nation's 
economic prosperity. The Department's border security and management 
efforts focus on three interrelated goals: effectively securing U.S. 
air, land, and sea borders; safeguarding and streamlining lawful trade 
and travel; and disrupting and dismantling transnational criminal and 
terrorist organizations.
    Mission 3: Enforcing and Administering Our Immigration Laws.--DHS 
is focused on smart and effective enforcement of U.S. immigration laws 
while streamlining and facilitating the legal immigration process. The 
Department has fundamentally reformed immigration enforcement, focusing 
on identifying and removing criminal aliens who pose a threat to public 
safety and targeting employers who knowingly and repeatedly break the 
law.
    Mission 4: Safeguarding and Securing Cyberspace.--DHS is 
responsible for securing unclassified Federal civilian government 
networks and working with owners and operators of critical 
infrastructure to secure their networks through risk assessment, 
mitigation, and incident response capabilities. To combat cybercrime, 
DHS leverages the skills and resources of the law enforcement community 
and interagency partners to investigate and prosecute cyber criminals. 
DHS also serves as the focal point for the U.S. Government's 
cybersecurity outreach and awareness efforts to create a more secure 
environment in which the private or financial information of 
individuals is better protected.
    Mission 5: Ensuring Resilience to Disasters.--DHS coordinates the 
comprehensive Federal efforts to prepare for, protect against, respond 
to, recover from, and mitigate a terrorist attack, natural disaster, or 
other large-scale emergency, while working with individuals; 
communities; the private and nonprofit sectors; faith-based 
organizations; and Federal, State, local, territorial, and tribal 
(SLTT) partners to ensure a swift and effective recovery. The 
Department's efforts to help build a ready and resilient Nation include 
fostering a whole community approach to emergency management 
nationally; building the Nation's capacity to stabilize and recover 
from a catastrophic event; bolstering information sharing and building 
unity of effort and common strategic understanding among the emergency 
management team; providing training to our homeland security partners; 
and leading and coordinating national partnerships to foster 
preparedness and resilience across the private sector.
    In addition to these missions, DHS strives to maximize the 
effectiveness and efficiency of its operations while strengthening the 
homeland security enterprise. The collective efforts of Federal, SLTT, 
non-governmental, and private-sector partners, as well as individuals 
and communities across the country are critical to our shared security. 
This includes enhancing shared awareness of risks and threats, building 
capable, resilient communities and fostering innovative approaches and 
solutions through cutting-edge science and technology.
    The following are highlights of the fiscal year 2014 budget.
Preventing Terrorism and Enhancing Security
    Guarding against terrorism was the founding mission of DHS and 
remains our top priority. To address evolving terrorist threats and 
ensure the safety of the traveling public, the budget safeguards the 
Nation's transportation systems through a layered detection system and 
continues to support risk-based security initiatives, including TSA 
Pre3<SUP>TM</SUP>, Global Entry, and other trusted traveler programs. 
The budget supports administration efforts to secure maritime cargo and 
the global supply chain by strengthening efforts to prescreen and 
evaluate high-risk cargo. Investments in DHS's intelligence and 
targeting programs coupled with the expansion of the National Targeting 
Center, supported by the budget, will increase operational efficiencies 
and enhance our ability to interdict threats and dangerous people 
before they reach the United States.
    Funding is included for cutting-edge R&D to address evolving 
biological, radiological, and nuclear threats. Among the important 
research investments is the construction of NBAF, a state-of-the-art 
bio-containment facility for the study of foreign animal and emerging 
zoonotic diseases that will replace the inadequate facility at Plum 
Island. The budget funds the Securing the Cities (STC) program to 
protect our highest risk cities from radiological or nuclear attack and 
continues national bio-preparedness and response efforts. The budget 
also continues strong support for State and local partners through the 
NPGP, training, fusion centers, and intelligence analysis and 
information sharing on a wide range of critical homeland security 
issues.
  --Strengthening Risk-Based Aviation Security.--The fiscal year 2014 
        budget supports DHS's effort to employ risk-based, 
        intelligence-driven operations to prevent terrorist attacks and 
        to reduce the vulnerability of the Nation's aviation system to 
        terrorism. These security measures create a multi-layered 
        system to strengthen aviation security from the time a 
        passenger purchases a ticket to arrival at his or her 
        destination. The fiscal year 2014 budget:
    --Continues expansion of trusted traveler programs, such as TSA 
            Pre3<SUP>TM</SUP> and Global Entry, which are pre-screening 
            initiatives for travelers who volunteer information about 
            themselves before flying in order to potentially expedite 
            screening at domestic checkpoints and through customs. By 
            2014, TSA anticipates that one in four members of the 
            traveling public will be eligible for expedited domestic 
            screening.
    --Continues enhanced behavior detection in which interview and 
            behavioral analysis techniques are used to determine if a 
            traveler should be referred for additional screening at the 
            checkpoint. Analyses from pilots in fiscal year 2013 will 
            inform the next steps on how larger scale implementation in 
            fiscal year 2014 could improve capabilities in a risk-based 
            security environment.
    --Expands Secure Flight to perform watch list matching for 
            passengers before boarding large general aviation aircraft. 
            An estimated 11 million additional Secure Flight Passenger 
            Data sets are expected to be submitted by general aviation 
            operators per year.
    --Supports, as part of its multi-layered security strategy, the 
            Federal Flight Deck Officer and Flight Crew program as a 
            fully reimbursable program under FLETC's existing 
            authorities.
    --Prioritizes TSA's mission-critical screening functions, and 
            proposes the transfer of all exit lane staffing to local 
            airports pursuant to Federal regulatory authorities. 
            Airports will be responsible for integrating exit lane 
            security into their perimeter security plans, which are 
            assessed regularly by TSA.
  --Enhancing International Collaboration.--To most effectively carry 
        out our core missions, DHS continues to engage countries around 
        the world to protect both national and economic security. The 
        fiscal year 2014 budget supports DHS's strategic partnerships 
        with international allies and enhanced targeting and 
        information-sharing efforts to interdict threats and dangerous 
        people and cargo at the earliest point possible. The 
        Secretary's focus on international partnerships includes 
        elevating the Office of International Affairs to a stand-alone 
        office and a direct report. The fiscal year 2014 budget:
    --Supports the Immigration Advisory Program and the continued 
            growth of the Pre-Departure Vetting, which have experienced 
            a 156-percent increase in the number of no board 
            recommendations since 2010. Through these programs, CBP 
            identifies high-risk travelers who are likely to be 
            inadmissible into the United States and makes 
            recommendations to commercial carriers to deny boarding.
    --Continues to modernize the IT capability for screening visa 
            applications to support the expansion of Visa Security 
            Program (VSP) coverage at existing overseas high-risk visa 
            adjudication posts. The VSP represents ICE's front line in 
            protecting the United States against terrorists and 
            criminal organizations by preventing foreign nationals who 
            pose as a threat to national security from entering the 
            United States. In fiscal year 2014, VSP will enhance visa 
            vetting by increasing automated data exchange with the 
            Department of State and CBP's National Targeting Center. 
            ICE will leverage modernization to increase investigations 
            of visa applicants who pose a potential high risk for 
            terrorism and are attempting to travel to the United 
            States.
    --Supports the bilateral Beyond the Border Action Plan with Canada, 
            including CBP's pre-inspection efforts in rail, land, and 
            marine environments. Pre-inspection is a precursor to 
            preclearance, which supports DHS's extended border strategy 
            through the identification and prevention of terrorists, 
            criminals, and other national security threats before they 
            enter the United States. Pre-inspection/preclearance also 
            helps protect U.S. agriculture from the spread of foreign 
            pests, disease and global outbreaks.
  --Supporting Surface Transportation Security.--The surface 
        transportation sector, due to its open access architecture, has 
        a fundamentally different operational environment than 
        aviation. Accordingly, DHS helps secure surface transportation 
        infrastructure through risk-based security assessments, 
        critical infrastructure hardening, and close partnerships with 
        SLLE partners. The fiscal year 2014 budget supports DHS's 
        efforts to bolster these efforts. Specifically, the budget:
    --Includes the NPGP, described in more detail on the following 
            pages. This proposal focuses on building national 
            capabilities focused on preventing and responding to 
            threats across the country, including the surface 
            transportation sector, through urban search and rescue 
            teams, canine explosives detection teams, and HAZMAT 
            response as well as target hardening of critical transit 
            infrastructure.
    --Funds surface transportation security inspectors and canine teams 
            who work collaboratively with public and private-sector 
            partners to strengthen security and mitigate the risk to 
            our Nation's transportation systems.
    --Supports compliance inspections throughout the freight rail and 
            mass transit domains, critical facility security reviews 
            for pipeline facilities, comprehensive mass transit 
            assessments that focus on high-risk transit agencies, and 
            corporate security reviews conducted in multiple modes of 
            transportation to assess security.
    --Funds 37 Visible Intermodal Prevention and Response (VIPR) teams, 
            including 22 multi-modal Teams. VIPR teams are composed of 
            personnel with expertise in inspection, behavior detection, 
            security screening, and law enforcement for random, 
            unpredictable deployments throughout the transportation 
            sector to prevent potential terrorist and criminal acts.
    --Helps secure critical infrastructure and key resources located on 
            or near the water through patrols, enforcing security zones 
            and security escorts of certain vessels (e.g., vessels 
            containing hazardous cargo) in key U.S. ports and 
            waterways.
  --Strengthening Global Supply Chain Security.--The fiscal year 2014 
        budget continues to support the administration's Global Supply 
        Chain Security Strategy, which provides a national vision for 
        global supply chain security that is secure, efficient, and 
        resilient across air, land, and sea modes of transportation. 
        The budget:
    --Supports increased targeting capability through enhanced 
            automated systems providing CBP with real-time information 
            to focus its enforcement activities on higher risk 
            passengers and cargo.
    --Supports the consolidation of CBP's separate cargo and passenger 
            targeting locations, which will promote increased targeting 
            efficiencies and reduced delays of travelers and cargo.
    --Strengthens the Container Security Initiative, enabling CBP to 
            prescreen and evaluate high-risk containers before they are 
            shipped to the United States.
    --Continues support to improve the coordination of international 
            cargo security efforts, accelerate security efforts in 
            response to vulnerabilities, ensure compliance with 
            screening requirements, and strengthen aviation security 
            operations overseas.
    --Supports ongoing assessments of anti-terrorism measures in the 
            ports of our maritime trading partners through the Coast 
            Guard International Port Security Program.
    --Supports enhanced system efficiency through continued development 
            and deployment of the International Trade Data System. This 
            important resource provides a single automated window for 
            submitting trade information to the Federal agencies 
            responsible for facilitating international trade and 
            securing America's supply chain.
  --Research, Development, and Innovation (RD&I) at S&T.--The fiscal 
        year 2014 budget includes $467 million for RD&I, a $200 million 
        increase from fiscal year 2012 enacted levels. This funding 
        includes support for unclassified cybersecurity research that 
        supports the public and private sectors and the global Internet 
        infrastructure. It also allows S&T to resume R&D in areas such 
        as land and maritime border security; chemical, biological, and 
        explosive defense research; disaster resilience; cybersecurity; 
        and counterterrorism.
  --Support to SLLE.--The fiscal year 2014 budget continues support for 
        SLLE efforts to understand, recognize, prevent, and respond to 
        pre-operational activity and other crimes that are precursors 
        or indicators of terrorist activity through training, technical 
        assistance, exercise support, security clearances, connectivity 
        to Federal systems, technology, and grant funding. The budget 
        supports efforts to share intelligence and information on a 
        wide range of critical homeland security issues. The budget 
        continues to build State and local analytic capabilities 
        through the National Network of Fusion Centers, with a focus on 
        strengthening cross-Department and cross-government interaction 
        with fusion centers. It also elevates the Office of State and 
        local law enforcement to a stand-alone office. The budget:
    --Enables DHS to continue to assess capability development and 
            performance improvements of the National Network of Fusion 
            Centers through an annual assessment, collection of 
            outcomes-based performance data, and targeted exercises. 
            Resources also enable the Office of Intelligence and 
            Analysis, in partnership with the Office for Civil Rights 
            and Civil Liberties and the Privacy Office, to provide 
            privacy and civil rights and civil liberties training and 
            technical assistance support for fusion centers and their 
            respective liaison officer programs. Additionally, unique 
            partnerships with FEMA, NPPD, USCG, and ICE have 
            facilitated additional analytic training for fusion center 
            analysts on a variety of topics.
    --Continues to support SLTT efforts to counter violent extremism, 
            including the delivery of Building Communities of Trust 
            initiative roundtables, which focus on developing trust 
            between community leaders and law enforcement officials so 
            they cooperatively address the challenges of crime and 
            terrorism.
    --Expands, in partnership with the Departments of Justice (DOJ), 
            Education, and Health and Human Services, ongoing efforts 
            to prevent future mass casualty shootings, improve 
            preparedness, and strengthen security and resilience in 
            schools and other potential targets while working with 
            partners at all levels of government.
  --Biological, Radiological, and Nuclear Threat Detection.--Countering 
        biological, nuclear, and radiological threats requires a 
        coordinated, whole-of-government approach. DHS, through the 
        Domestic Nuclear Detection Office (DNDO) and the Office of 
        Health Affairs, works in partnership with agencies across 
        Federal, State, and local governments to prevent and deter 
        attacks using radiological and nuclear (rad/nuc) weapons 
        through nuclear detection and forensics programs and provides 
        medical and scientific expertise to support bio-preparedness 
        and response efforts.
    The fiscal year 2014 budget supports the following efforts:
  --Global Nuclear Detection Architecture (GNDA).--DNDO, in 
        coordination with other DHS components, the Attorney General, 
        and the Departments of State, Defense, and Energy, leads the 
        continued evolution of the GNDA. This comprehensive framework 
        incorporates detector systems, telecommunication, and 
        personnel, with the supporting information exchanges, programs, 
        and protocols that serve to detect, analyze, and report on rad/
        nuc materials that are not in regulatory control.
  --STC.--$22 million is requested for the STC program to continue 
        developing the domestic portion of the GNDA to enhance the 
        Nation's ability to detect and prevent a radiological or 
        nuclear attack in our highest risk cities.
  --Transformational R&D.--Funding is requested to develop and 
        demonstrate scientific and technological approaches that 
        address gaps in the GNDA and improve the performance of rad/nuc 
        detection and technical nuclear forensic capabilities. R&D 
        investments are made on the basis of competitive awards, with 
        investigators in all sectors--government laboratories, 
        academia, and private industry--encouraged to participate.
  --Rad/Nuc Detection.--Supports the procurement and deployment of 
        Radiation Portal Monitors and Human Portable Radiation 
        Detection Systems, providing vital detection equipment to CBP, 
        USCG, and TSA to scan for rad/nuc threats.
  --BioWatch.--Continues operations and maintenance of the federally 
        managed, locally operated, nationwide bio-surveillance system 
        designed to detect the release of aerosolized biological 
        agents.
  --NBAF.--The budget provides full funding for the construction of the 
        main laboratory at NBAF when coupled with the increased cost 
        share from the State of Kansas. This innovative Federal-State 
        partnership will support the first Bio Level 4 lab facility of 
        its kind, a state-of-the-art bio-containment facility for the 
        study of foreign animal and emerging zoonotic diseases that is 
        central to the protection of the Nation's food supply as well 
        as our national and economic security.
    In partnership with the State of Kansas, DHS is committed to 
        building a safe and secure facility in Manhattan, Kansas. The 
        main laboratory facility includes enhanced safety and security 
        features to ensure research conducted within the facility will 
        be contained, ultimately protecting the surrounding region and 
        the Nation's food supply. These features, which are 
        incorporated into the current NBAF design and address safety 
        recommendations of the National Academies of Sciences, include 
        specialized air and water decontamination systems, new 
        technologies to handle solid waste on site, and structural 
        components to strengthen the laboratory against hazardous 
        weather conditions.
    Funding is also provided for life and safety infrastructure repairs 
        at Plum Island Animal Disease Center while NBAF is being built, 
        to ensure an appropriate transition of research from Plum 
        Island, New York, to Manhattan, Kansas.
Securing and Managing Our Borders
    The budget continues the administration's robust border security 
efforts, while facilitating legitimate travel and trade. It sustains 
historic deployments of personnel along U.S. borders as well as the 
continued utilization of proven, effective surveillance technology 
along the highest trafficked areas of the southwest border to continue 
achieving record levels of apprehensions and seizures. In support of 
the President's Executive order on travel and tourism, the budget funds 
a record number of CBPOs through appropriated funds and proposed 
increases to user fee rates, to expedite travel and trade while 
reducing wait times at more than 300 POEs along the border and at 
airports and seaports across the country. Increased POE staffing of 
1,600 CBPOs funded through appropriations and 1,877 CBPOs funded 
through user fee increases will have a direct impact on the economy. On 
the basis of a study conducted by the National Center for Risk and 
Economic Analysis of Terrorism Events--University of Southern 
California, initial estimates indicate that for every 1,000 CBPOs 
added, the United States can anticipate a $2 billion increase in gross 
domestic product. That research indicates that these additional CBPOs 
may result in approximately 110,000 more jobs and a potential increase 
of $6.95 billion in gross domestic product.
    To secure the Nation's maritime borders and 3.4 million nautical 
square miles of maritime territory, the budget invests in 
recapitalization of USCG assets and provides operational funding for 
new assets coming on line, including national security cutters (NSCs), 
fast response cutters (FRCs), response boats-medium, maritime patrol 
aircraft, and command and control systems.
  --Law Enforcement Officers.--The budget supports 21,370 BPAs and a 
        record 25,252 CBPOs at POEs who work with Federal, State, and 
        local law enforcement to target illicit networks trafficking in 
        people, drugs, illegal weapons, and money and to expedite legal 
        travel and trade. This includes funds from proposed increases 
        to inspection user fees.
  --Travel and Trade.--In 2012, President Obama announced new 
        administrative initiatives through Executive Order 13597 to 
        increase travel and tourism throughout and to the United 
        States, and DHS plays an important role in this work. As 
        discussed in the highlights section, DHS is continuing to 
        develop new ways to increase the efficiency of our port 
        operations and to make international travel and trade easier, 
        more cost-effective and more secure.
  --Technology.--Funding is requested to support the continued 
        deployment of proven, effective surveillance technology along 
        the highest trafficked areas of the southwest border. Funds 
        will be used to procure and deploy commercially available 
        technology tailored to the operational requirements of the 
        Border Patrol, the distinct terrain, and the population density 
        within Arizona.
  --Tethered Aerostat Radar System (TARS).--DHS will take over 
        operations of TARS beginning in fiscal year 2014. TARS is a 
        multi-mission capability that supports both the counterdrug and 
        air defense missions, providing long-range detection and 
        monitoring of low-level air, maritime, and surface narcotics 
        traffickers.
  --Targeting and Analysis.--The budget includes additional investments 
        in CBP's targeting capabilities, which will enable CBP to 
        develop and implement an enhanced strategy that more 
        effectively and efficiently divides cargo and travelers 
        according to the potential threat they pose.
  --POE Infrastructure.--CBP, working with its various partners 
        including GSA, continues to modernize and maintain border 
        infrastructure that both facilitates trade and travel, and 
        helps secure the border. In fiscal year 2014, CBP will work 
        with GSA to complete the last phase of the Nogales-Mariposa 
        inspection facility and initiate the site acquisition and 
        design for the southbound phase of the San Ysidro modernization 
        project. Additionally, CBP will work with GSA to initiate 
        construction of a new bus processing terminal at the Lincoln-
        Juarez Bridge and renovation of the passenger and pedestrian 
        processing facility at the Convent Street inspection facility 
        in Laredo, Texas. Beginning in late fiscal year 2013 and 
        continuing in fiscal year 2014, CBP will assume responsibility 
        for the building operations, maintenance, and repair of the 
        land port inspection facilities from GSA to streamline 
        administrative processes and improve the responsiveness to CBP 
        mission requirements. Finally, CBP proposes legislative 
        authority in the fiscal year 2014 budget to accept donations 
        from the private sector.
  --CBP Air and Marine Procurement.--Funding is requested for two KA-
        350CER Multi-Role Enforcement Aircraft (MEA), which provide 
        direct support to CBP efforts to secure our Nation's borders. 
        Unlike the older, less-capable aircraft they are replacing, MEA 
        has the capabilities to detect, track, and intercept general 
        aviation threats; detect and track maritime threats over a wide 
        area; and support ground interdiction operations through a 
        variety of sensors and advanced data and video down-link.
  --Collect Customs Revenue.--Funds are requested to support CBP's role 
        as a revenue collector for the U.S. Treasury; customs revenue 
        remains the second largest source of revenue for the Federal 
        Government. CBP relies on bonds to collect duties owed when 
        importers fail to pay and efforts to collect from the importer 
        are not successful. This funding will support improvements to 
        increase the efficacy of CBP's bonding process, including the 
        delegation to a centralized office the responsibility for 
        developing and implementing Single Transaction Bond (STB) 
        policy, approving bond applications, reporting on activities, 
        and monitoring results. These resources will fund the 
        automation of STB processing and record keeping and provide 
        effective internal controls that protect the duties and taxes 
        (more than $38 billion in 2012) collected by CBP. Specifically, 
        CBP will automate and centralize into one location processing 
        of all STBs, resulting in enhanced program oversight, 
        consistent processing, and reduced write-offs and 
        delinquencies.
  --Protect Trade and Intellectual Property Rights Enforcement.--
        Funding is requested to support intellectual property and 
        commercial trade fraud investigations within ICE's National 
        Intellectual Property Rights Coordination Center (IPR Center). 
        With 21 partners and the expertise of the Federal Government's 
        largest law enforcement agencies, the IPR Center brings 
        together the full range of legal authorities and law 
        enforcement tools to combat intellectual property theft, 
        including medical regulation; patent, trademark, and copyright 
        protection; border enforcement; organized crime investigations; 
        and undercover operations. ICE will also increase collaboration 
        with CBP through a joint fraud enforcement strategy to 
        coordinate commercial fraud enforcement operations. The fiscal 
        year 2014 budget also supports CBP's enforcement programs to 
        prevent trade in counterfeit and pirated goods, and to protect 
        consumers and national security from harm from counterfeit 
        goods through special enforcement operations to increase IPR 
        seizures and referrals for criminal investigation. In addition, 
        the fiscal year 2014 budget supports technology and training to 
        increase the efficiency of targeting IPR infringing 
        merchandise.
  --USCG Recapitalization.--The fiscal year 2014 request fully funds a 
        seventh NSC; supports patrol boat recapitalization through the 
        FRC acquisition; continues acquisitions of the offshore patrol 
        cutter and a new polar ice breaker; and provides for critical 
        upgrades to command, control, and aviation sustainment. The 
        total request for USCG Acquisition, Construction, and 
        Improvements is $951 million.
  --USCG Operations.--The fiscal year 2014 request funds nearly 50,000 
        full-time personnel and nearly 7,000 reservists to maintain 
        safety, security, and stewardship of our Nation's waters and 
        maritime borders. Funds will support a full range of Coast 
        Guard cutters, aircraft, and boats to address threats from 
        inside the ports, within customs waters and out on the high 
        seas.
Enforcing and Administering Our Immigration Laws
    In the area of immigration, the budget supports the 
administration's unprecedented efforts to more effectively focus the 
enforcement system on public safety threats, border security, and the 
integrity of the immigration system while streamlining and facilitating 
the legal immigration process. Initiatives such as Deferred Action for 
Childhood Arrivals and greater use of prosecutorial discretion, where 
appropriate, support DHS efforts to focus finite resources on 
individuals who pose a danger to national security or a risk to public 
safety, and other high-priority cases. At the same time, the budget 
significantly reduces inefficient 287(g) task force agreements, while 
supporting more cost-efficient initiatives like the Secure Communities 
program. Nationwide implementation of Secure Communities and other 
enforcement initiatives, coupled with continued collaboration with DOJ 
to focus resources on the detained docket, is expected to result in the 
continued increase in the identification and removal of criminal aliens 
and other priority individuals.
    The budget provides the resources needed to address this changing 
population, while continuing to support Alternatives to Detention, 
detention reform, and immigrant integration efforts. Resources are also 
focused on monitoring and compliance, promoting adherence to worksite-
related laws, form I-9 inspections, and enhancements to the E-Verify 
program.
    Secure Communities.--In fiscal year 2013, the Department completed 
nationwide deployment of the Secure Communities program, which uses 
biometric information and services to identify and remove criminal and 
other priority aliens found in State prisons and local jails. Secure 
Communities is an important tool in ICE's efforts to focus its 
immigration enforcement resources on the highest priority individuals 
who pose a threat to public safety or national security, and the budget 
continues support of this program. ICE is committed to ensuring the 
Secure Communities program respects civil rights and civil liberties, 
and works closely with law enforcement agencies and stakeholders across 
the country to ensure the program operates in the most effective manner 
possible. To this end, ICE has issued guidance regarding the exercise 
of prosecutorial discretion in appropriate cases, including in cases 
involving witnesses and victims of crime, implemented enhanced training 
for SLLE regarding civil rights issues, and released new guidance that 
limits the use of detainers to the agency's enforcement priorities and 
restricts the use of detainers against individuals arrested for minor 
misdemeanor offenses such as traffic offenses and other petty crimes, 
among other recent improvements. The budget also includes $10 million 
for 73 ICE attorney positions that will continue prosecutorial 
discretion reviews of new cases to ensure that resources at the 
Executive Office for Immigration Review and ICE are focused on priority 
cases.
  --Immigration Detention.--Under this administration, ICE has focused 
        its immigration enforcement efforts on identifying and removing 
        priority aliens, including criminals, repeat immigration law 
        violators, and recent border entrants. As ICE focuses on 
        criminal and other priority cases, the agency continues to work 
        to reduce the time removable aliens spend in detention custody, 
        going from 37 days in fiscal year 2010 to fewer than 32 days in 
        fiscal year 2012. Consistent with its stated enforcement 
        priorities and guidance to the field, ICE will continue to 
        focus detention and removal resources on those individuals who 
        have criminal convictions or fall under other priority 
        categories. For low-risk individuals, ICE will work to enhance 
        the effectiveness of Alternatives to Detention, which provides 
        a lower per-day cost than detention. To ensure the most cost-
        effective use of Federal resources, the budget includes 
        flexibility to transfer funding between immigration detention 
        and the Alternatives to Detention program, commensurate with 
        the level of risk a detainee presents.
  --287(g) Program.--The budget reflects the cancellation of 
        inefficient task force officer model agreements, reducing the 
        cost of the 287(g) program by $44 million. The 287(g) jail 
        model agreements, as well as programs such as Secure 
        Communities, have proven to be more efficient and effective in 
        identifying and removing criminal and other priority aliens 
        than the task force officer model agreements.
  --Detention Reform.--ICE will continue building on ongoing detention 
        reform efforts in fiscal year 2014. In fiscal year 2013, ICE 
        implemented its new Risk Classification Assessment nationwide 
        to improve transparency and uniformity in detention custody and 
        classification decisions and to promote identification of 
        vulnerable populations. ICE will continue to work with DOJ to 
        reduce the average length of stay in detention by working to 
        secure orders of removal before the release of criminal aliens 
        from DOJ custody. In addition, ICE will continue implementation 
        of the new transfer directive, which is designed to minimize 
        long-distance transfers of detainees within ICE's detention 
        system, especially for those detainees with family members in 
        the area, local attorneys, or pending immigration proceedings. 
        ICE will also continue implementation of revised national 
        detention standards designed to maximize access to counsel, 
        visitation, and quality medical and mental healthcare in 
        additional facilities. Finally, DHS anticipates that the 
        rulemaking applying the Prison Rape Elimination Act to DHS 
        confinement facilities will be finalized in fiscal year 2013 
        and implemented in fiscal year 2013 and fiscal year 2014.
  --Worksite Enforcement.--Requested funds will continue the 
        Department's focus to promote compliance with worksite-related 
        laws through criminal prosecutions of egregious employers, form 
        I-9 inspections, civil fines, and debarment, as well as 
        education and compliance tools.
  --E-Verify.--The budget provides $114 million to support the 
        continued expansion and enhancement of E-Verify, the 
        administration's electronic employment eligibility verification 
        system. This funding will also continue support for the 
        expansion of the E-Verify Self-Check program, a voluntary, 
        free, fast, and secure online service that allows individuals 
        in the United States to confirm the accuracy of government 
        records related to their employment eligibility status before 
        formally seeking employment. These enhancements will give 
        individuals unprecedented control over how their social 
        security numbers are used in E-Verify and will further 
        strengthen DHS's ability to identify and prevent identity 
        fraud. In fiscal year 2014, U.S. Citizenship and Immigration 
        Services (USCIS) also plans to phase in an enhanced enrollment 
        process for E-Verify that reduces the enrollment burden on the 
        employer and the Federal Government, and that will provide 
        more-detailed user information for compliance assistance 
        activities. Additionally, USCIS will finalize the requirements 
        for the electronic I-9 and its supporting processes for E-
        Verify. These enhancements will deploy in phases in fiscal year 
        2014 and subsequent years.
  --Verification Information System (VIS).--The budget includes $12 
        million to fund the VIS Modernization initiative, a major 
        redesign of the system that supports E-Verify that will 
        transform the current E-Verify system, and improve usability 
        and overall ease of operations.
  --Immigrant Integration.--The budget includes $10 million to continue 
        support for USCIS immigrant integration efforts--a key element 
        of the President's immigration principles--through funding of 
        citizenship and integration program activities including 
        competitive grants to local immigrant-serving organizations to 
        strengthen citizenship preparation programs for permanent 
        residents.
  --Systematic Alien Verification for Entitlements (SAVE).--The fiscal 
        year 2014 budget continues support for USCIS SAVE operations 
        and enhancements to assist local, State, and Federal agencies 
        in determining the immigration status of benefit applicants. 
        This effort is funded through the Immigration Examinations Fee 
        Account.
  --USCIS Business Transformation.--The budget continues the multiyear 
        effort to transform USCIS from a paper-based filing system to a 
        customer-focused electronic filing system. This effort is 
        funded through the Immigration Examinations Fee Account. In 
        fiscal year 2013, USCIS will deploy additional functionality 
        into the agency's Electronic Immigration System (ELIS) to allow 
        processing of 1 million customer requests annually. USCIS is 
        committed to adding functionality and benefit types until all 
        workload is processed through ELIS.
Safeguarding and Securing Cyberspace
    The budget supports initiatives to secure our Nation's information 
and financial systems and to defend against cyber threats to private-
sector and Federal systems, the Nation's critical infrastructure, and 
the U.S. economy. It also supports the President's Executive order on 
improving critical infrastructure cybersecurity and the Presidential 
policy directive on critical infrastructure security and resilience. 
Taken together, the administration's initiatives strengthen the 
security and resilience of critical infrastructure against evolving 
threats through an updated and overarching national framework that 
acknowledges the linkage between cybersecurity and securing physical 
assets.
    Included in the fiscal year 2014 budget are enhancements to the 
National Cybersecurity Protection System (NCPS) to prevent and detect 
intrusions on government computer systems, and to the National 
Cybersecurity and Communications Integration Center to protect against 
and respond to cybersecurity threats. The budget also leverages a new 
operational partnership between ICE and USSS through the established 
network of USSS ECTFs to safeguard the Nation's financial payment 
systems, combat cybercrimes, target transnational child exploitation 
including large-scale producers and distributors of child pornography, 
and prevent attacks against U.S. critical infrastructure.
  --Federal Network Security.--$200 million is included for Federal 
        Network Security, which manages activities designed to enable 
        Federal agencies to secure their IT networks. The budget 
        provides funding to further reduce risk in the Federal cyber 
        domain by enabling continuous monitoring and diagnostics of 
        networks in support of mitigation activities designed to 
        strengthen the operational security posture of Federal civilian 
        networks. DHS will directly support Federal civilian 
        departments and agencies in developing capabilities to improve 
        their cybersecurity posture and to better thwart advanced, 
        persistent cyber threats that are emerging in a dynamic threat 
        environment.
  --NCPS.--$406 million is included for Network Security Deployment, 
        which manages NCPS, operationally known as EINSTEIN. NCPS is an 
        integrated intrusion detection, analytics, information-sharing, 
        and intrusion-prevention system that supports DHS 
        responsibilities to defend Federal civilian networks.
  --US-Computer Emergency Readiness Team (US-CERT).--$102 million is 
        included for operations of US-CERT, which leads and coordinates 
        efforts to improve the Nation's cybersecurity posture, promotes 
        cyber information sharing, and manages cyber risks to the 
        Nation. US-CERT encompasses the activities that provide 
        immediate customer support and incident response, including 24-
        hour support in the National Cybersecurity and Communications 
        Integration Center. As more Federal network traffic is covered 
        by NCPS, additional US-CERT analysts are required to ensure 
        cyber threats are detected and the Federal response is 
        effective.
  --SLTT Engagement.--In fiscal year 2014, DHS will expand its support 
        to the Multi-State Information Sharing and Analysis Center (MS-
        ISAC) to assist in providing coverage for all 50 States and 6 
        U.S. territories in its managed security services program. MS-
        ISAC is a central entity through which SLTT governments can 
        strengthen their security posture through network defense 
        services and receive early warnings of cyber threats. In 
        addition, the MS-ISAC shares cybersecurity incident 
        information, trends, and other analysis for security planning.
  --Cybersecurity R&D.--The fiscal year 2014 budget includes $70 
        million for S&T's R&D focused on strengthening the Nation's 
        cybersecurity capabilities.
  --Cyber Investigations.--The fiscal year 2014 budget continues to 
        support ICE and USSS efforts to provide computer forensics 
        support and training for investigations into domestic and 
        international criminal activities, including computer fraud, 
        network intrusions, financial crimes, access device fraud, bank 
        fraud, identity crimes and telecommunications fraud, benefits 
        fraud, arms and strategic technology, money laundering, 
        counterfeit pharmaceuticals, child pornography, and human 
        trafficking occurring on or through the Internet. USSS ECTFs 
        will also continue to focus on the prevention of cyber attacks 
        against U.S. financial payment systems and critical 
        infrastructure.
Ensuring Resilience to Disasters
    The Department's efforts to build a ready and resilient Nation 
focuses on a whole community approach to emergency management by 
engaging partners at all levels to build, sustain, and improve our 
capability to prepare for, protect against, respond to, recover from, 
and mitigate all hazards. In the event of a terrorist attack, natural 
disaster, or other large-scale emergency, DHS provides the coordinated, 
comprehensive Federal response while working with Federal, State, 
local, and private-sector partners to ensure a swift and effective 
recovery effort.
    To support the objectives of the National Preparedness Goal (NPG) 
and to leverage limited grant funding in the current fiscal 
environment, the administration is again proposing the NPGP to create a 
robust national response capacity based on cross-jurisdictional and 
readily deployable State and local assets, with appropriate adjustments 
to respond to stakeholder feedback received in 2012. While providing a 
structure that will give grantees more certainty about how funding will 
flow, the proposal continues to utilize a comprehensive process for 
assessing regional and national gaps, identifying and prioritizing 
deployable capabilities, and requiring grantees to regularly report 
progress in the acquisition and development of these capabilities.
    The budget also funds initiatives associated with the NPG; FEMA's 
continued development of catastrophic plans, which include regional 
plans for response to earthquakes and hurricanes and medical 
countermeasure dispensing; and training for 2 million emergency 
managers and first responders.
    State and Local Grants.--The budget includes $2.1 billion for State 
and local grants, consistent with the amount appropriated by Congress 
in fiscal year 2012. This funding will sustain resources for fire and 
emergency management programs while consolidating all other grants into 
the new, streamlined NPGP. In fiscal year 2014, the NPGP will:
  --Focus on the development and sustainment of core national emergency 
        management and homeland security capabilities.
  --Utilize gap analyses to determine asset and resource deficiencies 
        and inform the development of new capabilities through a 
        competitive process.
  --Build a robust national response capacity based on cross-
        jurisdictional and readily deployable State and local assets.
    Using a competitive, risk-based model, the NPGP will use a 
comprehensive process for identifying and prioritizing deployable 
capabilities, limit periods of performance to put funding to work 
quickly, and require grantees to regularly report progress in the 
acquisition and development of these capabilities.
  --Firefighter Assistance Grants.--The budget provides $670 million 
        for Firefighter Assistance Grants. Included in the amount is 
        $335 million for Staffing for Adequate Fire and Emergency 
        Response (SAFER) Grants to retain and hire firefighters and 
        first responders, and $335 million for Assistance to 
        Firefighter Grants, of which $20 million is provided for Fire 
        Prevention and Safety Grants. The administration re-proposes $1 
        billion for SAFER grants as part of the First Responder 
        Stabilization Fund, which was originally proposed in the 
        American Jobs Act.
  --Emergency Management Performance Grants (EMPGs).--Also included in 
        the budget is $350 million to support emergency managers and 
        emergency management offices in every State across the country. 
        EMPG supports State and local governments in developing and 
        sustaining the core capabilities identified in the NPG and 
        achieving measurable results in key functional areas of 
        emergency management.
  --DRF.--A total of $6.2 billion is provided for the DRF. Of this, 
        $586 million is included in the Department's base budget with 
        the remainder provided through the Budget Control Act budget 
        cap adjustment. The DRF provides a significant portion of the 
        total Federal response to victims in Presidentially declared 
        disasters or emergencies. Because of recently passed 
        legislation, Native American tribes can now request 
        Presidential major or emergency declarations. Two tribes, the 
        Eastern Band of Cherokee Indians and the Navajo Nation, have 
        already received declarations in 2013.
  --National Flood Insurance Program (NFIP).--The NFIP is fully funded 
        by policy fees. This program helps to reduce the risk of flood 
        damage to existing buildings and infrastructure by providing 
        flood-related grants to States, communities, and tribal 
        nations. The fiscal year 2014 budget reflects implementation of 
        the Biggert-Waters Flood Insurance Reform Act of 2012. The act 
        improves fiscal soundness by phasing out subsidies for 
        structures built before their flood risk was identified on a 
        Flood Insurance Rate Map. In addition, the act establishes a 
        reserve fund to be used for the payment of claims and claims-
        handling expenses as well as principal and interest payments on 
        any outstanding Treasury loans. The budget includes a $3.5 
        billion mandatory budget authority, of which $100 million will 
        be used for three interrelated mitigation grant programs to 
        increase America's resiliency to floods.
  --Training/Exercises.--The budget includes $165 million for training 
        and exercise activities to support Federal, State, and local 
        officials and first responders. In fiscal year 2014, the 
        Department expects to train more than 2 million first 
        responders and, under the revised National Exercise Program, 
        will conduct more than a dozen exercises across the country to 
        help improve national preparedness. The budget also supports 
        conducting a Spill of National Significance exercise, and 
        continues development of equipment and techniques that can be 
        used to detect, track, and recover oil in ice-filled waters.
  --Emergency Management Oversight.--The budget includes $24 million in 
        base resources for the Office of the Inspector General to 
        continue its emergency management oversight operations.
  --Incident Management.--The budget enables the Coast Guard to achieve 
        full operational capability for the incident management assist 
        team, providing an immediate, highly proficient, and deployable 
        surge capacity to incident commanders nationwide for response 
        to threats and other disasters.
Maturing and Strengthening the Department and the Homeland Security 
        Enterprise
    St. Elizabeths Campus.--The budget includes $92.7 million to 
support construction at the St. Elizabeths Campus. Currently, the 
Department's facilities are scattered in more than 50 locations 
throughout the National Capital Region, affecting critical 
communication and coordination across DHS components. USCG will move to 
St. Elizabeths in fiscal year 2013. To support the incident management 
and command-and-control requirements of our mission, the Department 
will continue development of the DHS consolidated headquarters at St. 
Elizabeths Campus. The requested funding will support phase 2 
renovation of the Center Building Complex for the Secretary's Office 
and key headquarters functions for command, control, and management of 
the Department.
    Data Center Consolidation.--The fiscal year 2014 budget includes 
$54.2 million for data center consolidation funding, which will be used 
to migrate FEMA, USCIS, TSA, and CBP to the enterprise data centers. A 
recent study performed by the Department's Office of the Chief 
Financial Officer analyzed 10 of the first completed migrations to 
enterprise data centers and determined that an average savings of 14 
percent, about $17.4 million in annual savings, had been achieved.
                               conclusion
    The Department's fiscal year 2014 budget proposal reflects the 
administration's strong commitment to protecting the homeland and the 
American people through the effective and efficient use of DHS 
resources. As outlined in my testimony today, we will continue to 
preserve core frontline priorities across the Department by cutting 
costs, sharing resources across components, and streamlining operations 
wherever possible.
    In general, the President's fiscal year 2014 budget demonstrates 
that we can make critical investments to strengthen the middle class, 
create jobs, and grow the economy while continuing to cut the deficit 
in a balanced way. The President believes we must invest in the true 
engine of America's economic growth--a rising and thriving middle 
class.
    The President's budget invests in high-tech manufacturing and 
innovation, clean energy, and infrastructure, while cutting red tape to 
help businesses grow. As I outlined earlier, our budget submission 
accomplishes these goals with responsible investments in the NBAF, St. 
Elizabeths, USCG recapitalization, and in cybersecurity--all of which 
will create jobs and provide opportunities for local economies to grow. 
We also propose 3,400 new CBPOs, jobs which will reduce wait-times at 
our POEs, strengthening security and increasing trade and tourism.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
Department's fiscal year 2014 budget request and other homeland 
security issues.

                           VIOLENT EXTREMISM

    Senator Landrieu. Thank you. Let me begin with a first 5-
minute round, and then we'll go in order of appearance: Senator 
Cochran, Senator Begich, Senator Murkowski, and Senator Moran.
    Madam Secretary, in 2011, the White House released a 
strategy to counter violent extremism ``to prevent violent 
extremists and their supporters from inspiring, radicalizing, 
financing and recruiting individuals or groups in the United 
States to commit acts of violence.'' What are your biggest 
domestic radicalization-related concerns, particularly post-
Boston, and what new efforts will the administration pursue or 
step up existing efforts? I know some of this is classified, 
but I would like you to comment on the concerns people have 
about the radicalization of these particular suspects.
    Secretary Napolitano. Well, Madam Chair, I think stepping 
back from Boston, when we look at Boston and Aurora and Tucson 
and Newtown and other events, one thing that is more and more 
clear is that we really don't have a clear understanding of the 
path that leads someone to become not just radical but to act 
out in a violent way, motivated by a jihadist ideology or 
another type of ideology.
    What we have been doing is focusing, working with the FBI 
and others on identifying the early behaviors and indicators 
that could provide a tip that someone along the continuum is 
moving to violence. We have prepared an extensive training 
curriculum that has been beta tested. It is now being used at 
the Federal Law Enforcement Training Center (FLETC), among 
other places. We have been providing a lot of support through 
training and exercise, as I mentioned in my testimony, and I 
think we're going to have to continue those, because one of the 
things that Boston makes clear is that you never can 100 
percent know whether something is going to happen. You have to 
be prepared, and exercising makes a lot of difference.

                      IMPROVISED EXPLOSIVE DEVICES

    Senator Landrieu. Let me follow up. People are very shocked 
to see these improvised explosive devices. I want to note for 
the record that there were five such attempts recently that 
were blocked. This one, unfortunately, succeeded, an improvised 
device in a large crowd causing serious damage and injury to 
individuals, including the death of some.
    Are there some better ways that we could act to try to 
detect these types of devices before they are detonated? I know 
that there is no substitute for a well-trained police force and 
that the streets were swept, but are there any new technologies 
are being developed or deployed that you may want to comment on 
at this time?
    Secretary Napolitano. Only to say that we are constantly 
looking for better detection equipment. Actually, our Science 
and Technology Director has several projects underway there. 
Obviously, we have also been doing that in relation to the air 
and the airport environment. We are working with the Department 
of Defense, seeing what technologies it has developed that may 
be appropriate for use in a domestic environment. So a lot of 
that work is and has been underway.

               CHEMICAL FACILITY ANTI-TERRORISM STANDARDS

    Senator Landrieu. I am glad Senator Mikulski brought up 
West, Texas, and I want to add an addendum to my opening 
statement because our hearts go out to this community as well 
that suffered what looks like a man-made tragedy at a 
fertilizer plants, killing 14 people and injuring 260. Our 
prayers are with that community today.
    But it was surprising to me, Madam Secretary, to find that 
11 Federal Departments and Agencies have major roles in 
chemical security in this Nation, including this Department of 
Homeland Security. Yet, I understand that this particular 
facility was not known to DHS, although it held significant 
quantities of chemicals at risk. Can you comment briefly on 
this? I only have a few, about 1\1/2\ minutes left, but could 
you comment about what your Department did or didn't know and 
what actions you have taken to look further into this 
situation?
    Secretary Napolitano. My understanding, and I will correct 
this later if I'm wrong, my understanding is that the facility 
had not reported, as it was required to do, when it had crossed 
the threshold level of amount to be under the CFATS program. So 
we are following up on that and making sure that whatever needs 
to be done is done.
    Senator Landrieu. Well, I hope so, and I will just follow 
up. I'm looking more into this myself, as are other committees. 
But for these small or large plants, when they report, to have 
that information shared appropriately at State and Federal 
levels so that reports that are given are shared and the burden 
does not necessarily unduly fall on the companies. However, 
they clearly have a responsibility, and I think that while it 
was overshadowed by Boston, this is going to be an important 
subject of attention by our subcommittee, and I'm sure others.
    Let me go to Senator Cochran.

                          COAST GUARD VESSELS

    Senator Cochran. Madam Chairman, it's a pleasure to join 
you in welcoming the distinguished Secretary of Homeland 
Security to our hearing today. It's been a pleasure working 
with the distinguished Senator from Louisiana, particularly on 
the acquisition of vessels that are needed by the Coast Guard 
and other agencies in your Department. There have been some 
indication that the budget might request for the next fiscal 
year the eventual production of up to eight national security 
cutters, 58 fast response cutters, and 25 offshore patrol 
cutters. But the testimony submitted today for the subcommittee 
doesn't go into much detail beyond the next fiscal year and 
doesn't contain an actual request for funding any specific 
number of ships or vessels that I have described.
    Could you give us some response indicating what the 
intentions of the Department are with respect to requests for 
funding for these activities?
    Secretary Napolitano. Yes, and I think we also have 
submitted the Capital Investment Plan (CIP), and I think it 
came in Friday. So if your staff doesn't have it, we will make 
sure that they do. With respect to the national security 
cutter, that is obviously a big investment. Those are expensive 
vessels. The budget provides for the acquisition of the 
seventh. The current CIP provides that ultimately we will have 
eight national security cutters.
    We are working our way through the acquisition of the fast 
response cutters. We just got the fiscal year 2013 budget, as 
you know, about 1 month ago maybe. That had six FRCs in it. The 
President's budget for 2014 has two more. Our plan is to 
average four per year. So the budgets, when you put the two 
together, they meld together.
    With respect to the other types of vessels, like I 
mentioned, I think the CIP will go into even greater detail.
    Senator Cochran. Well, thank you very much. I presume, 
Madam Chairman, when we do receive the report and the request, 
that it will be made a part of our hearing record.
    Senator Landrieu. Yes, it will.
    [The information follows:]

    [Clerk's Note.--The Capital Investment Plan is for official use 
only (and is maintained in subcommittee files) and cannot be printed. 
The following table summarizes the plan:]

                                        TABLE 1.--FISCAL YEAR 2014-2018 5-YEAR CAPITAL INVESTMENT PLAN (CIP)--ACQUISITION, CONSTRUCTION AND IMPROVEMENTS
                                                                           [Thousands of dollars, budget year dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                           Fiscal year
                                                               2012     Fiscal year  Fiscal year  Fiscal year  Fiscal year  Fiscal year  Total acquisition      Estimated        Total quantity
                                                             revised        2014         2015         2016         2017         2018          cost \1\       completion date          \1\
                                                             enacted      request                                                                                  \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Vessels..................................................     $642,000     $743,000     $935,000     $512,000     $723,500     $739,500
    Survey and Design--Vessel and Boats..................        6,000        1,000        2,000        3,000        2,500        2,500     Not Applicable     Not Applicable     Not Applicable
    In-Service Vessel Sustainment........................       14,000       21,000       36,000       57,000       57,000       50,000     Not Applicable     Not Applicable     Not Applicable
    Response Boat-Medium (RB-M)..........................      110,000  ...........  ...........  ...........  ...........  ...........            610,000               2016                180
    National Security Cutter (NSC).......................       77,000      616,000      710,000       38,000  ...........       45,000          4,749,000               2018                  8
    Offshore Patrol Cutter (OPC).........................       25,000       25,000       65,000      200,000      530,000      430,000         10,523,000               2034                 25
    Fast Response Cutter (FRC)...........................      358,000       75,000      110,000      110,000      110,000      110,000          3,928,000               2027                 58
    Cutter Boats.........................................        5,000        3,000        4,000        4,000        4,000        2,000     Not Applicable     Not Applicable     Not Applicable
    Medium Endurance Cutter (MEC) Sustainment............       47,000  ...........  ...........  ...........  ...........  ...........            296,800               2017                 27
    Polar Icebreaker.....................................  ...........        2,000        8,000      100,000       20,000      100,000                TBD                TBD                TBD
Aircraft.................................................      289,900       28,000       66,000      123,000       56,700       45,000
    CGNR 6017 Airframe Replacement.......................       18,300  ...........  ...........  ...........  ...........  ...........     Not Applicable     Not Applicable     Not Applicable
    Maritime Patrol Aircraft (MPA).......................      129,500  ...........       16,000       20,000  ...........  ...........          2,755,990               2025                 36
    HH-60 Conversion Projects............................       56,100  ...........  ...........  ...........        1,700        5,000            466,581               2015                 42
    HH-65 Conversion/Sustainment Projects................       24,000       12,000       35,000       40,000       40,000       25,000          1,150,400               2019                102
    Long Range Surveillance Aircraft (C-130H/J)..........       62,000       16,000       15,000       15,000       15,000       15,000          2,761,000               2026                 22
    Unmanned Aircraft System (UAS).......................  ...........  ...........  ...........       48,000  ...........  ...........                TBD                TBD                TBD
Other....................................................      161,140       59,930       59,000       89,000       81,500       81,500
    Program Oversight and Management.....................       26,000       10,000       20,000       20,000       20,000       20,000     Not Applicable     Not Applicable     Not Applicable
    Systems Engineering and Integration..................       17,140          204        1,000        1,000        1,000        1,000     Not Applicable     Not Applicable     Not Applicable
    C4ISR................................................       38,500       35,226       35,000       65,500       50,500       50,500          2,335,000               2025     Not Applicable
    CG-LIMS..............................................        6,500        1,500        3,000        2,500       10,000       10,000     Not Applicable     Not Applicable     Not Applicable
    Nationwide Automatic Identification System P(NAIS)...        5,000       13,000  ...........  ...........  ...........  ...........            276,800               2014                 58
    Rescue 21............................................       65,000  ...........  ...........  ...........  ...........  ...........          1,066,200               2017                 39
    Interagency Operations Centers (IOCs)................        3,000  ...........  ...........  ...........  ...........  ...........             83,000               2017                 35
Shore and ATON...........................................      200,692        5,000       20,000       60,000       45,000       45,000
    Major Shore, Military Housing ATON and S&D...........      112,900        2,000       10,000       30,000       20,000       20,000     Not Applicable     Not Applicable     Not Applicable
    Major Acquisition Systems Infrastructure.............       81,500  ...........        5,000       25,000       20,000       20,000     Not Applicable     Not Applicable     Not Applicable
    Minor Shore..........................................        6,292        3,000        5,000        5,000        5,000        5,000     Not Applicable     Not Applicable     Not Applicable
Personnel and Management.................................      110,192      115,186      115,729      117,042      118,127      119,302
    AC&I Core............................................          600          439          518          679          600          600     Not Applicable     Not Applicable     Not Applicable
    Direct Personnel Costs...............................      109,592      114,747      115,211      116,363      117,527      118,702     Not Applicable     Not Applicable     Not Applicable
                                                          --------------------------------------------------------------------------------------------------------------------------------------
      TOTAL..............................................    1,403,924      951,116    1,195,729      901,042    1,024,827    1,030,302
                                                            63,500 \2\  (42,000) \6
                                                                                  \
                                                           (5,004) \3\      909,116
                                                             (879) \4\
                                                             1,328 \5\
                                                          =============
                                                             1,462,869
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Total Acquisition Cost and Estimated Completion Date and Total Quantity are based on the Acquisition Program Baseline (APB) most recently approved by DHS, or alternatively, the 2007
  Integrated Deepwater System APB.
\2\ The Coast Guard also received an additional $63.5 million transfer in the Consolidated Appropriations Act, 2012, (Public Law 112-74), from the Air Force Aircraft Procurement appropriation
  for procurement of a C-130J aircraft.
\3\ Pursuant to Public Law 112-74, rescission of prior year unobligated balances.
\4\ Pursuant to Public Law 112-74, rescission of AC&I Direct Personnel funds.
\5\ Funds transfer from OE Appropriation to the MPA AC&I Subappropriation and 2012 (Public Law 112-74).
\6\ Proposed rescission and cancellation of $42 million in unobligated prior year balances appropriated in 2010 through 2012 in Public Law 111-83, Public Law 112-10, and Public Law 112-74.

                            BORDER SECURITY

    Senator Cochran. Thank you.
    Madam Secretary, there have been concerns about border 
protection. Recent reports from Customs and Border Protection 
indicate that arrests have increased over the last several 
years. But in March 2013, the Government Accountability Office 
(GAO) cited a study that found the number of apprehensions of 
illegals bore little relationship to border security 
effectiveness because agency officials did not compare 
apprehensions with the amount of cross-border illegal activity.
    What is the status of improvements that we have heard were 
being planned for border security, and when can we expect to be 
able to celebrate the establishment of a secure border?
    Secretary Napolitano. Well, Senator, actually I testified 
at length about this this morning in the Judiciary Committee. 
But the chairwoman is absolutely correct, the border is more 
secure now than it has ever been. All the numbers are trending 
in the right direction. We continue to add not just manpower 
but, importantly, technology and aerial coverage to the border. 
I think that has been the last piece that we need to add.
    So the border is divided into nine sectors. Each of them 
has a technology plan. We are trying to focus on off-the-shelf 
technology as opposed to R&D of new ones so that we can move as 
rapidly as possible. The way the bipartisan immigration bill is 
drafted, there is funding that is set aside that would provide 
for the continued funding for those technology plans. And with 
respect to aerial coverage, as you know, we now have drones 
over the border, but we also have regular fixed-wing aircraft 
that have platforms on them for radar and things of that sort.
    So the whole aspect of the southwest border, compared to 
where it was 5 years ago even, is very, very different.
    Senator Cochran. Thank you.
    Senator Landrieu. Thank you.
    Senator Begich.

                            BORDER FEE STUDY

    Senator Begich. Thank you very much, Madam Chairwoman.
    Madam Secretary, good to see you again. Thank you very much 
for being here today. I had a hearing earlier this morning with 
the Ocean Subcommittee that I chair, and Admiral Papp was 
there. It was on the budget, so this will be kind of part two. 
Authorizing to appropriations, kind of an odd combo, but we 
like it. I want to follow up on a couple of things that we 
talked about with Admiral Papp.
    But before I do that, I do want to say I think the work you 
all did, the local community and the citizens of Boston did an 
incredible job to move forward in a technology that was 
implemented and utilized. Some you can talk about, some you 
can't, but the end result was obviously apprehending the two 
individuals, one not living.
    But at the end of the day, you guys did a great job, and it 
was amazing to me to see how fast it was moving, even though I 
think the press sometimes like to report facts that aren't 
facts because they speculate about speculation. I know that is 
probably one of the biggest hassles that you have, trying to 
sort that out, but at the same time trying to keep focused on 
the mission you all have. So I want to say thank you for doing 
that, and to the people on the ground, they did a great job.
    Let me, if I can, on a couple of things. One is I know in 
the budget you have a study, a border fee study that is going 
to be looking at issues of capability and revenue potential. I 
would ask you to look at another element of this that I think 
is very important. You can imagine in Alaska, down in southeast 
Alaska, down in Juneau, Ketchikan, that whole area, we 
sometimes are crossing the border a lot because we are moving 
from one community to the other, and this may have an impact of 
suddenly there is a fee now every time you move back and forth. 
Also for the commerce we do with Canada, it is pretty 
significant.
    So as you are looking at that study, I would hope you would 
ensure that there is this other element which is unique to 
Canada. As you remember, just to get passports, we had to 
actually get folks in the cities to become authorized to do the 
passports because we couldn't get folks there to do it.
    So if you can keep that in mind in your budget, I know you 
have a proposal and in 9 months the study might be completed. 
So if you can keep that on the list, that would be very 
important, from my perspective at least.
    Secretary Napolitano. Senator, yes. We understand the 
special circumstances. Alaska and Hawaii present some similar 
type of circumstances. So, yes, we will keep those in mind.

            TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL

    Senator Begich. Very good. The other thing we worked on was 
the issue of a transportation worker identification credential 
(TWIC) card, the famous TWIC card, and we had problems with our 
coasties having to also get a TWIC card, when in reality they 
already meet a lot of standards. But put that aside for a 
second. The other issue for some of our remote areas in Alaska 
is the two trips that you would have to get to get a TWIC card 
to work on, say, Kodiak, for example.
    At this point I understand there are a lot of efforts to 
get it down to one so there is not this double, because it is 
very costly to go back and forth. Can you just give me a sense, 
and if you don't have it now, maybe for the record, of how that 
is going because of our remoteness? And we know the value of 
the security on the ports, but going twice to get a card from 
Kodiak, as an example, is very expensive.
    Secretary Napolitano. Briefly, for those who are renewing 
their TWIC card as opposed to getting a new TWIC card, we do 
have a new proposal, a new procedure whereby you can get a 3-
year extension as opposed to a 5-year extension, which only 
requires one visit. We are piloting, and we are using Alaska as 
the State where we are piloting a one-visit process, even for 
the new TWIC cards. So I am very optimistic about that, and I 
think Alaska was an ideal place to focus.
    Senator Begich. Great, and as you get results, will you 
share them with us and let us know?
    Secretary Napolitano. Yes, absolutely.
    [The information follows:]

    Answer. The OneVisit contractor for phase I (Alaska OneVisit manual 
solution) has been provided the authorization to proceed to set up and 
support the phase I manual process as we finalize the award. The 
Universal Enrollment Services contractor has added and transitioned 
Alaska enrollment sites all of which will be participating in the 
OneVisit phase I. We anticipate implementation in the June, July and 
August timeframe beginning with the Anchorage enrollment center. We 
have initiated contact with the stakeholders in Alaska to coordinate 
for a limited implementation at the end of June followed by the full 
capability in Anchorage in July and then roll out to all Alaska 
enrollment centers in July/August. In addition, the Government Printing 
Office (GPO) is on contract to support phase II (second location and 
semi-automated solution) and is conducting technical discussions as 
they begin to set up for phase II. Phase III, which will begin in the 
third quarter of fiscal year 2014, will implement a nationwide launch 
and a fully automated solution. TSA will keep the Committee apprised of 
the progress and results as we work to implement this new TWIC 
capability.

                          ICEBREAKERS: FUNDING

    Senator Begich. Also, I know on the CIP, I've seen the 
schedule and kind of where you are going, and I know on the 
icebreaker issue, I know that Senator Murkowski has been a 
great lead on this before I even got here, on this issue to 
keep it moving. I understand in 2014 I think you have a $2 
million allocation, and then there is some more down the road.
    Can you give us some reassurance that that is still moving 
forward at a pace that is acceptable? I know you've gotten one 
ship, one icebreaker renovated and back online, which is great. 
But can you just give me a sense there? Because when you see a 
$2 million number, it's a very small amount on a $700 million 
plus.
    Secretary Napolitano. Right. I think you have to combine it 
with what was ultimately put into our fiscal year 2013 
appropriation, which was $8 million for the icebreaker. As I 
said before, we just got that. So that $8 million hasn't been 
available to us all year, but now we have it. If we pair it 
with the $2 million, we've got $10 million.
    Senator Begich. Gotcha.
    Secretary Napolitano. And that will really, I hope, move us 
forward on design and examination of alternative types of 
design.

                            MILITARY HOUSING

    Senator Begich. Very good. I'll end on that. I have some 
questions for the record. But one thing, at a later time, I 
would love to work with you in getting you the same authority 
that the Department of Defense has with regard to their 
military housing they do so you can do more public-private 
partnerships like the military has done very successfully with 
some of your housing stock around the country, obviously in 
Alaska too. So I would like to work with you on some ideas 
around that, that we could match up and create some synergy 
there.
    Secretary Napolitano. We would enjoy working with you on 
that.
    Senator Begich. Great.
    Thank you very much, Madam Chair.
    Senator Landrieu. Thank you, Senator. I look forward to 
working with you and Senator Murkowski on the icebreaker, which 
is a very important asset for our Nation. We're going to have 
to find a way to fund it. We've got $10 million between this 
budget and last year's budget to begin. I want to make certain, 
Madam Secretary, that that is enough to begin the design, and 
then we'll have to figure out how to pay for it, which is a 
whole other subject. But I am committed to find a way.
    Senator Murkowski.

                             ARCTIC POLICY

    Senator Murkowski. Thank you, Madam Chairman. I appreciate 
your commitment to work with us, and, Secretary, yours as well. 
As good as $10 million is in this budget and my environment, we 
know that we need $850 million, give or take a little bit. So, 
I made the flip comment, and didn't mean it to be flip, but $8 
million doesn't even get us a port hole. So how we move forward 
aggressively--we are an Arctic nation. We have responsibilities 
as such, and the fact that we are barely in the water in terms 
of our icebreaking capacity is something that I think we need 
to address.
    Madam Secretary, I'm told that at the Commerce Committee 
hearing, the subcommittee hearing that Senator Begich 
referenced, that the Commandant stated that the Coast Guard's 
Arctic policy document is now sitting on your desk for 
approval. If you can give me some timing on its release, when 
we might be able to have a full brief on its implementation, 
and also then how the need for the icebreaker, and I believe we 
need more than just one icebreaker, can you tie the icebreaker 
into your comments on this policy that we are hopefully going 
to be given an opportunity to learn more about very shortly?
    Secretary Napolitano. Without tying myself to a firm 
deadline because events sometimes happen that get in the way, 
but I would hope within the next 30 days or so, we would be 
moving ahead with the policy. But we will follow up with your 
staff on that.

                       ICEBREAKERS: NUMBER NEEDED

    Senator Murkowski. And would you agree with me that as an 
Arctic nation we need more than one icebreaker?
    Secretary Napolitano. I think we are going to have to 
assess the total fleet needs that we're going to have to have 
as an Arctic nation. But the equities up there are very 
substantial.

                       NATIONAL SECURITY CUTTERS

    Senator Murkowski. And you know, you were there last 
summer. I appreciate your visit, the opportunity to be out on 
the Bertholf in the Bering Sea there. Just to experience what 
it is we are dealing with I think is incredibly important, and 
I appreciate you taking that time.
    You have mentioned, in response to Senator Cochran, the 
discussion about the recapitalization plan for the Coast Guard. 
I'm happy to see that we've got the funding for the seventh 
national security cutter. You just need to know--I think I have 
told you privately; I am saying it to anybody that is 
interested--Alaska needs a national security cutter. We need to 
have a national security cutter homeported in the State of 
Alaska. We've got too much water around us and not enough 
assets, and that is a vessel that can truly meet the growing 
needs, the growing demand in an area where we are only seeing 
traffic increase, and in incredible ways.
    I want to mention the situation with our high endurance 
cutter, the Munro. We've got one up there in Alaska that is 
homeported. She is 40 years old, over 40 years old. There is no 
planned replacement. It's tough when you have a transit time of 
20 to 30 days per patrol to not have the vessels that we need. 
It seems to me that there has been a decision made that we are 
going to be homeporting these vessels in California and Hawaii.
    Can you tell me whether or not there has been a GAO study, 
or a business case analysis, as to compare the cost of a 
facility renovation to homeport in Alaska as opposed to this 
wasted transit time that we are going to see? And again, I'm 
talking about high endurance cutters, and also the benefits of 
homeporting a national security cutter within the State of 
Alaska.
    Secretary Napolitano. I'm unaware of a GAO study, per se, 
but we will be happy to look at the relative advantages and 
disadvantages of doing that, particularly with response to an 
NSC. I think the CIP ultimately provides for the 
decommissioning of some of these older high endurance cutters 
and their ultimate replacement with other types of vessels.
    Senator Murkowski. And our problem is that there is nothing 
in the queue to follow the Munro, which is a concern for us 
with that lapse of coverage. I think we recognize that in 
Kodiak we have facilities there that could homeport, I believe, 
a national security cutter, but there will have to be facility 
renovations that are made. So as we balance transit time versus 
renovations, I think that that would be an appropriate review, 
and I would look forward to discussing that more with you 
further.
    Madam Chairman, I have a few more questions, but perhaps we 
will have a chance for a second round?
    Senator Landrieu. Thank you. Yes, Senator, we will.
    Senator Moran.

            NATIONAL BIO AND AGRO-DEFENSE FACILITY: FUNDING

    Senator Moran. Madam Chairman, thank you very much.
    Madam Secretary, thank you for being here. On behalf of 
Kansans and Americans, thank you very much for you and your 
Department's efforts to secure our country, to make us safer.
    You and I have had conversations at many hearings, both in 
the authorizing committee and in the appropriations 
subcommittee and full Committee, in regard to the National Bio 
and Agro-Defense Facility, which is included in the President's 
budget request. I just wanted to take a moment and have you 
indicate why now that request is there, why it is important, 
and perhaps what the alternative is. The cost of Plum Island, I 
would like for you to explain to the subcommittee why that is 
an expensive proposition and why the administration decided to 
move forward in this request.
    Secretary Napolitano. Well, and I must say, Senator, I 
think you can tell from the other questions that the demands on 
the Department in our budget for large-scale capital 
investments, recapitalizing the fleet, another icebreaker and 
so forth, are very substantial, and with the sequester and the 
fiscal environment and the Budget Control Act, it is very, very 
tough out there.
    But over the last 4-plus years that I have been Secretary, 
I have been reviewing the literature and the need for a new 
facility to protect the Nation's food supply, but also to help 
us protect the Nation on a security basis from the types of 
threats that require a so-called level 4 laboratory. It is also 
clear to me that Plum Island, the current facility, is neither 
big enough nor advanced enough where plowing $1 billion into it 
ultimately makes any sense. You just simply can't. We can patch 
Plum Island enough while we are constructing a National Bio and 
Agro-Defense Facility (NBAF), and we're going to have to do 
that. But in the end, the country needs to make the decision 
that for our overall security, we need a major level 4 lab 
facility.
    As you know, there was a competition. It has been peer 
reviewed. It has been sent back for re-review by a number of 
scientific bodies. Every step along the way, that has been 
complied with. The State of Kansas has now put in more money to 
help in a partnership with the Federal Government. Under the 
President's proposal, we can begin construction of the main lab 
in 2014 and be done hopefully by 2020. But in the end, Senator, 
in the midst of all the competing demands on our budget, and it 
is a tough, tough budget, it just seems to me we have just got 
to tackle this issue head-on.
    Senator Moran. Madam Secretary, thank you for your answer, 
and thank you for your leadership on this issue.
    Chairman, thank you.
    Senator Landrieu. Thank you. Let me add on this subject, 
and I guess it's just a little different vantage point, I do 
not disagree with your comments and testimony. I have read the 
reports that make clear that our country needs to have such an 
asset. There has been some issue about the placement, and I am 
well aware of what the State of Kansas has done on their own to 
support the effort.
    The problem that I have, and it's going to be a challenge 
for the members of this subcommittee, who I am going to look to 
for guidance, is how to pay for such a facility. I'm not sure 
if taking $1 billion from other needed capital assets, like the 
Coast Guard or border security, to pay for this facility is the 
smartest way to go.
    Will you work with us to look for some additional funding 
mechanisms or new and innovative funding mechanisms to try to 
find a way to pay for this asset, as opposed to taking it out 
of other critical infrastructure for this Department? That is 
really the question. It's not whether we need it or not--the 
facts are pretty clearly in. The placement could be argued. But 
I'm just wondering--and this is also going to come up for the 
icebreaker, when we have to pay for $1 billion for it--is 
whether we can continue to cut this budget and still find $800 
million or $1 billion for this asset when this budget is being 
reduced year after year. I think it puts a tremendous strain on 
our homeland security effort.
    Secretary Napolitano. Madam Chair, we will work with you on 
this. Obviously, appropriated dollars are the most valuable. 
You also bump up against the caps, and that is another issue. 
So even if you don't appropriate the money or you find an 
additional source of money, whether that actually frees up 
money in your budget, that is another set of questions.
    We face this question every year. It is a young, growing 
Department. We have vital missions, and we have capital needs, 
and they are always juxtaposed against the operational needs. 
We need an icebreaker. We need an NBAF. We need a headquarters. 
These are all big items.

                              IMMIGRATION

    Senator Landrieu. I would just remind the members that 
these top-line numbers have a direct impact on our ability to 
not only find the appropriation dollars but to fund the levels 
authorized. We need to be mindful as we move forward that these 
numbers have real consequences.
    Let me go back to immigration reform for a minute, Madam 
Secretary. Given your work, and I'm sure you've been working 
closely with the Gang of Eight that is working very hard and 
has come up with a bipartisan bill that is being reviewed as we 
speak through Senator Leahy's Committee, is there a number that 
you are aware of in annual requirements to fund such a 
comprehensive immigration bill? I've seen numbers anywhere from 
a few billion to $5 billion a year. Where will that money come 
from? Do we contemplate fees being raised by illegal immigrants 
on a path to citizenship to pay for some of it? Are we making 
sure that we are not double counting the revenues being 
requested in this budget to support current operations while we 
are laying a foundation for immigration reform in the future, 
which I generally support? But I am a little concerned about 
how we're going to pay for it.
    Secretary Napolitano. Right. As I shared with the Judiciary 
Committee this morning, we will work with them and with you on 
how the money actually flows in the bill, and the actual 
language that is used. The fees and the fines that are exacted 
under the bill we believe in the long term will be sufficient 
to meet the goals of the bill and our various missions under 
the bill.
    The one area we want to be sensitive to is start-up funding 
for U.S. Citizenship and Immigration Services (USCIS), which 
will have the responsibility to set up the registration program 
and the like. There will probably need to be some money that 
can be repaid over the first couple of years of the bill, but 
we will need to work that out with you and with the authorizing 
committees.

                        CYBERSECURITY EDUCATION

    Senator Landrieu. Let me follow up. I want to associate 
myself with Senator Cochran's remarks about the Coast Guard. 
Clearly, it is an important agency. I've made several comments 
about that. But my final would be on cyber education.
    You were kind enough to come visit the Cyber Education 
Innovation Center in Shreveport, Louisiana and Bossier City. 
You got to see firsthand the innovation center there and some 
of the assets that it has brought to bear.
    In the President's recent report on cybersecurity, it said 
we can invest all we want in new technologies, et cetera, but 
we have to have the people, the cyber warriors, and that there 
is a real skills gap in America. That's why I was disappointed 
to see cyber education reduced in this budget.
    Do you want to comment about why the reduction in 
cybersecurity education? I realize that the Department of 
Education and the Department of Labor have some 
responsibilities, but how do you justify a 43 percent cut?
    Secretary Napolitano. Well, there are two ways. One is 
there is carryover funding that will come from 2013 to 2014, 
and we will provide you the detail on that. And second, the 
administration as a whole is trying to centralize Science, 
Technology, Engineering, and Mathematics (STEM)-type education 
in one place. So some of those monies are going to where the 
STEM education is being centralized.
    [The information follows:]

    Answer. DHS supports several cybersecurity education initiatives 
with fiscal year 2013 funds and the execution of several projects 
carries into fiscal year 2014. For example, NPPD will award a grant in 
the 4th quarter of fiscal year 2013 with a 12-month period of 
performance for the Integrated Cybersecurity Education Communities 
project, intended to strengthen cybersecurity at the high school level 
and expanding the pipeline of cybersecurity professionals entering the 
workforce in the future. Additionally, NPPD partners with the National 
Science Foundation on grants supporting the CyberCorps Scholarship for 
Service pipeline, and these efforts are also anticipated to be funded 
in the 4th quarter of fiscal year 2013 and will continue to be executed 
through the majority of fiscal year 2014.
    The Department is also extending the scope of cyber education 
beyond the Federal workplace through the National Initiative for 
Cybersecurity Education to include the public, as well as students in 
elementary through post-graduate school.
    In February 2013, DHS launched the National Initiative for 
Cybersecurity Careers and Studies (NICCS), which is an online resource 
for cybersecurity career, education, and training information. NICCS 
makes research and training information available to Federal employees 
and the public on a single Web site through a robust, searchable 
catalog of cybersecurity training programs and certifications, which 
allow users to find trainings based on location, preferred delivery 
method, specialty area, or proficiency level.
    The DHS Secretary's Honors Program Cyber Fellows Summer Student 
Intern Program offers current 2-year community college students 
majoring in a cybersecurity related field an unpaid internship 
position. The internship will provide an opportunity to develop and 
gain invaluable hands-on experience at an Immigration and Customs 
Enforcement's (ICE), Homeland Security Investigations forensics lab. 
The program is tailored to provide high-performing students with 
challenging work projects, real-life learning scenarios, and mentoring 
from cybersecurity professionals at ICE.
    Lastly, DHS will continue the partnership with the National 
Security Agency in fiscal year 2014 supporting the DHS/NSA National 
Centers of Academic Excellence for colleges and universities across the 
Nation to continue the development of a pipeline of cybersecurity 
professionals to enter the workforce.

    Senator Landrieu. Okay.
    Senator Cochran, additional questions?
    Senator Cochran. Madam Chairman, I don't have any other 
questions I will ask here, but I may have one or two to submit 
for the record.
    Senator Landrieu. Please do. The record will remain open 
for 1 week.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman.
    And, boy, I love talking about the Coast Guard.
    Secretary Napolitano. I'm getting that idea.

                AVIATION SECURITY: PROHIBITED ITEMS LIST

    Senator Murkowski. And I feel just so privileged to be 
serving on this subcommittee where there is such attention, 
such focus on the need on understanding and appreciation of the 
role that the Coast Guard has. Whether it is drug interdiction 
or whether it is fisheries enforcement up north, they've got a 
lot to do. They need the assets to do it. The men and women 
that are serving us are phenomenal, and I just want to let the 
chairman of the subcommittee know that I will do everything 
that I can working with you and other members of this 
subcommittee to make sure that they have what they need. And it 
is expensive, but it is an investment in our security. It is an 
investment in our resources that I just don't think we can 
short-change. So I want to work with all of you in figuring out 
creative ways that we can help fund some of this.
    I think, Madam Chairman, our revenue-sharing bill could be 
one of those ways that we could help with some of the 
infrastructure that we are going to need up north as we have an 
evolving Arctic region where we have more water that we now 
have responsibility for and yet have very little in terms of 
assets and infrastructure. So maybe that is an opportunity for 
us there.
    I want to just note for the record, Madam Chairman, you 
were discussing with my colleague, Senator Begich, the TWIC 
program, and we just learned that a new part-time TWIC 
Enrollment Center is opening in Kodiak in May. This now joins 
the six other centers that are in the State. That's good. We're 
moving toward a one-stop process. We're moving toward the 
ability to only be making the trip once, which is critical for 
us.
    But I would suggest to you that as good is $8 million is, 
$8 million is not enough. We are a State that is one-fifth the 
size of the United States, and 80 percent of the communities 
are not accessible by road. So you can't just hop in your car 
and go get there. So I want to continue working with you on 
that one, if I may.
    I wanted to ask you, Secretary, about a decision that came 
out of the TSA. Administrator Pistole had suggested that there 
would be a policy change that was actually going to be 
implemented today that would allow passengers to carry certain 
knives through checkpoints and then onto planes. I think all of 
us spend a fair amount of time on airplanes, and I will tell 
you I have been buttonholed by no fewer than dozens and dozens 
of flight attendants who are saying, ``What is going on? There 
is enough anxiety already in the air and what is happening 
within our country. Please don't make us feel more vulnerable 
as we are flying around.''
    I think it's fair to say that this is a pretty 
controversial policy change. As I say, the policy was supposed 
to go into place today. Last night there was a memo that came 
out from the Administrator, and he says he is going to 
incorporate the input from the Aviation Security Advisory 
Committee and to continue training requirements nationwide.
    The question that I would like to ask you is, is the TSA 
actually revisiting this proposed policy? And if so, what will 
that reassessment of the policy entail? Or are they just 
delaying rolling this out until perhaps there is a more 
opportune time to do so? I think the Nation is understandably 
nervous after the events, the tragedy in Boston. Where are we 
going with this, and can you just give me a better sense as to 
what we might expect?
    Secretary Napolitano. Well, I think in my conversations 
with the Administrator, what the delay is intended to do is to 
provide a greater opportunity to provide classified briefings 
to different stakeholder groups that belong to the aviation 
sector, the Advisory Council, which includes flight attendants 
and pilots, among others, and that is underway right now. I 
will share with you my own view, having looked at the 
situation, and it is this. Risk-based means risk-based, and 
little knives are not and have not been a risk where they are 
allowed on planes in the international environment.
    When you look at what we really need to be concerned about, 
which are things like powder explosives and the increasing 
sophistication of our adversaries in trying to get an explosive 
onto a plane, we want to take out of the mix these things that, 
in the end, are not a danger to bringing down the aircraft. I 
think when we look at where the threats are coming from, the 
real risks, the decision made by the Administrator from a 
security basis is the right decision.
    So I wouldn't say that he has re-opened the ultimate 
conclusion. Perhaps there will be some changes in 
implementation. That will remain to be seen.

            TRANSPORTATION SECURITY ADMINISTRATION TRAINING

    Senator Murkowski. Well, I will be honest with you. I think 
that any diligent effort that might be made to enforce a new 
policy, if we are really going to be training these TSA agents 
in terms of what it is that they need to check for, what it is 
that they need to disallow or allow, I'm concerned that what we 
might see are further delays, thus defeating some of the 
rationale of this new policy.
    I continue to be concerned about the training of the TSA 
folks just on the ground there. I understand what you're saying 
in terms of risk assessment there, but I am writing the DHS 
inspector general and asking him to closely scrutinize the 
issue, assess the training period that is being provided to the 
TSA officers before it is implemented.
    This week, America is waking up to the fact that if we are 
traveling through seemingly any airport in the United States, 
we are to anticipate delays because of decisions made out of 
the Federal Aviation Administration (FAA). Folks aren't any too 
happy with that. If they feel that there has been this change 
in policy where TSA officers are not appropriately trained and 
that causes further delay, it just adds to some of the chaos 
that is seemingly coming our way with travel.
    So I just put you on notice as to where I am coming from on 
this issue. I certainly understand the rationale as you have 
laid out. But again, I am concerned about what our TSA agents 
might be offered in terms of training and how it might be 
implemented.
    Senator Landrieu. Thank you, Senator.
    Senator Moran.
    Secretary Napolitano. If I might, Senator, I don't know if 
the inspector general is the one to review training ahead of 
time. I just don't know the answer to that. But we want to make 
sure that there is education, preparation, and training as 
uniform through the system as we can make it. So I think that 
is one of the reasons the Administrator said let's take a pause 
here to make sure that it is done right.
    With respect to travel in general, having been someone who 
said that sequester in the end will affect travel, I am not 
responsible. FAA is not in our shop, but sequester has real 
impacts, and that is really where the public will see it most 
immediately ultimately will be in travel.
    Senator Murkowski. Well, some of us have suggested that the 
FAA could have found some other means to control their costs. 
But again, that is not your shop, and I am not going to put 
that on your shoulders.
    Thank you, Madam Chairman.
    Secretary Napolitano. Thank you.
    Senator Landrieu. Senator Moran.

      NATIONAL BIO AND AGRO-DEFENSE FACILITY: KANSAS CONTRIBUTION

    Senator Moran. Chairman, thank you.
    Madam Secretary, a couple of questions again about NBAF. 
Would you inform the subcommittee about the original nature of 
the State of Kansas' contribution to the project and its more 
current, its more recent determination about assisting at a 
greater level? And if you have any thoughts about--the NBAF 
facility was called for 9 years ago in the report that followed 
the 9/11 Commission Report that followed 9/11. In a sense, for 
the associated costs with continued delay, do you have thoughts 
about that?
    And second, would you outline for the subcommittee what the 
State of Kansas is doing to make this project more affordable 
for the Federal taxpayer?
    Secretary Napolitano. Well, the State of Kansas has 
increased its contribution to the NBAF. I think Kansas is now 
north of $300 million that it is putting in. When you combine 
that with the Federal investment, you pay for a $1 billion-plus 
facility.
    With respect to delay, every delay in this project adds 
cost. Every one of the double checks and triple checks we've 
done to make sure that all the criteria are met--and I know 
this is a big-deal project, so we want to be very careful 
here--has added expense and cost to the project. We know we 
need it. We know we are not positioned for the long term to 
deal with these kind of biologic threats without it. Delay 
only, in the end, postpones the inevitable at cost.

           NATIONAL BIO AND AGRO-DEFENSE FACILITY: VALIDATION

    Senator Moran. In your capacity as the Secretary of the 
Department of Homeland Security, do you have information that 
validates the belief that these threats exist, that they are 
real, they are not imaginary, and that they have the potential 
of having significant consequences to the health and safety of 
Americans, as well as significant economic consequences if we 
are unable to prevent and/or respond to those threats?
    Secretary Napolitano. Well, the threats in this area can be 
both from a human adversary and from Mother Nature, quite 
frankly. So without going into intelligence or anything like 
that, we can ascertain that the risk is very much with us. It's 
with us now. We know that the existing facility we have is too 
small and too antiquated to take us where we need to be.
    Senator Moran. Secretary, thank you.
    Chairman Landrieu, I would be willing to work, as you would 
expect, with you and the subcommittee and the full Committee in 
any way possible.

                        REIMBURSABLE AGREEMENTS

    Senator Landrieu. Thank you.
    I just have one final question and then wrap-up comments. I 
think this has been a very good hearing, and I think we have 
touched on most of the main points that are reflected in this 
budget, which is a policy document.
    But one that I want to raise, cross-border trade is 
increasing while there are pressures to reduce the Federal 
budget. I understand those pressures, but people have to 
recognize the reality that cross-border trade is increasing, 
and all of our States benefit from more trade. We have a 
crisis, I believe, at our borders not just with illegal 
immigrants but with legal transportation of goods, et cetera, 
and our inability to keep up with the funding requirements 
necessary.
    A Department of Commerce study was striking, Senator 
Cochran. It said that in 2008, the Nation's busiest ports of 
entry--there are 103 land ports--cost 26,000 jobs, $1.4 billion 
in lost wages, and $600 million in tax revenues lost every 
year. Now it is 2014, soon to be, and these numbers are 
increasing.
    So because there is no money in this budget to do what 
needs to be done and to maintain the Coast Guard, and to try to 
put some additional money for even new facilities that we have 
talked about, you just can't wave a magic wand and it's going 
to get better. We've got to find a new way.
    So I put language in our bill to maybe find public-private 
partnerships to look for additional revenues that could 
potentially come in. The industry is asking for some 
flexibility here. Can you give us just a 1-minute update on how 
you're doing with that and what is reflected in this budget to 
support bringing in some public-private partnerships to try to 
help where our bucket is empty?
    Secretary Napolitano. Madam Chair, the five pilot projects 
that you had put into the bill, we are in the process of making 
decisions about where those are going to be, and I would hope 
that that decisionmaking process is going to proceed with 
alacrity because there is a real need out there.
    The President's budget includes language that would make 
public-private partnerships or reimbursability agreements or 
in-kind exchanges generally available for these ports, these 
big ports of entry that need to handle the increased trade we 
have. And again, the President's budget does request, either 
through funding or user fee increases, 3,500 more CBP officers 
to staff these ports. We have made our staffing model available 
because, in the end, we need more trained port officers to 
carry out the responsibilities we have.

                 COAST GUARD'S CAPITAL INVESTMENT PLAN

    Senator Landrieu. Okay. Thank you, and I am going to follow 
up on that because it is an important priority for our 
subcommittee. But I will end with this. Earlier we discussed 
the trade-offs of this budget presented to us, the trade-offs 
it makes between constructing a new National Bio and Agro-
Defense Facility. Even with the contribution that the State of 
Kansas is willing to make, it still is a huge cost in this 
budget, at the expense of Coast Guard acquisition. That is the 
way that this budget pays for that facility, out of the Coast 
Guard acquisition budget, primarily.
    Last week we received the Coast Guard's 5-year capital 
investment plan, which calls for radical change to its 
capitalization efforts. If enacted, the plan would delay 
offshore patrol cutter, decrease the number of fast response 
cutters to a level that, in my view, jeopardizes the program, 
ends acquisition of the marine patrol aircraft prematurely, 
defers several cutter and aviation sustainment projects, and, 
of course, does not even support the development of the 
icebreaker.
    Within 2 weeks, I would like a white paper from your 
Department describing the impacts this investment plan will 
have on Coast Guard missions offshore such as interdicting 
drugs in the transit zone, managing mass migration, oil spill 
response, fisheries enforcement, and, of course, our 
requirements in the Arctic, so ably mentioned by the Senators 
from Alaska. The impact statement should take a near-term and 
long-term look at Coast Guard operational capabilities if this 
investment plan were enacted.
    [The information follows:]

    Answer. The fiscal year 2014 budget sustains the most critical 
frontline operations, including maintaining search and rescue coverage, 
protecting critical infrastructure and key resources, supporting safe 
navigation, safeguarding natural resources, protecting the environment, 
detecting and interdicting drugs and individuals attempting to enter 
the United States illegally, and supporting the Nation's foreign policy 
objectives.
    Timely and affordable recapitalization of aging assets is essential 
for the long term viability of the Coast Guard. The condition and 
serviceability of the Coast Guard's in-service surface fleet, the aging 
of fixed and rotary wing air assets, and the projected timelines to 
replace these assets require continued investment in surface and air 
recapitalization programs to maintain the capability to operate. To 
strengthen DHS' layered security approach offshore, the fiscal year 
2014 budget provides for the acquisition of a seventh national security 
cutter (NSC) and two more fast response cutters (FRC), and continues 
pre-acquisition activities for the offshore patrol cutter (OPC) and 
polar icebreaker. The budget also continues sustainment and conversion 
work on fixed wing and rotary wing aircraft, procurement of cutter 
boats, and investment in command, control, communications, computers, 
intelligence, surveillance, and reconnaissance (C4ISR) systems.
    The fiscal year 2014 budget continues initial work to acquire an 
affordable replacement for the medium endurance cutter (MEC) class. The 
planned OPC will conduct missions on the high seas and coastal 
approaches, and will bridge the capability between the NSC and the FRC.
    The fiscal year 2014 budget will deliver two more FRCs. These new 
assets, coupled with robust interagency and international coordination 
will enable the United States and partner nations to best mitigate 
threats throughout the maritime domain. These assets replace the aging 
fleet of 110-foot patrol boats, and provide the coastal capability to 
conduct search and rescue operations, enforce border security, 
interdict drugs, uphold immigration laws, protect against terrorism, 
and support resiliency to disasters.
    The fiscal year 2014 budget continues funding for a new Coast Guard 
Polar Icebreaker. This cutter will provide continued icebreaking 
capability to the Nation for missions in the Arctic following the 
projected end of service life of the Polar Star on or about 2022.
    Mission Impacts.--Coast Guard operational commanders allocate 
operational resources to meet the highest threats and operational 
priorities to secure our maritime borders. The fiscal year 2014 budget 
funds the Coast Guard's highest priorities in combating the most 
significant threats to the Nation. Specifically, assets supported by 
the budget are deployed to address the following highest priority 
missions and offshore threat areas.
    Near-Term.--The delivery of new, more capable assets such as NSC 
and FRC vessels and MPA and LRS aircraft are projected to increase 
mission performance due to improved capability and reliability over the 
legacy assets they replace. Specifically, the primary missions/areas 
impacted by the delivery of NSCs are counter drug (CD), alien migrant 
interdiction operations (AMIO), living marine resources (LMR), ports 
waterways and coastal security (PWCS), other law enforcement missions 
(OLE) and defense readiness. The primary missions/areas impacted by the 
delivery of FRCs and aircraft are CD, AMIO, LMR, PWCS, and search and 
rescue (SAR).
    Long-Term.--Recapitalization remains a top Coast Guard priority. 
The fiscal years 2014-2018 CIP continues acquisition of major cutters 
and aircraft, as well as sustainment of in-service cutters, boats, and 
aircraft, along with shore infrastructure. These investments support 
all Coast Guard missions.

    I plan to have a special hearing on this. I know that these 
are tough decisions, but these are important decisions. I think 
the results of some people in some quarters pressing down the 
numbers of these budgets so tightly that we have to make not 
just difficult but impossible trade-offs between whether we 
protect ourselves at our ports with the Coast Guard or we 
protect ourselves from agriculture attacks, potential 
agriculture attacks. In my view, it does not make our country 
stronger. It puts us in an untenable position, so new resources 
are going to have to be found from somewhere.

                     ADDITIONAL COMMITTEE QUESTIONS

    I thank you. The record will stay open for 1 week, and if 
anyone wants to submit additional questions, this subcommittee 
will receive them.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
            Questions Submitted by Senator Mary L. Landrieu
                   coast guard fast response cutters
    Questions. A major component of the Coast Guard's modernization 
effort is the fast response cutter (FRC), which I'm proud to say is 
being built in Lockport, Louisiana. I took part in dedicating the FRC 
fleet last year with the commandant and, since that time, five boats 
have been delivered and are contributing to drug interdiction and other 
Coast Guard missions off the coast of Miami. FRCs are replacing aging 
patrol boats that are well beyond their service life expectancy, can no 
longer meet Coast Guard mission demands, and are expensive to maintain. 
There is also a patrol boat hour gap. In fiscal year 2012, Coast Guard 
patrol boats completed just 71,400 mission hours, 28,000 hours short 
(28 percent) of annual requirements. In both fiscal year 2012 and 2013, 
we funded six FRCs to address this gap and to maximize the production 
line, saving taxpayers $30 million per year.
    Last year's budget request indicated that another six FRCs were 
necessary in fiscal year 2014. But the budget before us requests $75 
million for two FRCs, which we believe does not fully support two fully 
missionized cutters. First, what do you believe is the amount needed in 
fiscal year 2014 to procure two fully missionized FRCs, including 
spares? Will you work with me to find the necessary resources in your 
budget to adequately fund six FRCs in fiscal year 2014?
    Answers. The fiscal year 2014 budget proposes to use prior year 
carryover, in combination with $75 million in fiscal year 2014 to 
procure two FRCs.
    The administration's fiscal year 2014 request supports the Coast 
Guard's highest priority recapitalization needs and maintains funding 
for critical frontline personnel. The Coast Guard received sufficient 
funding in the fiscal year 2013 appropriation to award a contract for 
four FRCs in fiscal year 2013 and, when combined with the President's 
fiscal year 2014 request, award a contract for another four in fiscal 
year 2014. The base order under the current contract is four FRCs per 
year.
      staffing initiative at the ports and fee increase proposals
    Question. I am pleased to see that your request includes 
appropriations to hire 1,600 new CBP officers. For many years, airport 
and land port authority owners among others have called for increased 
officers to more rapidly process arriving passengers and commercial 
goods. I also agree that we need to do more to modernize our ports to 
respond to expanded trade and tourism. Now that you have an 
independently verified study--the workload staffing model--that more 
than justifies the staffing increases at many ports, it is important 
that the Department actually puts its money where its mouth is. In 
fact, this study states that hiring 1,000 additional Customs officers 
would create 33,000 new jobs and increase the gross domestic product by 
$2 billion. At the same time, your request also asks this subcommittee 
to increase certain immigration and customs fees--which have not been 
adjusted for more than a decade in most instances--to hire an 
additional 1,877 officers. I understand the proposed increase is well 
below what it would be if you used a simple inflationary adjustment, 
but as we know, fee increases are unpopular.
    How important is it that these fees be increased?
    Answer. The President's fiscal year 2014 budget requests $210 
million in appropriated funding for 1,600 additional U.S. Customs and 
Border Protection (CBP) officers. While this is a significant 
contribution to the CBP officer staffing needs, it does not address the 
full requirement. The increase in user fees is essential to CBP's 
ability to hire the full cadre of approximately 3,500 officers. The 
increase in user fees will provide the funding to hire an additional 
1,877 officers, which will enable CBP to close the staffing shortfall 
identified by the workload staffing model, alleviate existing wait 
times, and enable CBP to process the growing volume of international 
travelers. A significant increase in CBP officers in the air 
environment will mean greater security, lower wait times, and increased 
services for those traveling to the United States. Increased CBP 
officers at our land and sea ports will reduce wait times and 
transaction costs for cross border travel and trade, improve cargo 
release timeframes, and increase enforcement effectiveness.
    The extent to which wait times affect the local and national 
economy was most recently studied by the National Center for Risk and 
Economic Analysis of Terrorism Events (CREATE), a DHS Center of 
Excellence. CREATE provided a preliminary draft report titled ``The 
Impact on the U.S. Economy of Changes in Wait Times at Ports of Entry'' 
in February 2013. Their analysis found that an increase or decrease in 
staffing at the POEs has an impact on wait times and, therefore, on the 
U.S. economy. The impacts begin with changes in tourist and business 
travel expenditures and with changes in freight costs. These changes, 
in turn, translate into ripple, or multiplier, effects in port regions 
and the overall U.S. economy. In summary, CREATE found that the impacts 
on the U.S. economy of adding 33 CBPOs (their baseline) are a $65.8 
million increase in gross domestic product (GDP), $21.2 million in 
opportunity cost savings, and 1,094 annual jobs added. While the U.S. 
Travel Association found that every 33 overseas travelers creates one 
new American job (Travel Means Jobs, 2012), CREATE's findings equate to 
33 new American jobs per CBPO added.
    Question. Can you hire and pay for additional CBP officers in the 
absence of these increased fees?
    Answer. The increased user fees would allow U.S. Customs and Border 
Protection (CBP) to hire an additional 1,877 CBP officers. In the 
absence of fee increases, CBP would not be able to hire the proposed 
1,877 officers. The fee increase and the resultant user fee supported 
positions are proposed to address the existing staffing gap detailed in 
the workload staffing model and meet the anticipated level of effort 
required by 2014.
    Additionally, the COBRA statute, 19 U.S.C. 58c, specifies a list of 
activities in priority order for which the fees can be used, known as 
the COBRA hierarchy. The COBRA hierarchy limits the hiring of CBP 
officers. Overtime, preclearance, premium pay and other activities take 
precedence over adding new officer positions. The recommended 
adjustment to the COBRA statute would alleviate the current limitations 
and authorize CBP to fund additional salaries and benefits costs for 
CBP officers.
    Question. What would be the impact on trade and tourism if these 
additional officers were not hired?
    Answer. U.S. Customs and Border Protection (CBP) has experienced a 
12-percent growth in air arrivals since 2009, and projects a 4- to 5-
percent continued growth over each of the next 5 years. Every year, 
more than $2 trillion worth of goods enter the United States through 
our ports of entry. The additional CBP officers, as identified by the 
workload staffing model, will address existing staffing needs at the 
ports of entry, thereby helping to alleviate increasing wait times at 
many of the busiest airports and land borders, and would allow CBP to 
address the increasing volume of trade and travel.
    The extent to which wait times affect the local and national 
economy was most recently studied by the National Center for Risk and 
Economic Analysis of Terrorism Events (CREATE), a DHS Center of 
Excellence. CREATE provided a preliminary draft report titled ``The 
Impact on the U.S. Economy of Changes in Wait Times at Ports of Entry'' 
in February 2013. Their analysis found that an increase or decrease in 
staffing at the POEs has an impact on wait times and, therefore, on the 
U.S. economy. The impacts begin with changes in tourist and business 
travel expenditures and with changes in freight costs. These changes, 
in turn, translate into ripple, or multiplier, effects in port regions 
and the overall U.S. economy. In summary, CREATE found that the impacts 
on the U.S. economy of adding 33 CBPOs (their baseline) are a $65.8 
million increase in gross domestic product (GDP), $21.2 million in 
opportunity cost savings, and 1,094 annual jobs added. While the U.S. 
Travel Association found that every 33 overseas travelers creates one 
new American job (Travel Means Jobs, 2012), CREATE's findings equate to 
33 new American jobs per CBPO added.
    Without the additional officers, CBP's ability to accommodate 
requests for increased services or expanded hours of operation will be 
hampered. The resultant increase in wait times may deter international 
travelers and potentially increase the costs passed on to the consumer 
by cross-border trade partners. It will also negatively impact the 
National Travel and Tourism Strategy's key goal of increasing American 
jobs by attracting and welcoming 100 million international visitors, 
who are estimated to spend $250 billion annually by the end of 2021. 
Should CBP continue at the current workforce levels, denials of service 
to international air carriers could become more frequent and hours of 
operations could be reduced at low-volume ports.
    Question. Some would argue this is not the appropriate committee 
from which to seek these fee increases. Do you agree?
    Answer. U.S. Customs and Border Protection is looking to work with 
its authorization and appropriations committees on its fiscal year 2014 
legislative proposals as submitted in the President's budget request.
    Question. Will you commit to me that you will make the case to the 
authorizers that these fees need to be increased and, if they are 
willing, to indicate to the Ranking Member and me that they would 
support our taking this action through appropriations legislation?
    Answer. Yes, we are happy to brief authorizing committees on these 
proposals. U.S. Customs and Border Protection worked with Office of 
Management and Budget to simultaneously provide authorization proposals 
to these committees for user fee increases. We look forward to working 
with the Congress on our legislative initiatives.
                       fema--disaster relief fund
    Question. In 2013, we appropriated a total of $18 billion for FEMA 
disaster relief, including $11.5 billion for Hurricane Sandy recovery. 
Through the Budget Control Act, Congress created a responsible funding 
mechanism for the Disaster Relief Fund (DRF) and I am pleased that the 
White House is using that authority for fiscal year 2014. I do note 
that in comparison to fiscal year 2013, the fiscal year 2014 request 
for the DRF is $6.2 billion. This request assumes $3 billion for future 
disaster needs based on a 10-year average excluding disasters over $500 
million. It also assumes $2.6 billion for the on-going recovery from 
previous disasters, including $799 million for Hurricanes Katrina, 
Rita, and Wilma; and $1.2 billion for Hurricane Sandy. And finally, 
this amount assumes FEMA will maintain a balance of $500 million at the 
end of the year to address unexpected disasters without having to stop 
recovery projects. FEMA expects to obligate $10.8 billion for Hurricane 
Sandy in 2013, but only $1.2 billion in 2014. I am concerned that the 
amount requested for on-going recovery is low, particularly if we have 
several major disasters that push costs above an average year. While I 
recognize that disaster costs are difficult to predict, let me be 
clear, I do not want to return to the days of stopping recovery 
projects during the summer to protect funding for unknown emergencies. 
As you will recall, this happened in both 2010 and 2011. This decision 
acts like a one-two punch to local economies who have been hit hard by 
both a disaster and tough economic times.
    Is $6.4 billion a responsible request for disaster relief in 2014?
    Answer. The President's 2014 Disaster Relief Fund requests:
  --Estimates for the known catastrophic disasters, such as Hurricane 
        Sandy, that encompass bottom-up cost estimates developed by 
        FEMA staff working with State and local governments;
  --No funding for new catastrophic events that could occur during 
        fiscal year 2014. For budgeting purposes only, FEMA defines a 
        catastrophic event to be a disaster or a grouping of disasters 
        (i.e., a disaster event) resulting in a total projected cost to 
        the Federal Government in excess of $500 million. As in prior 
        years, the budget assumes that future catastrophic events 
        during the budget year will require supplemental funding;
  --Estimates for the non-catastrophic costs which are based on a 
        rolling average--in this case, a 10-year average of prior-year 
        non-catastrophic obligations;
  --Anticipated recoveries estimated at $800 million, a decline of $400 
        million from the previous year's estimate. This is a result of 
        a lower potential of available recoveries due to a shrinking 
        pool of unliquidated obligations from prior catastrophic events 
        and tighter funds control practices implemented by the agency; 
        and
  --A reserve of $500 million for a no-notice event at any time during 
        the fiscal year.
    Question. Will you require FEMA to review the request as we move 
through this process and commit to sending a formal budget amendment if 
costs need to be refined?
    Answer. As was the case with Hurricane Sandy, the Department will 
work with Congress in the event that a catastrophic event necessitates 
additional resources in fiscal year 2014.
    Question. Your request is based in part on a historical average 
that excludes disasters over $500 million because they are considered 
rare. Based on recent experience, is that realistic? (Note: in 2011, 
for example, we had 99 major disasters and 14 of those were over $1 
billion, and last year, we had Hurricane Sandy which is the second most 
costly storm on record).
    Answer. Yes, it is still realistic. In 2011, only four individually 
exceeded the $500 million estimate, which was comprised of only two 
events. For fiscal year 2012 there were 46 declarations and only 1 
exceeded the $500 million estimate. Provided below is a 10-year 
breakout of total disaster declarations and those exceeding the $500 
million threshold:
  --Fiscal year 2003: 0 out of 62 (1 event collectively was over $500 
        million);
  --Fiscal year 2004: 4 out of 65;
  --Fiscal year 2005: 5 out of 45;
  --Fiscal year 2006: 1 out of 58;
  --Fiscal year 2007: 0 out of 68;
  --Fiscal year 2008: 3 out of 58;
  --Fiscal year 2009: 0 out of 63;
  --Fiscal year 2010: 1 out of 79;
  --Fiscal year 2011: 4 out of 99; and
  --Fiscal year 2012: 1 out of 46.
    Question. When was the last fiscal year without a single event that 
exceeded $500 million?
    Answer. Fiscal year 2009 had no declarations over $500 million in 
estimated cost to FEMA.
                    funding innovative technologies
    Question. I have heard from many technology companies and 
entrepreneurs that they apparently have no clear path to bring 
innovative security technologies they are developing--or have even 
developed already--to the attention of Department decisionmakers. I am 
very concerned that creative, cost-effective security and other 
technologies are being missed by DHS procurement officials.
    Who makes the decision about what technologies your Department 
tests, researches, and ultimately procures?
    Answer. The Department of Homeland Security Science and Technology 
(S&T) Directorate identifies technologies developed by industry, other 
Federal agencies, and universities that could improve the 
effectiveness, efficiency, and safety of DHS missions. Leveraging other 
companies' or organizations' investments in technology is integral to 
S&T's goal of rapidly moving new technologies to operational use, and 
to S&T's need to achieve high returns on its research and development 
(R&D) investments. S&T focuses largely on late stage technology 
development. However, the Directorate also supports fundamental to 
applied scientific research through its university Centers of 
Excellence and the Department of Energy (DOE) National Labs. Many of 
these research projects evolve into technologies that are eventually 
used by DHS components and State and local partners, after appropriate 
test and evaluation. The end users ultimately make the decisions about 
what they need, with S&T's advice and support. There are several ways 
by which S&T forages for existing technology that might be adapted, 
evolved, or applied to DHS needs, and several means through which 
technology developers might investigate S&T's interest in particular 
products.
    S&T's work covers an extremely broad and diverse set of missions--
mirroring the breadth and diversity of DHS' responsibilities. S&T's R&D 
investments are determined in collaboration with DHS operational 
components and with representatives from State, local, tribal, and 
territorial first responder officials. The specific criteria used to 
evaluate particular projects are described by the R&D portfolio review 
process and are selected to reflect S&T goals of high likelihood of 
transitioning to use (which incorporates customer interest) and high 
operational impact.
    Evaluation of projects is conducted annually by teams that include 
senior component officials and non-DHS technical experts. Every 
proposed new start project is required to present evidence of 
technology foraging--that is, the program manager must demonstrate that 
the project has not already been done somewhere else and a new 
technology effort is needed to achieve the desired purpose. S&T has 
established a technology foraging effort that offers several different 
intensity levels of technology foraging, to assist project managers in 
searching for particular technologies or capabilities across the global 
research community. Toward this end, our researchers also maintain 
strong ties to scientists and engineers in other Federal agencies, 
universities, the private sector, and internationally. The S&T R&D 
Partnerships Group exists to connect HSARPA and First Responders Group 
project managers with the ongoing, dynamic flow of research across the 
world and to match S&T research interests with possible collaborators 
in industry, government, and academia.
    In addition to S&T's continuous efforts to scan and reach out to 
technology developers, there are several ways in which companies and 
organizations can reach in and present S&T with potential technologies 
for investment. For example, the most recent Broad Agency Announcement 
by S&T's Cyber Security Division received more than 200 full proposals, 
of which 33 were funded. These funded proposals included five 
international collaborators from other countries: Australia, the United 
Kingdom, Sweden, the Netherlands, and Canada. S&T is evaluating the 
possibility of funding additional proposals due to the increase in 
funding provided in fiscal year 2013.
    The Directorate is also broadcasting webinars targeted at private 
industry that describe the operational goals of HSARPA's R&D efforts to 
provide industry another venue from which they can learn about the 
Directorate's technological needs. The most recent webinar held by S&T 
was focused on the joint R&D strategy between S&T, the Federal 
Protective Service, and the General Services Administration. The 
webinar had more than 160 attendees from large and small businesses, 
national labs, and universities.
    Question. Is there a one-stop shop in the Science and Technology 
Directorate or elsewhere in the Department that these individuals can 
reach out to directly?
    Answer. Information about S&T solicitations can be found on the DHS 
Broad Agency Announcements Program Portal Web site (https://
baa2.st.dhs.gov). In addition to targeted Broad Agency Announcements, 
the DHS Web site offers alternative methods for industry to connect 
with S&T, Small Business Innovation Research (SBIR), and the Long Range 
Broad Agency Announcement, which cover a wide variety of R&D topic 
areas. The DHS SBIR Program is specifically designed to assist small 
businesses with developing new R&D projects.
    The Support Anti-Terrorism by Fostering Effective Technologies Act 
of 2002 (SAFETY Act) office, within S&T, works with applicant companies 
to determine if the company's products or services are eligible for 
liability protections as qualified anti-terrorism technologies. 
Information on the SAFETY Act can be found at http://www.safetyact.gov.
    Question. I'd also like to understand how DHS seeks out innovative 
technologies from the private sector with potential security value.
    Do program staff sit back and await formal responses to contract 
solicitations, or do they get out of Washington, attend trade shows, 
and conduct proactive outreach to businesses in Silicon Valley and 
other parts of the country where technology solutions may already 
exist?
    Answer. The S&T Directorate is active in the tech community, 
attending key conferences and trade shows and hosting industry days, as 
well as meeting with innovative companies, investors, and traditional 
R&D partners. These activities occur through a number of efforts within 
the Directorate.
    For example, S&T's Research and Development Partnerships (RDP) 
group is active in several research communities and is engaged through 
partnerships with the private sector to identify, monitor, and connect 
relevant technologies and capabilities based on the strategic and 
programmatic needs of the Directorate and Department. RDP manages a set 
of core competencies and spheres of influence that reach into various 
academic, interagency, national laboratory, and private sector groups 
both domestically and internationally. RDP then facilitates connections 
between these stakeholders and S&T's research portfolio in order to 
ensure that the Directorate is leveraging the best capabilities 
available, whether they come from industry, academia, or other parts of 
the U.S. Government. One critical function that RDP provides the 
Directorate is a technology foraging capability that leverages the many 
areas of expertise within RDP to seek information on technologies that 
address specific challenges faced across DHS. Technology foraging is 
designed to research and evaluate activity in specific technology 
landscapes by collecting and analyzing global data sources on 
environments for research, technology, and market and to provide 
unbiased analysis and recommendations on viable technologies, products, 
and services to advance homeland security capabilities. The goal of 
technology foraging is to provide project managers with knowledge to 
plan and execute projects that capitalize on existing and developing 
technology markets in order to achieve mission-critical capabilities 
and to ensure that the Directorate is not duplicating existing 
capabilities.
    S&T has also made a concerted effort to reach out to nontraditional 
government performers through its investment with In-Q-Tel, which 
primarily works with small businesses and startup companies in Silicon 
Valley that are not traditional U.S. Government partners. The 
Directorate has been broadcasting webinars targeted at private industry 
that describe the operational goal of HSARPA's R&D efforts to provide 
industry another venue from which they can learn about the 
Directorate's technology needs. These webinars have been well received 
by industry. S&T also hosts the Transition to Practice program, which 
partners with other Federal agencies (i.e., DOE and the Department of 
Defense) to bring cybersecurity solutions to bear on DHS and industry 
problems, thus leveraging their research dollars to solve pressing 
homeland security mission needs.
    Another important aspect of the Directorate's outreach to industry 
is S&T's SBIR Program. Since its inception in 2004, 3,083 proposals 
have been submitted to S&T's SBIR program from every State in the 
United States, including Washington, DC, and Puerto Rico. Awards have 
been made to 345 small businesses in 42 States. Of note, small 
businesses in California have submitted 39 percent of the proposals and 
received 23 percent of the awards.
    The DHS SBIR Program conducts its outreach through participation in 
national conferences, as well as in regional, State, and local events. 
In addition, the Program Office is actively involved in webinar series 
with the National Council of Entrepreneurial Technology Transfer. In 
fiscal year 2012, SBIR outreach was conducted in 10 States (including 
DC), consisting of 25 events (including webinars). These activities 
inform our solicitation process, ensuring that we craft our competitive 
award process with the latest innovations and solutions in mind, 
regardless of where they originated.
 state, local, tribal, and territorial government preparedness grants 
                              and training
Funding
    Question. Securing our homeland is a partnership between the 
Federal Government, State, local, tribal, and territorial entities--one 
we must continue to support and strengthen. Just like training to run a 
marathon requires substantial time and commitment before you reach the 
finish line, our country must also take a long view with regular and 
routine investments in local, State, and Federal homeland security 
assets. Yet the budget request we are discussing today has a 15-percent 
cut to State and local preparedness grants, which if adopted, would 
revert funding levels back to the historic low of 2012. It also 
includes a 50-percent cut to training, including the specialized 
courses taught through the National Domestic Preparedness Consortium.
    With a 50-percent reduction in training, how will we ensure first 
responders are trained for new threats but also keep their skills sharp 
on traditional threats?
    Answer. The fiscal year 2014 request streamlines training by 
creating Training Partnership Grants (TPG). This competitive process 
will build on the solid foundation that exists by developing new 
training venues and vehicles to educate the State and local first 
responder community. The TPG will enable training partners to focus on 
emerging threats and continue training in traditional threat areas--
based on local, State, regional, and National Threat and Hazard 
Identification Risk Assessments (THIRA) and capability estimation 
processes. Through the TPG competition, FEMA plans to infuse the 
training program with greater efficiencies while encouraging new and 
innovative approaches to training.
Measuring Performance
    Question. For years Congress has called for putting a measure in 
place so that we can better understand the Nation's risks and 
capabilities and then refine the level of support needed for State and 
local partners instead of having funding levels ebb and flow with 
crisis and economic times. I understand we are as close as we have ever 
been to finalizing such a process with the release of the National 
Preparedness Report last year, and an update coming in months. In 
addition, State and local governments are now required to complete 
comprehensive threat and hazard assessments.
    When will Congress see a complete picture of the Nation's risk and 
the specific gap in capabilities to address that risk?
    Answer. FEMA's strategy is to base assessments on the principles 
that the Nation needs to understand the risks it faces, use those risks 
to determine the capabilities it needs, assess its current capability 
levels against those requirements, and track its progress in closing 
capability gaps. Developing and maintaining an understanding of the 
variety of risks faced by communities and the Nation, and how this 
information can be used to build and sustain preparedness, are 
essential components of the National Preparedness System.
    Each State and territory is required to annually complete a State 
Preparedness Report (SPR) that assesses their ability to meet and 
deliver the core capabilities outlined in the National Preparedness 
Goal. These core capabilities and the identified gaps in each core 
capability are assessed against targets that are derived from each 
State and territory's Threat and Hazard Identification and Risk 
Assessment (THIRA). Taken together, the THIRA results and the SPR 
identify capability needs. These products allow the Nation to look 
holistically across all capabilities and whole community partners to 
gauge areas of strength and areas for improvement. FEMA reports the 
results of the capability assessments in the National Preparedness 
Report, sent to the President annually on March 30.
Consolidation
    Question. The budget proposal again consolidates the grant program 
structure. Last year the proposal lacked sufficient detail and 
stakeholder input. I understand a comprehensive legislative proposal is 
coming from the administration to the authorizing committees of 
jurisdiction for consideration.
    When do you anticipate submitting this grant reform package?
    Answer. The grant reform package is being finalized and we expect 
to submit it to Congress in the very near future.
    Question. We plan on regular order for appropriations bill this 
year, which means completion of the Senate bill by July and a 
conference agreement with the House in September.
    Do you plan on working aggressively with the authorizing committees 
so that any resolution for reform is enacted in time for fiscal year 
2014?
    Answer. Yes, the administration looks forward to engaging Congress 
proactively to enact the proposal outlined in the President's budget.
          detention beds vs. alternative methods of detention
    Question. Given the fact that there are more than 11 million 
undocumented individuals in this country and this administration has 
achieved records levels of removal of criminal aliens--more than 
225,000 in the last fiscal year alone--Congress has mandated that ICE 
maintain 34,000 detention beds in order to detain and then 
expeditiously remove aliens judged to be deportable. Your budget 
request for fiscal year 2014 cuts the level of beds by 2,200 to 31,800 
beds. The argument could be made that you are seeking flexibility in 
how you determine which individuals should be detained and which should 
be placed on alternative methods of supervised release. However, you 
also are requesting a $24 million reduction in the alternatives to 
detention account.
    Why are you cutting both detention beds and funding for 
alternatives to detention?
    Answer. U.S. Immigration and Customs Enforcement (ICE) requested 
that the level of detention beds be cut by 2,200 to continue priority 
operations in a manner consistent with current fiscal constraints. ICE 
continues to implement efficiencies that assist with identifying, 
detaining, and removing those individuals who are an enforcement 
priority, while exercising discretion appropriately. Examples of this 
includes the nationwide implementation of the Risk Classification 
Assessment and a pilot program in which ICE works with the Executive 
Office for Immigration Review (EOIR) to expedite priority cases that 
are not subject to detention.
    ICE is also committed to aligning the Alternatives to Detention 
(ATD) program to the agency's immigration enforcement priorities. ICE's 
request for fiscal year 2014 ATD funding is consistent with fiscal year 
2012 levels. The President's fiscal year 2013 budget included 
additional money for the ATD program that was not reflected in ICE's 
fiscal year 2014 request. Therefore, while it may appear that the 
requested fiscal year 2014 ATD budget reflects a decrease over the 
fiscal year 2013 enacted budget, it is consistent with fiscal year 2012 
enacted funding levels and will adequately support the ATD mission 
based on current projections.
    To meet the increased demands for ATD monitoring, while still 
maintaining a consistent funding level, ICE has developed the expedited 
docket in conjunction with EOIR and the Multi-Aspect Removal 
Verification Initiative (MARVIN). ICE believes that by expediting 
priority cases it will decrease the length of time in program for ATD 
participants, thus leading to an increased number of participants 
overall. ICE officially implemented the de-escalation concepts of 
MARVIN on December 6, 2012. This high-low-high approach to supervision 
requires a higher level of monitoring and case management until 
participants demonstrate their compliance with their release 
conditions. During the course of proceedings, and after participants 
demonstrate their compliance, their monitoring, case management, and 
associated costs, are greatly reduced. When participants are preparing 
to depart the United States their monitoring and case management are 
again increased to ensure compliance with the removal order. This 
approach affords ICE the ability to add more participants to the 
program.
    Question. Does this mean the administration intends to reduce its 
commitment to enforcement of existing immigration laws?
    Answer. U.S. Immigration and Customs Enforcement remains committed 
to a smart, effective and balanced approach to enforcing our Nation's 
immigration laws by making use of our limited resources, including 
detention and alternatives to detention, in a manner consistent with 
established agency priorities. Rather than funding an arbitrary minimum 
average daily number of costly detention beds, limited resources should 
be targeted to detain only mandatory and priority detainees, while non-
mandatory and non-priority individuals could be placed in less costly 
alternatives to detention programs on a case-by-case basis.
                           trusted travelers
    Question. In 2011, the Transportation Security Administration 
launched an initiative called PreCheck (Pre3<SUP>TM</SUP>) that pre-
screens passengers who volunteer information about themselves in 
exchange for expedited screening at airports. Pre3<SUP>TM</SUP> is 
currently at 40 airports with five participating airlines. TSA also 
instituted expedited screening procedures for the elderly, children, 
and military employees. Moving away from a one-size-fits-all screening 
approach is a smart policy, but we need to further populate TSA's 
trusted traveler programs to improve wait times and achieve both a 
financial and security benefit. Your budget indicates that 25 percent 
of the traveling public will be enrolled in Pre3<SUP>TM</SUP> or some 
other risk-based screening program by the end of 2013. That is a very 
ambitious goal, and I salute your efforts to expand enrollment and 
participation.
    What is your plan to capture a wider pool of travelers into the 
Pre3<SUP>TM</SUP> program and can you describe the Department's plans 
to leverage the private sector to make it easier for passengers to sign 
up and participate in the program?
    Answer. Currently, the Transportation Security Administration's 
(TSA) expedited screening initiative, TSA Pre3<SUP>TM</SUP>, operates 
at 40 U.S. airports under five participating airlines and recently 
passed the critical milestone in the Agency's efforts to move toward a 
more intelligence-driven, risk-based form of security by reaching the 
10 million passengers screened under TSA Pre3<SUP>TM</SUP>. In 
addition, TSA has expanded TSA Pre3<SUP>TM</SUP> to international 
flights on participating airlines, enabling TSA Pre3<SUP>TM</SUP> 
participants to be eligible for expedited screening on select 
international travel itineraries in addition to domestic travel. This 
encompasses passengers flying internationally out of the 40 
participating TSA Pre3<SUP>TM</SUP> airports, and eligible passengers 
with connecting domestic flights who have arrived in the United States 
on an international flight after being cleared by U.S. Customs and 
Border Protection (CBP).
    TSA currently has nine locations where Active Duty military can use 
their Common Access Card to enter TSA Pre3<SUP>TM</SUP> lanes. TSA is 
working closely with the Department of Defense (DOD) to implement a 
list-based solution whereby TSA Secure Flight receives a real-time list 
of eligible Active Duty military, National Guard, Reserve, and DOD 
civilians who will become eligible for TSA Pre3<SUP>TM</SUP> on all 
participating airlines and at all TSA Pre3<SUP>TM</SUP> locations.
    These initiatives support TSA's overall efforts to enable a wider 
pool of travelers to participate in the TSA Pre3<SUP>TM</SUP> program, 
and improve passengers' airport security screening experience via TSA's 
expedited screening processes.
    Question. A common complaint by those participating in 
Pre3<SUP>TM</SUP> is that it's not transportable from one airline to 
another. In other words, if you're a frequent traveler of United 
Airlines, you can't receive the Pre3<SUP>TM</SUP> benefit if you take a 
flight on American Airlines. Are you working with the airlines to make 
Pre3<SUP>TM</SUP> transportable between air carriers?
    Answer. The Transportation Security Administration (TSA) continues 
to encourage TSA Pre3<SUP>TM</SUP> participating airlines to provide 
reciprocal recognition of eligible frequent flyers.
    One successful example of airline collaboration is between United 
Airlines and US Airways. These airlines currently recognize each 
organization's eligible travelers that have opted to participate in TSA 
Pre3<SUP>TM</SUP>.
    In addition to reciprocity, travelers with a Known Traveler Number, 
such as U.S. citizens who are members of U.S. Customs and Border 
Protection's Global Entry, SENTRI, and NEXUS programs, are eligible for 
TSA Pre3<SUP>TM</SUP> expedited screening on all participating airlines 
at the 40 TSA Pre3<SUP>TM</SUP> airports.
    Question. What is being done to counter the risk of a terrorist 
becoming a frequent flyer and enrolling in the Pre3<SUP>TM</SUP> 
program?
    Answer. All travelers including those in the Transportation 
Security Administration (TSA) Pre3<SUP>TM</SUP> program currently 
receive a name-based check against the no fly and selectee lists of the 
Terrorist Screening Database. In addition, no travelers, including 
those in the TSA Pre3<SUP>TM</SUP> program, are guaranteed to receive 
expedited screening. All travelers are subject to additional security 
layers through the random, unpredictable screening measures that TSA 
employs.
                           trade enforcement
    Question. I have been very concerned about the continued reports of 
foreign seafood, especially shrimp, being dumped on the U.S. market by 
unscrupulous companies who claim their product is produced in one 
country when in fact it is mislabeled and comes from a different 
country entirely. This has a direct impact on food safety as well as 
the domestic seafood industry. This subcommittee held a hearing on the 
issues of antidumping and countervailing duties investigations and 
enforcement where officials from Customs and Border Protection and 
Immigration and Customs Enforcement testified that they would 
strengthen their efforts in this regard. I am pleased that enforcement 
actions were taken last year against mislabeled shrimp imports and that 
DHS appears to be taking this issue more seriously.
    Your budget includes $3 million to begin centralizing single 
transaction bond processes which should increase collections of customs 
revenues. Expanded use of this concept was raised at our trade 
enforcement hearing.
    What other efforts is the Department taking to more robustly 
enforce our trade laws and protect American industries from unfair 
trade practices?
    Answer. ICE and U.S. Customs and Border Protection (CBP) work 
together throughout the international supply chain to identify, 
disrupt, and dismantle criminal organizations engaged in trade crime. 
For example, ICE's Los Angeles's Trade Fraud Group, co-located 
alongside CBP personnel, attached to the Port of Los Angeles in 2012, 
established the Trade Enforcement Coordination Center (TECC). The TECC 
merges ICE and CBP resources to promote seamless information sharing 
among all entities involved in trade enforcement. The TECC proactively 
identifies trade schemes and facilitates threat assessments, which are 
used to form investigative and interdiction operation teams alongside 
industry. ICE and CBP are developing additional TECCs at major ports-
of-entry in the United States to enhance commercial fraud enforcement 
nationwide.
    ICE and CBP also work jointly to produce post-investigative 
analysis reports (PIARs) during commercial fraud and intellectual 
property rights investigations. These PIARs analyze lessons learned 
from investigations to ensure successful methods and techniques are 
repeatable for potential national use by ICE and CBP personnel. 
Similarly, ICE and CBP are developing a Commercial Fraud Modular 
Training program to foster communication and collaboration between 
prosecuting attorneys and CBP and ICE personnel to enhance joint 
investigations. Finally, ICE and CBP are engaged in ongoing outreach 
efforts with industry and law enforcement partners to coordinate 
capacity building programs and raise public awareness of U.S. trade 
laws.
    CBP is committed to protecting American industries from unfair 
trade practices, and ensuring that antidumping/countervailing duty (AD/
CVD) laws are vigorously enforced. CBP increased its agency-wide 
efforts in fiscal year 2012 to enforce AD/CVD laws in coordination with 
U.S. Immigration and Customs Enforcement, Homeland Security 
Investigations (HSI). In fiscal year 2012, CBP and HSI seized 57 
shipments of AD/CVD commodities with a domestic value of more than $13 
million for violations of AD/CVD and related laws. CBP also levied over 
50 monetary penalties assessed at more than $24 million on importers 
for AD/CVD violations, and completed over 50 AD/CVD audits of importers 
through which CBP identified discrepancies totaling approximately $41 
million.
                sequestration impact on small businesses
    Question. DHS has consistently achieved an ``A'' on its small 
business contracting scorecard, routinely awarding between 29 and 32 
percent of its contracts to small businesses. However, I recently sent 
a letter to DHS raising concern that sequestration will hit America's 
small businesses especially hard. As the chairman of the Senate Small 
Business Committee, I have heard of a number of instances in which 
funding under small business contracts has been reduced significantly 
or put on hold indefinitely.
    What impact will sequestration have on your Department's ability to 
contract with small businesses?
    Answer. DHS has a robust small business program and has received an 
``A'' on the Small Business Administration (SBA) scorecard for 3 
consecutive years beginning in fiscal year 2009. DHS is anticipating 
another favorable score for fiscal year 2012 when SBA releases the 
scorecard later this year. The success of the program has been 
dependent on eight key areas which include: the small business Web 
site; small business specialists in each buying activity; annual 
forecast of contract opportunities; listing of large business prime 
contractors with subcontracting opportunities; mentor-protege program; 
annual small business awards ceremony; small business review form; and 
outreach activities. On average, the DHS Office of Small and 
Disadvantaged Business Utilization staff participates in 75 to 100 
small business outreach events annually, reaching an estimated 10,000 
small businesses.
    As a result of sequestration, participation in local and out-of-
town small business outreach events with industry and trade 
associations has been significantly reduced. To mitigate the impact on 
the small business community, field personnel have increased the use of 
teleconferences and video conferences as a primary form of outreach.
    Question. What mechanisms are in place to monitor any impact and 
what action is being taken to mitigate the impact of these cuts?
    Answer. A letter from the DHS chief procurement officer to DHS 
industry partners has been posted under the Small Business Assistance 
portion of the DHS Web site. The letter explains that the Budget 
Control Act of 2011 requires sequestration of certain DHS funds which 
may result in certain planned procurements being canceled or reduced in 
scope and certain existing contracts being reduced in scope, 
terminated, or partially terminated. The letter also states, unless 
provided with formal notification to the contrary, all DHS contractors 
must continue to comply with all terms, conditions, requirements, and 
deliveries specified in their contract.
    The DHS component heads of the contracting activities submit a 
weekly report to the DHS chief procurement officer detailing the list 
of affected contracts. The Department is continually monitoring the 
status and remains committed to mitigating the effects of sequestration 
on the small business community to the greatest extent possible.
                          worksite enforcement
    Question. U.S. Immigration and Customs Enforcement (ICE) broke 
records last year in the number of worksite investigations initiated 
(3,904), arrests made (240), inspections conducted (3,004), and fines 
imposed ($12.5 million). And most of those records broke highs that 
were set the previous year. That's a strong record of performance in 
the area of worksite enforcement and an encouraging upward trend. 
There's a perception among many that immigration enforcement is 
targeted disproportionately at unskilled laborers instead of the 
unscrupulous employers who knowingly hire them, and in some cases, 
provide them with fraudulent documents, traffic them, and exploit them. 
Some have argued that reducing the demand for illegal labor through 
stricter worksite enforcement will eventually shrink the supply of 
illegal aliens and reduce the number of illegal entries.
    What can we do to further prevent employers from hiring people who 
aren't legally authorized to work in the United States?
    Answer. ICE supports potential statutory amendments, as part of 
common sense immigration reform, that will provide deterrence to 
willful or repeat violators. Currently, criminal penalties are provided 
for any person or entity that engages in a pattern or practice of 
violations of the prohibition against hiring, recruiting, or referring 
for a fee an unauthorized alien, or continuing to employ such 
unauthorized alien; however, this provision is a misdemeanor and 
carries lower penalties (8 U.S.C. section 1324a(f)). The term ``pattern 
or practice'' is defined as regular, repeated, and intentional 
activities, but does not include isolated, sporadic, or accidental acts 
(8 CFR section 274a.1(k)). ICE welcomes current proposals that increase 
criminal penalties for such pattern or practice violators. A similarly 
difficult provision under the current statutes relates to the criminal 
penalties provided for knowingly hiring at least 10 individuals within 
a 12-month period with actual knowledge that the individuals are 
unauthorized aliens and were brought into the United States in 
violation of law (8 U.S.C. section 1324(a)(3)(A)). Using this statute 
in criminal investigations or prosecutions can be difficult, as 
knowledge of the unauthorized aliens' manner of entry is required on 
the part of the employers and may be difficult to establish.
    Question. How can you reassure employers that E-Verify will help 
them to detect fraudulent documents that may otherwise appear 
legitimate?
    Answer. USCIS has continued to expand the types of documents for 
which the E-Verify system provides photo confirmation. The photo 
matching tool allows the employer to match the photo displayed in E-
Verify to the photo on the employee's permanent resident card, 
employment authorization document, U.S. passport or U.S. passport card 
to determine whether the card was fraudulently produced. E-Verify users 
rate the photo tool very highly as a method for reducing fraud. The 
2012 American Customer Satisfaction Index (ACSI) rating of E-Verify 
found that the photo tool scored 95 points on a scale of 1 to 100. 
Employers found the photo tool to be easy to use (score of 95) and 
thought it was helpful in preventing fraud (score of 94).
    USCIS is also working on a new initiative that will allow employers 
to check the authenticity and validity of driver's licenses and State 
identification cards. Mississippi and Florida are currently 
participating in this initiative, with opportunities for other States 
to participate as the program expands.
    USCIS is developing other methods for reducing fraud in E-Verify, 
such as monitoring Social Security numbers (SSNs) to identify potential 
fraudulent use and developing an enhancement to allow individuals to 
lock their SSNs in E-Verify so they cannot be used by others who work 
for E-Verify employers.
    Question. Should we also look at increasing civil or criminal 
penalties as a deterrent against willful violations or repeat offenses?
    Answer. U.S. Immigration and Customs Enforcement (ICE) supports 
increased civil and criminal penalties to deter willful or repeat 
violations. Currently, criminal penalties are provided for any person 
or entity that engages in a pattern or practice of violations of the 
prohibition against hiring, recruiting, or referring for a fee an 
unauthorized alien, or continuing to employ such unauthorized alien. (8 
U.S.C. section 1324a(f)). However, this provision is a misdemeanor and 
carries relatively modest penalties. Moreover, the term ``pattern or 
practice'' is defined as regular, repeated, and intentional activities, 
and does not include isolated, sporadic, or accidental acts). ICE would 
welcome increasing criminal penalties for such pattern or practice 
violators.
    Also, with the increase in technology, such as E-Verify, used to 
identify and prevent the use of false identification documents by 
unauthorized employees, there will likely be a corresponding increase 
in instances of identity fraud and theft. ICE would welcome increased 
criminal penalties for those who provide or use fraudulently obtained 
identification documents to circumvent immigration laws.
    Another possibility for statutory change involves the existing 
provision relating to the criminal penalties provided for knowingly 
hiring at least 10 individuals within a 12-month period with actual 
knowledge that the individuals are unauthorized aliens and were brought 
into the United States in violation of law (8 U.S.C. section 
1324(a)(3)(A)). Using this statute in criminal investigations or 
prosecutions is difficult as employers are required to have knowledge 
about the unauthorized aliens' manner of entry. Conceivably, a 
statutory amendment removing this particular knowledge element would 
allow for more prosecutions of unscrupulous employers that knowingly 
hire unauthorized employees.
    ICE also supports efforts to criminalize abusive employment 
practices committed against unauthorized employees based on the 
vulnerable nature of this population. Such provisions would allow ICE 
to target employers that rely on these unlawful practices as part of 
their business model, thereby giving them an unfair advantage over law 
abiding employers.
                               h-2b visas
    Question. Louisiana's seafood community relies heavily on the H-2B 
visa program for temporary workers to handle the most labor-intensive 
tasks required in these businesses, such as shucking oysters and 
picking crabs. Without this temporary worker program, Louisiana's 
seafood industry would come to a halt as American workers are simply 
unable or unwilling to fill these demanding positions. It has come to 
my attention that the United States Citizenship and Immigration 
Services (USCIS) has halted its processing of H-2B worker petitions 
from companies using private wage surveys as a result of a recent court 
ruling which calls into question the Department of Labor's (DOL) wage 
methodology. While we need to ensure workers are being adequately 
compensated, bringing such an important program to a standstill while 
the agencies determine a new wage methodology is simply unacceptable. 
There are a lot of small business owners, in Louisiana and across the 
country, trying to make ends meet, who are counting on you to continue 
processing H-2B applications in an expeditious manner. I encourage you 
to immediately resume processing H-2B applications with completed DOL 
labor certifications.
    During the 30-day suspension, how many petitions have been 
impacted?
    Answer. On April 2, 2013, USCIS issued an alert on its Web site, 
notifying the public that adjudication of most H-2B petitions had been 
suspended because of a court ruling that invalidated the use of the 
four-tier Occupational Employment Statistics (OES) survey as part of 
the temporary labor certification process, which is the first step in 
obtaining an H-2B petition. Because of the court's decision, this alert 
also indicated that USCIS would stop accepting new premium processing 
requests for H-2B petitions until further notice. On April 3, 2013, 
USCIS issued updated guidance on its Web site regarding the suspension. 
This posting informed the public that USCIS would issue a notice to all 
petitioners with pending H-2B petitions. The notice notified the 
petitioner that adjudication would be suspended unless the petitioner 
could show that the basis for the prevailing wage determination was 
something other than the four-tier Occupational Employment Statistics 
(OES) survey that had been enjoined by the court. If the petitioner 
provided evidence that a different method was used, USCIS released the 
case from hold and processed the case.
    On April 24, 2013, the Department of Homeland Security (DHS) and 
Department of Labor (DOL) jointly published the Interim Final Rule 
(IFR), Wage Methodology for the Temporary Non-Agricultural Employment 
H-2B Program, part 2. See 78 Fed. Reg. 24047 (April 24, 2013). The IFR 
revised the prevailing wage methodology by which DOL calculates certain 
prevailing wages to be paid to H-2B workers and U.S. workers recruited 
in connection with an H-2B application for temporary labor 
certification. Once the IFR was issued, USCIS resumed processing all H-
2B petitions. As noted in the IFR, approximately 682 H-2B petitions 
were affected as of April 10. As of May 6, 2013, an adjudicative action 
(approval, request for evidence, denial) has already taken place on all 
the cases affected by the suspension.
    Question. What are the Department's plans to resume processing H-2B 
applications and to ensure that seasonal employers get their H-2B 
workers as soon as possible?
    Answer. On April 25, 2013, USCIS issued an alert on its Web site, 
indicating that USCIS had resumed processing of all form I-129 H-2B 
petitions. This means that all H-2B petitions that were placed on hold 
could be adjudicated (approved, denied, issued a request for evidence, 
etc.). As of May 6, 2013, an adjudicative action (approval, request for 
evidence, denial) already had taken place on the cases affected by the 
suspension. USCIS also resumed accepting requests for premium 
processing for H-2B petitions on May 1, 2013.
    Question. When DHS re-starts processing, how will the Department 
account for the applications that were received in the last days of 
premium processing to ensure timely processing?
    Answer. USCIS processed all H-2B petitions as quickly as possible 
to alleviate potential hardship on employers. As previously indicated, 
an adjudication action (approval, request for evidence, denial) has 
already taken place on all the cases affected by the suspension.
    Question. What is the Department's plan for H-2B administration in 
the future?
    Answer. USCIS understands the importance of temporary non-
agricultural workers and the need for prompt adjudication of H-2B 
petitions. USCIS has resumed processing of all form I-129 H-2B 
petitions for temporary non-agricultural workers. The processing goal 
for an H-2B petition that does not have a premium processing request is 
generally 1 month. If a petitioner requests premium processing, USCIS 
will issue a decision (approval, request for evidence, notice of intent 
to deny, or denial) within 15 calendar days.
    Question. Are there any substantial changes to the program that DHS 
is considering?
    Answer. DHS does not anticipate proposing any substantial changes 
to the H-2B program at this time.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. I remain concerned about the Department's fiscal year 
2014 budget proposal to once again attempt to consolidate preparedness 
grants into one national program. Efforts to consolidate these grants 
could shift critical grant funds away from the areas most at-risk for a 
terror attack, like my State of New Jersey, and leave rail and port 
systems in populated areas without needed security funds. Congress 
explicitly prohibited the Department from carrying out this type of 
consolidation last year without authorization.
    Why is the Department once again proposing to consolidate 
preparedness grants into one program if it does not have the 
authorization to do so?
    Answer. Federal investments in State, local and tribal preparedness 
capabilities have contributed to the development of a significant 
national-level capacity to prevent, protect against, respond to, and 
recover from disasters of all kinds. As we look ahead, to address 
evolving threats and make the most of limited resources, the proposed 
National Preparedness Grant Program (NPGP) will focus on building and 
sustaining core capabilities associated with the five mission areas 
within the National Preparedness Goal (NPG) that are readily deployable 
and cross-jurisdictional, helping to elevate nationwide preparedness.
    The administration's fiscal year 2014 budget re-proposes the NPGP, 
originally presented in the fiscal year 2013 President's budget, to 
create a robust national preparedness capability, with some adjustments 
made to respond to broad stakeholder feedback solicited and received 
during 2012. In particular, the fiscal year 2014 NPGP provides grantees 
and other stakeholders greater certainty regarding the sources and uses 
of available funding while maintaining the core priorities of the 
administration's fiscal year 2013 grants vision.
    Similar to the fiscal year 2013 NPGP, the fiscal year 2014 proposal 
consolidates current State and local preparedness grant programs into 
one overarching program (excluding emergency management performance 
grants and fire grants) to enable grantees to build and sustain core 
capabilities outlined in the NPG collaboratively. As a single, 
comprehensive grant program, the NPGP eliminates the redundancies and 
requirements placed on both the Federal Government and the grantees 
resulting from the current system of multiple individual, and often 
disconnected, grant programs.
    The fiscal year 2014 NPGP prioritizes the development and 
sustainment of core capabilities as outlined in the NPG. Particular 
emphasis will be placed on building and sustaining capabilities that 
address high consequence events that pose the greatest risk to the 
security and resilience of the United States and can be utilized to 
address multiple threats and hazards. The NPGP continues to utilize a 
comprehensive process for assessing regional and national capability 
requirements through the Threat and Hazard Identification and Risk 
Assessment (THIRA) and capability estimation processes, prioritize 
capability needs and invest in critical national capabilities.
    The NPGP draws upon and strengthens existing grants processes, 
procedures and structures, emphasizing the need for greater 
collaboration and unity among Federal, State, local and tribal 
partners. This is particularly important as stakeholders work together 
to make smarter investment decisions, develop shared or deployable 
capabilities, and share resources through Emergency Management 
Assistance Compacts (EMAC) or other mutual aid/assistance agreements. 
In many ways, the NPGP structure mirrors the collaboration and 
decisionmaking process that occurs during disasters, when various 
stakeholders and jurisdictions come together to plan, build, and 
execute capabilities.
    NPGP grantees will be required to align their proposed investments 
to core capabilities, incorporate effectiveness measures, and regularly 
report progress on the acquisition and development of identified 
capabilities. These measures will enable all levels of government to 
collectively demonstrate how the proposed investment will build and 
sustain core capabilities necessary to strengthen the Nation's 
preparedness.
    Question. The recent terrorist attack in Boston highlighted the 
critical importance of providing Federal support to first responders, 
so they are prepared for emergencies and can respond quickly when 
terror attacks occur. The Department's request of $1.043 billion for a 
National Preparedness Grant Program represents a cut from the fiscal 
year 2013 pre-sequestration enacted amount for these grant programs 
(not including emergency management performance grants or fire grants).
    In light of the recent Boston attack, is the Department willing to 
reevaluate its fiscal year 2014 request for these grant programs to 
determine whether the requested amount meets current risk needs?
    Answer. The tragic events in Boston underscore the importance of 
coordinated preparedness capabilities among cross-jurisdictional 
agencies. It was Boston's preparedness efforts such as training and 
exercising as a cohesive emergency response unit that supported the 
coordinated and effective response.
    The proposed National Preparedness Grant Program (NPGP) will 
emphasize building and sustaining capabilities that address high 
consequence events that pose the greatest risk to the security and 
resilience of the United States. Funding will address multiple threats 
and hazards, while utilizing a comprehensive process for assessing 
regional and national capability gaps through the Threat and Hazard 
Identification and Risk Assessment (THIRA) process in order to 
prioritize and invest in key national capabilities.
    Question. If sequestration remains in effect, what impact will 
these across-the-board cuts have on DHS's ability to provide the areas 
most at-risk of a terror attack with the resources they need to prevent 
and respond to terror attacks?
    Answer. The administration believes sequestration is bad policy and 
has detrimental impacts on the economy and operations of the agencies. 
Sequestration affects the development and sustainment of local and 
State preparedness capabilities to adequately and efficiently respond 
to threats, terror attacks, and disasters.
    The Department's fiscal year 2012 UASI allocation cut funding for 
the Jersey City/Newark area by nearly 42 percent from fiscal year 2011. 
However, the fiscal year 2012 allocation did not cut any funding for 
the New York region, and the next three top risk areas received 
substantially smaller cuts than the Jersey City/Newark area.
    Question. Given that the top four risk areas received 
disproportionately smaller cuts, or no cut at all, why didn't the 
remaining high-risk regions in tier I also receive special 
consideration to ensure the smallest cuts possible?
    Answer. In fiscal year 2012, the total amount of available grant 
funding for the Urban Areas Security Initiative (UASI) was 26 percent 
lower than the funding available in fiscal year 2011. As is the case 
each year, the final fiscal year 2012 UASI allocations were informed by 
a comprehensive risk methodology based on threat, vulnerability, and 
consequence factors.
    Question. How will DHS's future UASI allocations take into account 
the substantial cut the Jersey City/Newark area faced in fiscal year 
2012 to ensure the area is not put at risk because of these cuts?
    Answer. The UASI program addresses the unique planning, 
organization, equipment, training, and exercise needs of high-threat, 
high-density urban areas, and supports building an enhanced and 
sustainable capacity to prevent, protect against, mitigate, respond to, 
and recover from acts of terrorism. UASI allocation decision process 
will continue to be risk-informed, as required by section 2007 of the 
Homeland Security Act of 2002. In addition, FEMA will continue to 
administer an annual risk validation process with the top 100 
Metropolitan Statistical Areas (MSAs) and 56 States and territories, as 
required by the Homeland Security Act. The Department will continue to 
prioritize funding to support the highest threat needs.
    Question. While full details of the attacks are not yet known, the 
recent bombings in Boston have highlighted dangerous loopholes in our 
explosives laws. Today, anyone can buy up to 50 pounds of black powder 
and unlimited quantities of smokeless and black powder substitute 
without a background check or permit. And for those explosives that can 
only be purchased with a permit, a known or suspected terrorist is not 
prohibited from being issued a permit and purchasing these explosives 
today.
    Do you think these loopholes in our explosives laws put Americans' 
safety in danger?
    Answer. I would defer to DOJ regarding explosives laws.
    A whole-of-government approach that integrates Federal, State, 
local, tribal, territorial, private sector, and global participation in 
counter-IED activities will best position the United States to discover 
plots to use IEDs in the United States, or against U.S. persons abroad, 
before those threats become imminent.
    The Joint Program Office for Countering IEDs (JPO C-IED), 
administered by the Attorney General through the Federal Bureau of 
Investigation (FBI), is an interagency group that coordinates and 
tracks progress across the departments and agencies toward building and 
maintaining counter-IED capabilities. The DHS Office for Bombing 
Prevention (OBP) within the National Protection and Programs 
Directorate serves as the Deputy Administrator of the JPO C-IED and 
leads the development and implementation of national counter-IED policy 
within DHS.
    OBP provides the Nation a focused portfolio of counter-IED 
capability development programs to State, local, tribal, territorial, 
and private sector partners. For example, OBP raises awareness of the 
illicit use of black and smokeless powders through voluntary measures 
such as the Bomb-Making Materials Awareness Program, which encourages 
inventory control and suspicious activity reporting.
    Question. We also know that terrorists have been encouraged to 
exploit loopholes in our gun laws. In June 2011, Adam Gadahn, an 
American-born Al Qaeda member, urged terrorists in a video to exploit 
weaknesses in U.S. gun laws to carry out terrorist attacks. Gadahn 
said, ``America is absolutely awash with easily obtainable firearms. 
You can go down to a gun show at the local convention center and come 
away with a fully automatic assault rifle, without a background check, 
and most likely, without having to show an identification card. So what 
are you waiting for?'' And even when a background check is conducted, 
being a known or suspected terrorist does not disqualify a person from 
purchasing a gun. While we don't yet know the origins of the firearms 
used by the Boston bombing suspects, we do know they procured an 
arsenal of firearms that they used to kill one police officer and 
seriously injure another.
    Are you concerned that terrorists could exploit our gun laws in 
order to purchase firearms in the United States and harm Americans?
    Answer. We would be happy to provide a briefing on this based on 
current intelligence.
    Questions. The Port Security Grant Program provides crucial funding 
for improving security at our Nation's ports. In addition, the 
performance period for grants was shortened from 3 years to 2 years. 
How will the decrease in the performance period change the types of 
projects that Port Security grantees can undertake? Will this impact 
their ability to address high-risk projects?
    Answers. The Port Security Grant Program has the high levels of 
unobligated balances among the State and local grant programs. PSGP 
priorities have expanded over the years as a result of the stakeholder 
input, to give applicants more flexibility when applying for funds. 
Applicants must take into consideration the ability to complete a 
project within the 2-year performance period and are required to 
provide timelines and milestones with their application. FEMA has taken 
steps to make funding available at the time of award to include pre-
award budget reviews and timely environmental and historic preservation 
(EHP) reviews to give grantees the maximum amount of time possible to 
complete their projects.
    No. Large, complex, capital security projects may be phased over 
the grant period of performance years to allow high-risk projects to be 
completed.
    Question. What can FEMA do to ensure that their internal review 
process does not inhibit grantees from completing projects within the 
mandated project completion period?
    Answer. FEMA has taken steps to make funding available at the time 
of award to include pre-award budget reviews and timely environmental 
and historic preservation reviews, as required under present law, to 
give grantees the maximum amount of time possible to complete their 
projects. FEMA has also emphasized the importance that grantees have a 
clear plan for spending grant awards from the beginning of the period 
of performance.
    Question. To ensure that customs inspections do not impede tourism, 
Customs and Border Protection aims to process arriving international 
passengers within 30 minutes. According to reports from Newark Liberty 
Airport, arriving passengers are experiencing wait times of up to two 
hours at customs due to inadequate staffing. At the same time, DHS is 
funding a preclearance checkpoint at the Abu Dhabi International 
Airport and not increasing investments at customs checkpoints at busy 
domestic airports.
    How will this new Abu Dhabi checkpoint affect Customs and Border 
Protection staff in the United States?
    Answer. Pre-clearance will provide much needed relief to wait times 
at highly congested U.S. gateway airports, such as Chicago O'Hare, New 
York-John F. Kennedy, and Washington Dulles, by providing domestic-
style arrivals and connections when flights land from the location.
    Question. Can you commit that the new Abu Dhabi checkpoint will not 
decrease Customs and Border Protection staffing at Newark Liberty?
    Answer. The port of entry at Newark Liberty Airport is a major 
gateway to the United States for trade and travel and will continue to 
be a high-priority location for Department of Homeland Security and 
CBP. CBP is committed to making every effort to ensure that all 
locations, including Newark Liberty Airport, have adequate staffing.
    Question. Will you commit to working with me to provide adequate 
staffing at Newark Liberty?
    Answer. An administration priority in the fiscal year 2014 budget 
is to expand frontline operational capabilities through increased 
staffing at our ports of entry. The fiscal year 2014 budget supports 
25,252 U.S. Customs and Border Protection (CBP) officers, including 
1,600 additional CBP officers through appropriations and 1,877 
additional CBP officers funded by CBP's proposed increase to the 
Consolidated Omnibus Budget Reconciliation Act (COBRA) and immigration 
inspection user fee fees.
    Question. A German security consultant recently claimed to have 
developed technology that could be used to remotely hijack an airplane, 
alleging that current security systems do not have adequate 
authentication methods to ensure commands are from a legitimate source. 
The FAA released a statement saying it is aware of this claim and has 
said it does not pose a threat on actual commercial flights.
    Will you commit to reviewing the potential threat and updating me 
on steps being taken to address any deficiencies in our security 
systems that could leave an aircraft open to an attack of this nature?
    Answer. While the Transportation Security Administration (TSA) does 
not have authority to regulate the security vulnerabilities within 
aircraft avionics or aircraft flight simulator equipment, TSA works to 
acquire and analyze information to understand and actively respond to 
the cybersecurity threats that target transportation. These efforts 
include collaborating with TSA's partners to analyze the German 
security consultant's claim. We will continue to work with the U.S. 
Department of Transportation (DOT) and the Federal Aviation 
Administration (FAA) on this issue.
    Question. On March 26, a FEMA spokesperson said the Advisory Base 
Flood Elevation (ABFE) maps in New Jersey are likely to be revised, and 
that some properties in V zones could be moved back to A zones. 
Residents and businesses in New Jersey are currently deciding--based on 
the ABFE maps--whether to elevate their properties, relocate, or pay 
higher flood insurance premiums.
    Will DHS set up a specific mechanism--such as a telephone hotline--
for homeowners to learn how likely it is that their property will be 
put into a different flood zone when FEMA releases updated flood maps?
    Answer. Yes. Homeowners can log onto www.Region2Coastal.com and use 
the ``What is my BFE?'' tool within the Web site to perform an address 
specific look-up tool to determine the flood zone impacting their 
property. This was the same process utilized during the release of the 
advisory BFE map data. Property owners can enter their street address 
or location by latitude/longitude coordinates to obtain flood hazard 
information that will depicted on the Preliminary Flood Insurance Rate 
Map. If homeowners have additional questions about the Preliminary 
Flood Insurance Rate Map and the regulatory map process, they can call 
the FEMA Map Information Exchange at 1-877-FEMA-MAP.
    Question. I signed a letter to FEMA Administrator Fugate on March 
20 requesting that FEMA conduct an expedited study into how Army Corps 
of Engineers flood mitigation structures would affect the Advisory Base 
Flood Elevation (ABFE) maps in New Jersey. The letter requested that 
the study identify areas where the completion of the structures could 
lead to flood map revisions. I have not yet received a response to this 
letter.
    What is the status of this study, and when will it be complete?
    Answer. FEMA has engaged with the U.S. Army Corps of Engineers 
(USACE) on this matter and is working to develop a technical scope for 
the project that meets the request while working to ensure resources 
are available. A response to the referenced letter will be provided in 
the coming weeks, and FEMA will engage with its USACE counterparts and 
the offices of Senators Lautenberg and Menendez to develop a process 
for communicating regular staff updates as project milestones are 
completed.
    Question. Has FEMA requested data and information from the Army 
Corps of Engineers about planned flood control structures in New 
Jersey?
    Answer. Yes. USACE has provided design data for each of the beach 
projects on the NJ shoreline. USACE remains the authoritative source of 
information on the design and construction of beaches. FEMA will work 
with the USACE to ensure that it remains informed on the status of 
these USACE projects as work to complete FEMA mapping projects 
continues.
    Question. Given that FEMA is planning to release updated flood maps 
this summer, which will be before the Army Cops completes Superstorm 
Sandy flood control projects, what process will FEMA establish to 
coordinate these maps with anticipated Army Corps projects?
    Answer. FEMA has engaged with the USACE through its standing open 
coordination points, and this engagement will continue to ensure that 
FEMA is aware of the details of progress on USACE projects. It is 
important to note that FEMA maps produced under the National Flood 
Insurance Program (NFIP) must be based on existing conditions, and 
future conditions cannot be reflected by virtue of statute. However, 
FEMA has a map revision mechanism that allows communities to request 
changes, seek FEMA comment on the potential effects of proposed 
projects, and incorporate warranted changes in flood hazard mapping 
based on completed projects.
    Question. I am encouraged that FEMA has expressed a willingness to 
accept input from communities to address any shortcomings in the 
Advisory Base Flood Elevation (ABFE) maps. However, in order for a 
community to challenge the maps, FEMA is requiring that data be 
submitted in a form meeting detailed technical standards. Many small 
communities in New Jersey do not have the means to hire the technical 
experts needed to prepare a submission in the requested form. I signed 
a letter to FEMA Administrator Fugate on March 20th encouraging the 
agency to enlist experts at New Jersey's institutes of higher education 
to assist communities by providing an independent opinion on map 
accuracy and preparing submissions if needed. I have not yet received a 
response to this letter.
    Will DHS and FEMA enlist experts at New Jersey's colleges and 
universities to help New Jersey communities understand and, if 
necessary, submit proposed improvements to the ABFE maps?
    Answer. FEMA has actively sought statewide and local input since 
the inception of the ongoing study of coastal flood hazards in the 
State of New Jersey. In the early stages of the study, FEMA established 
a Technical Advisory Panel comprised of representatives from academia 
and nonprofit agencies, State and local governments, and other Federal 
agencies. Individuals from some of these institutions also have 
participated on the Coastal Outreach Advisory Team FEMA established 
around the same time. FEMA briefed the Technical Advisory Panel on the 
ABFE map development methodology and presented a prototype map to the 
panel prior to issuance of the maps. The consensus of the panel was 
that the ABFE mapping methodology was based on sound engineering 
practices, including the wave estimation methodology that FEMA 
employed. The detailed wave analysis that will replace the estimation 
used in the ABFE maps was recently completed. FEMA is in the process of 
coordinating with State officials, as part of the ongoing disaster 
recovery process, to plan issuance of work maps in the coming weeks 
that will eventually supersede the ABFE maps as best available data for 
rebuilding. FEMA engages and assists communities in understanding the 
flood hazards shown on the work maps, including the incorporation of 
the detailed wave analysis. The overall study will continue to involve 
the participation of both the Technical Advisory Panel and the Coastal 
Outreach Advisory Team.
    The Biggert Waters Flood Insurance Reform Act required FEMA to 
conduct a study and issue a report by April 6, 2013, on the 
affordability of NFIP premiums, the effects of increased premiums on 
low-income homeowners, and ways to increase affordability through 
targeted assistance. This study has not yet been released. In addition, 
FEMA has not yet replied to a letter I signed on March 15, 2013, 
requesting that this affordability study be released as soon as 
possible, and urging that no premium rate increases be noticed until 
this report has been released and adequate time has been made available 
for Congress and the public to study it.
    Question. What is the status of this study and when will it be 
complete?
    Answer. FEMA has been working collaboratively with the National 
Academy of Sciences (NAS) to assess what can be accomplished with 
authorized funding and the timelines for completing the study. The NAS 
has estimated that scoping an approach to the study would take 9-12 
months and could be done for the $750,000 outlined in the act. 
Implementing the study could cost $400,000 to $1 million or more. Once 
the scoping is complete, the NAS will have a better estimate of time 
required to complete the study.
    Question. How will DHS and FEMA address affordability issues and 
insurance premium rates?
    Answer. In addition to statutory requirements on affordability and 
insurance payment studies, FEMA is actively encouraging individuals and 
communities to consider ways to decrease their risk and thereby reduce 
their flood premiums. For example, individuals can decrease their risk 
and premiums by electing higher deductibles. Communities can address 
their risk and reduce premiums by joining the Community Rating System 
(CRS), a program that offers communities discounts in flood insurance 
rates for areas that exceed the NFIP's minimum floodplain management 
requirements. Communities receive discounts ranging from 5 percent to 
45 percent depending on the extent to which they exceed the NFIP 
minimum standards.
    Question. As the planet continues to warm, extreme weather events 
like Superstorm Sandy will become more frequent. In addition to storm 
damage, New Jersey's coastline is also particularly vulnerable to sea 
level rise.
    How do the new FEMA Advisory Base Flood Elevation maps in New 
Jersey account for the expected impacts of climate change?
    Answer. The new Advisory Base Flood Elevation (ABFE) maps in New 
Jersey (and New York) only account for current conditions flooding and 
do not account for future flood conditions associated with the effects 
of climate change--for example, sea level rise. However, FEMA has been 
collaborating with the National Oceanic and Atmospheric Administration, 
the U.S. Army Corps of Engineers, the U.S. Global Change Research 
Program, and other entities in the development of sea level rise tools 
that can be used with FEMA Preliminary Flood Insurance Rate Maps. FEMA 
is coordinating with New Jersey officials on the timing for the release 
of these tools in connection with the rollout of Preliminary Flood 
Insurance Rate Maps.
    Question. The 9/11 Commission characterized the Federal emphasis on 
aviation security as ``fighting the last war'' and noted that 
``opportunities to do harm are as great or greater in maritime and 
surface transportation.'' Since 2001, terrorist attacks against mass 
transit, buses, and passenger rail have resulted in 3,900 deaths and 
14,000 injuries worldwide. Most recently, on April 22, 2013, a plot to 
attack the Canadian Via transit agency was uncovered. Despite this 
growing threat, the overwhelming majority of TSA's resources are 
directed to aviation; the fiscal year 2014 budget request for surface 
transportation security is only $109 million, or less than 2 percent of 
the security budget. In addition, DHS has completed only 60 percent of 
the security requirements from the 2007 9/11 Act and General 
Accountability Office (GAO) has cited deficiencies in TSA's surface 
transportation security plans.
    How many of the 9/11 Act security requirements have not been 
completed?
    Answer. Please find the Department's progress report on the 9/11 
Commission recommendations here: http://www.dhs.gov/xlibrary/assets/
implementing-9-11-commission-report-progress-2011.pdf
    Question. What specific actions has TSA taken to address the 
deficiencies in TSA's comprehensive risk management assessment for 
surface transportation security plan that were identified by GAO?
    Answer. The Transportation Security Administration (TSA) has issued 
recommended security practices in all surface transportation modes, and 
measures adherence by industry to these security practices, by 
conducting enhanced Corporate Security and Baseline Assessment for 
Security Enhancement reviews. TSA enforces rail transportation security 
regulatory requirements (49 CFR part 1580) by conducting compliance 
inspections. The inspectors' roles and missions have been fully 
defined, and training is provided to the inspectors on how to conduct 
compliance inspections. In addition, agreements (MOUs and MOAs) have 
been negotiated with the Department of Transportation (DOT) to ensure 
that there is no duplication of these inspections.
    The transit sector, due to its open access architecture, has a 
fundamentally different operational environment than aviation. 
Accordingly, DHS helps secure surface transportation infrastructure 
through risk-based security assessments, critical infrastructure 
hardening, and close partnerships with State and local law enforcement 
partners. The fiscal year 2014 budget supports DHS's efforts to bolster 
these efforts through:
  --Funds 37 VIPR teams, which are comprised of personnel with 
        expertise in behavior detection, security screening, and law 
        enforcement for random, unpredictable deployments throughout 
        the transportation sector to prevent potential terrorist and 
        criminal acts.
  --Funds surface transportation security inspectors and canine teams 
        who work collaboratively with public and private sector 
        partners to strengthen security, identify vulnerabilities, and 
        mitigate the risk to our Nation's transportation systems.
  --Supports compliance inspections throughout the freight rail and 
        mass transit domains, critical facility security reviews for 
        pipeline facilities, comprehensive mass transit assessments 
        that focus on high-risk transit agencies, and corporate 
        security reviews conducted in multiple modes of transportation 
        to assess security.
    Question. Given the recent bombings in Boston and plots to attack a 
passenger rail system in Canada, is the fiscal year 2014 funding level 
sufficient to address the continuing threats to our surface 
transportation system? If not, what funding level is needed?
    Answer. The reduction in fiscal year 2014 funding taken in the 
surface appropriation reflects a streamlining of resources in the 
visible intermodal prevention and response (VIPR) teams which will not 
reduce the number of teams or operations.
    The fiscal year 2014 request for the surface transportation 
security appropriation will meet the planned mission, goals and 
objectives, consistent with prior appropriations.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Madam Secretary, your Department has led the Federal 
Government in finding cost savings through the consolidation of data 
centers. During the fiscal year 2013 budget cycle, you testified the 
Department might save nearly $3 billion by 2030 through these efforts. 
I also noted your recent conclusion that ten of the first data 
migration activities within your Department have resulted in annual 
savings of more than $17 million already.
    Can you elaborate on the other benefits that data center 
consolidation provides to DHS, its component agencies, and your mission 
effectiveness? Are you receiving enough assistance from the Congress 
and is there a way for us to be more helpful on this initiative?
    Answer. Data center consolidation provides many benefits to DHS and 
its component agencies, some of which include enhanced cybersecurity, 
disaster recovery, improved enterprise shared services, improved system 
performance, and a more standardized technology architecture. Specific 
benefits include:
  --Cybersecurity:
    --Reduces Internet connections;
    --Increases network security;
    --Establishes inherited common controls for certification and 
            accreditation process; and
    --Consolidates, standardizes, and improves system security 
            monitoring capabilities consistent with Federal Information 
            Security Management Act goals.
  --Continuity of operations/disaster recovery (DR):
    --Improves response to emerging threats and requirements;
    --Provides redundancy capabilities;
    --Satisfies component disaster recovery requirements;
    --Primary service provider coordinates DR services at the secondary 
            site; and
    --Infrastructure available to support active/active environment.
  --Enterprise shared services:
    --Offers common, standardized platforms for server, network, and 
            storage;
    --Ordering services efficiencies through bundled contract line item 
            numbers;
    --Standardized processes for operations and maintenance;
    --Standardize configuration and change control processes and 
            monitoring metrics;
    --Enables private cloud services for sensitive data;
    --New capabilities in ``as a service'' offerings are available for 
            all components; and
    --Allows for maximum efficiencies, scalability, and redundancy for 
            all enterprise services.
  --Cost reduction and improved system performance:
    --Ensures competitiveness of cost of services;
    --Reduces component carbon footprint and energy consumption costs; 
            and
    --Reduces system maintenance, management, and administration costs, 
            according to recent DHS chief financial officer independent 
            study:
      -- Migrations from commercial data centers resulted in annual 
            cost savings on the order of 43 percent.
  --Standardized architecture, common technology:
    --Simplifies deployment of new applications and capabilities across 
            the Department;
    --Improves automation for server management and provisioning;
    --Standardizes IT resource acquisitions across components;
    --Streamlines maintenance and support contracts; and
    --Expedites response times in the event of an emergency.
    We appreciate congressional support for DHS's data center migration 
activities since 2010 and look forward to working with Congress to 
secure the migration funds requested in the President's fiscal year 
2014 budget.
    Question. Madam Secretary, I understand the cybersecurity threats 
that our Nation faces and recognize the important role that cyber 
research and development plays into protecting our Nation's civilian 
computer systems. I noted that you've requested funds to support the 
DHS Science and Technology Directorate for such initiatives including 
experimental research test bed projects.
    Could you elaborate on what this program entails and how similar 
programs might serve to better protect our Nation's infrastructure?
    Answer. The Experimental Research Testbed project (formerly the 
Cyber Defense Technology Experiment Research Testbed Program, or DETER) 
began in 2004 as a joint effort between the DHS Science and Technology 
(S&T) Directorate and the National Science Foundation to address the 
need to research and understand new cybersecurity risks and threats in 
a safe environment. This project improves attack mitigation and 
confinement strategies and the quality of new cybersecurity 
technologies by providing a secure virtual Internet environment to run 
large-scale, repeatable tests and experiments.
    Currently, the testbed has more than 3,500 active users from 29 
countries and is comprised of nearly 500 PC-based nodes in both 
California and Virginia. DETER is also being used by other government 
agencies as a platform to develop and evaluate defensive mechanisms 
against attacks on infrastructure. For example, the Defense Advanced 
Research Projects Agency (DARPA) is currently using the testbed as a 
consolidated evaluation platform for one of its programs, saving DARPA 
time and expense of constructing individual testbeds while adding value 
to the DETER program through hardware upgrades to the testbed.
    In addition, the project provides hands-on security education to a 
wide range of colleges and universities. As a learning facility, the 
testbed fills a significant gap in security and networking instruction 
and provides educators worldwide with facilities and materials for 
security lab exercises that complement existing courses delivered in a 
classroom setting. This shared resource provides institutions with an 
efficient way to develop and share coursework, regardless of resources. 
To date, more than 30 educational institutions in six countries have 
benefited from educational use of DETER.
    Going forward, the project is exploring new testing and 
experimentation capabilities. Recently, the DETER Enabled Federated 
Testbeds consortium came together as a collaborative effort to build a 
shared, distributed capability for cyber-physical experimentation. The 
partnership consists of DHS, the Pacific Northwest National Laboratory, 
the University of Illinois--Urbana Champaign, and the University of 
Southern California--Information Sciences Institute. In November 2012, 
the consortium successfully demonstrated an integrated model that 
simulated power systems equipment and outages at different federated 
locations. This work allows scientists access to realistic settings for 
experimentation, gives industry the assurance that devices will behave 
as expected, and enables the Government to ensure that the Nation's 
critical infrastructure is secure and reliable while understanding how 
to manage interconnected cyber-physical infrastructure during a crisis.
    Question. How well are we able to model the potential effects of 
large scale disruptions to our electric grid?
    Answer. While tools are available to model aspects of large-scale 
power distribution disruptions, the Department is developing additional 
capabilities to analyze the cascading effects of large scale 
disruptions in the electric grid to critical infrastructure, such as 
water, finance, and transportation. In addition to research carried out 
by DHS S&T, the National Protection and Programs Directorate's Homeland 
Infrastructure Threat and Risk Analysis Center (HITRAC) oversees the 
National Infrastructure Simulation and Analysis Center (NISAC), which 
conducts modeling, simulation, and analysis of the Nation's critical 
infrastructure. NISAC analysts assess infrastructure risks, 
vulnerabilities, interdependencies, and event consequences.
    For example, HITRAC/NISAC is developing an electric power 
capability that will enhance DHS's capacity to analyze electric power 
system outages and their cascading impacts on other infrastructure 
sectors. The project will focus on refreshing the electric power 
modeling capability by building off of previously developed algorithms 
that focused on other hazards. This project will improve the accuracy 
of predictive tools by enhancing our ability to provide rough estimates 
for power restoration times.
    Question. Do we need to invest more in this type of research?
    Answer. DHS S&T is developing capabilities to analyze the cascading 
effects of disruptions to critical infrastructure. This work requires 
significant investment and research to develop a comprehensive 
methodology that integrates various models, accounts for risk, and 
tests an integrated system in multiple regions using a variety of 
scenarios. Complementing S&T's activities, NPPD/IP/HITRAC manages the 
NISAC modeling and simulation activities related to the electric grid. 
These capabilities currently include sophisticated modeling of the 
transmission elements of the electric grid, which are used to predict 
the extent and severity of power outages due to disasters or incidents. 
As most of this country's critical infrastructure is privately owned, 
it is increasingly important that we foster close relationships with 
the owners/operators of critical infrastructure.
    Additional investment in these tools, which are essential to 
modeling impacts of events on critical infrastructure, would extend 
this capability to the distribution of networks while improving 
fidelity and specificity of results. To further enhance infrastructure 
security and resilience as well as response and recovery efforts from 
natural disasters, cyber threats, or other incidents, the fiscal year 
2014 President's budget requests an organizational realignment of 
HITRAC from the Office of Infrastructure Protection to a newly proposed 
Office of Cyber and Infrastructure Analysis (OCIA). OCIA's mission is 
to assess all-hazards risk to the Nation's critical infrastructure by 
evaluating the potential consequences of disruption to infrastructure, 
including dependencies, interdependencies, and cascading impacts from 
physical or cyber threats or incidents.
    Question. Madam Secretary, you've stated on several occasions 
throughout the year that the U.S. border has never been more secure and 
you've cited reductions in illegal migrant apprehensions over the years 
as a basis for that claim. However, some question whether or not those 
numbers tell the whole story regarding how successful we are at 
stopping illegal border crossings.
    Can you elaborate on the specific measurements the Department has 
used to determine that the border is more secure?
    Answer. Over the past 4 years, this administration has undertaken 
an unprecedented effort to secure our border and transform our Nation's 
immigration enforcement system into one that focuses on public safety, 
national security, and on the integrity of the immigration system. The 
Department of Homeland Security (DHS) has deployed historic levels of 
personnel, technology, and infrastructure to our borders to reduce the 
illicit flow of people, drugs, cash, and weapons and to expedite legal 
trade and travel through trusted traveler and trader initiatives.
    DHS uses a number of indicators and outcomes to evaluate security 
efforts at our borders, including such factors as resource deployment, 
crime rates in border communities, and apprehensions. While enforcement 
statistics and economic indicators point to increased security and an 
improved quality of life, no single metric can define the state of 
border security. Rather than focus on any individual metric, DHS has 
focused on enhancing its capabilities, ensuring that it has the tools 
required that will lead to a high probability of interdiction in high 
activity areas along our Nation's borders.
    The security of our borders is a responsibility shared by our 
Federal, State, local, tribal, and international partners. DHS efforts, 
combined with those of our partners, have continued to keep our 
citizens safe, defend our country from attack, and promote economic 
prosperity. Border security efforts must focus on building an approach 
to position DHS's greatest capabilities to combat the highest risks 
that exist today while preparing for those that are new and emerging. 
DHS must continue to tailor its efforts to meet the challenges of 
securing a 21st century border. Passing a comprehensive immigration 
reform bill that will allow DHS and its partners to focus available 
resources on the most serious threats is critical in being able to 
effectively manage the security of our borders. Comprehensive 
immigration reform will only further enhance our Nation's ability to 
focus its limited border enforcement resources on the most serious 
criminal actors threatening our borders.
              national protection and programs directorate
    Question. Madam Secretary, during the fiscal year 2013 budget 
cycle, this Committee recommended a $2 million increase to the National 
Electronic Countermeasures (ECM) program within the National Protection 
and Programs Directorate.
    What steps has the Department of Homeland Security taken to counter 
the threat of Radio Controlled Improvised Explosive Device (RCIED) 
threats to U.S. cities?
    Answer. In accordance with U.S. policy, the Department of Justice 
(DOJ), specifically the Federal Bureau of Investigation (FBI), is the 
lead agency responsible for funding and managing the fielding of ECM 
equipment to State and local partners. The National Protection and 
Programs Directorate (NPPD) does not execute its own ECM equipment 
fielding program; however, DHS does provide support to the ECM effort.
    In support of the FBI and in conjunction with interagency 
counterparts, DHS has made significant contributions to fielding ECM 
equipment for State and local partners, including funding and program 
support, in order to counter the threat of Radio-Controlled Improvised 
Explosive Devices (RCIEDs). NPPD's Office for Bombing Prevention (OBP) 
and DHS/S&T provided policy, program, and funding support during the 
initial ECM pilot program for 11 Urban Area Security Initiative (UASI) 
cities beginning in 2006, including Boston. The Federal Emergency 
Management Agency subsequently provided grant funding that enabled nine 
additional cities to acquire a more advanced type of ECM equipment. In 
addition, OBP, together with the FBI and the Department of Defense 
(DOD), developed the National ECM Program plan in 2012 to establish a 
technically sound, cost-effective roadmap for long-term ECM support to 
State and local partners. S&T continues to fund ECM equipment and 
operational testing to that end. OBP continues to work with Federal 
partners through the Joint Program Office for Countering IEDs to 
address ECM policy and program management challenges in alignment with 
Presidential Policy Directive 17 and the National ECM Program plan.
    Question. Has DHS made progress towards working with the Department 
of Defense to field additional ECM equipment throughout U.S. cities 
deemed to be most vulnerable to the RCIED threat?
    Answer. Yes, the National ECM Program plan was developed with DOD 
in accordance with U.S. policy and mindful of the need to cost-
effectively leverage DOD's surplus ECM inventory and acquisition 
channels. The ECM systems included in the National ECM Program plan are 
currently or were previously used by DOD and other Federal agencies. 
Because DOD is the largest purchaser of ECM technology in the U.S. 
Government, the National ECM Program plan proposes building off of 
DOD's existing investments, inventory, and knowledge moving forward.
    Question. With respect to the processing of employment-based (EB-5) 
foreign investor visa applications, it's my understanding that USCIS 
has taken steps towards reorganizing personnel and resources nationwide 
to improve the timeliness and effectiveness of EB-5 applications.
    Please provide a timeline on when significant milestones are 
expected to be achieved and whether you anticipate any significant 
interruption or delay to the EB-5 process in the interim. What metrics 
or measures of effectiveness will be implemented to ensure that USCIS 
is meeting its goals of process improvement?
    Answer. USCIS is transitioning operations to a new headquarters 
program office in Washington, DC, on an expedited basis. The existing 
resources at the California Service Center will continue to adjudicate 
EB-5 workloads through the transition and USCIS does not anticipate any 
significant interruption or delays as a result of the transition. USCIS 
has met, or is on track to meet, the following milestones as it 
transitions operations.

------------------------------------------------------------------------
        Milestone description                        Date
------------------------------------------------------------------------
Announce creation of Office of                             December 2012
 Immigrant Investor Programs........
    Develop Concept of Operations...                          March 2013
    Develop Staffing Plan...........                          March 2013
    Identify Physical Space in DC...                          March 2013
    Finalize Facility requirements/                           March 2013
     equipment......................
    Physical Space Occupancy-ready..                            May 2013
Staffing:
    Post Vacancy Announcements......              March 2013--April 2013
    Post Detail Opportunities.......                          April 2013
    On-board Staff..................              May 2013--October 2013
    Commence Training of New Staff..                            May 2013
    Complete Hiring.................                         August 2013
    Complete Training...............                       November 2013
Operations:
    Commence Initial Operations of                             June 2013
     HQ office......................
    1-526 Petitions filed via ELIS..                           July 2013
    Transition of existing EB-5               October 2013-December 2013
     Workloads from California to HQ
------------------------------------------------------------------------

    USCIS will employ various quality assurance mechanisms to ensure 
the effectiveness of the new USCIS EB-5 program office. These include, 
but are not limited to, supervisorial review of adjudicative actions, 
fraud detection and national security case review protocols, processing 
time reviews to ensure elimination of undue processing delays, 
coordination with the USCIS ombudsman to track customer feedback, and 
public engagement.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. As the Arctic continues to open, sufficient Coast Guard 
presence in the region is vital to ensuring the safety and security of 
the region. In fact, we recently saw how important the Coast Guard is 
when the mobile offshore drilling unit Kulluk ran aground off 
Sidkalidak Island at the beginning of this year. As such, I'm happy to 
see that you requested funding for the seventh national security cutter 
(NSC) as part of the Coast Guard's fleet recapitalization program. I 
understand the Coast Guard plans to continue to deploy these highly 
capable ships up to Alaska as they did this past summer when you and I 
visited the cutter Bertholf, but I have a few concerns with this plan. 
I'm concerned about the proposed $909 million acquisitions budget, a 
dramatic reduction of $600 million below the fiscal year 2013 
appropriation.
    Is this the funding level you plan for the Coast Guard in the 
future?
    Answer. The fiscal year 2014-2018 Capital Investment Plan (CIP) 
reflects the Service's recapitalization priorities for a given funding 
profile. Outyear growth rates from the fiscal year 2014 acquisition, 
construction and improvements request level are consistent with the 
caps imposed on discretionary budget authority through 2021 under the 
Budget Control Act of 2011. The growth rates assume there are no 
automatic spending reductions in fiscal year 2014. Resource levels in 
the CIP do not preclude changes through the President's and Congress' 
deliberations in the annual budget process. The Department will 
continue to prioritize investments in acquisitions and personnel to 
meet the Nation's homeland security needs.
    Question. Currently there is one high endurance cutter, the Munro, 
homeported in Alaska. Cutters from California or Hawaii conduct all 
other Alaska Patrol deployments. The Munro is over 40 years old and 
there is no planned replacement. Under these fiscal constraints, can 
the Coast Guard afford to waste precious underway days, 20-30 days per 
patrol, transiting to and from the operating area?
    Answer. Collectively, the final mix of NSCs and OPCs will meet all 
major cutter mission requirements. CGC Alex Haley (WMEC), homeported in 
Alaska, will continue to support coverage requirements in District 17.
    Question. Since it seems a decision has been made to homeport these 
vessels in California and Hawaii, has a GAO study or BCA been conducted 
to compare the prudent cost of facility renovations to homeport and 
support the NSC in Alaska versus the annual cost of wasted transit time 
for deployments and casualty repair?
    Answer. The Coast Guard conducts homeport analysis when considering 
all ports to account for factors including infrastructure costs, access 
to logistics support, quality of life/education for families, and 
distance to areas of operations. Current analysis indicates that 
homeporting NSCs in California and Hawaii would enable the Coast Guard 
to most cost effectively support its full range of operational 
requirements.
    Question. Last year's $8 million for the study and design phase was 
a good start, but as we move forward towards the requests for proposals 
(RFP), is the $2 million requested enough for continued progression?
    Answer. Funding provided in fiscal year 2013 coupled with the $2 
million requested in fiscal year 2014 will fully fund the required pre-
acquisition activities. Once the pre-acquisition work is complete, the 
Department anticipates delivering an operational ship within a decade.
    Question. Given the fiscal constraints and drastic cuts to the 
recapitalization plans, will we have the $850 million required to build 
the new polar icebreaker that the Nation so desperately needs?
    Answer. The polar icebreaker replacement is still in the pre-
acquisition phase, and as such a detailed acquisition strategy has not 
yet been developed. The completion of pre-acquisition activities funded 
in the fiscal year 2014 budget will inform future funding needs for the 
polar icebreaker.
    Question. Is one new polar icebreaker enough?
    Answer. The suite of active and planned surface assets will meet 
mission priorities in the Arctic.
    Question. What are the Department's long-term plans to address our 
critical Arctic need?
    Answer. The suite of active and planned air, surface and other 
assets will meet mission priorities in the Arctic. Lessons learned and 
the experience gained during Arctic Shield will be applied to refine 
and improve Coast Guard Arctic operations and presence for the near 
future and inform the development of the Coast Guard's plan to provide 
strategic long-term presence in the region.
    Question. The Coast Guard authorization bill passed by Congress 
last year included a provision to create a one-stop process for 
mariners applying for TWIC cards. I discussed this streamlining 
provision with Administrator Pistole and Vice Admiral Neffinger in 
December and was told that they would work to implement this 
requirement in Alaska as well as expand the number of TWIC centers in 
Alaska, since my home State, which is one-fifth the size of the entire 
United States, has only seven TWIC enrollment centers. After 4 months 
of follow-up, we learned that a new part-time TWIC enrollment center is 
opening in Kodiak in May, and I applaud you for this. The Kodiak center 
is in addition to centers in Anchorage, Juneau, Ketchikan, Soldotna, 
Sitka, Unalaska, and Valdez, but you've seen first-hand the vastness of 
my State, and I understand in August some of your staff experienced the 
travel issues we face due to weather and limited flights. So in this 
case, eight is not enough. What are the plans and timeline for 
converting to a one-stop TWIC visit and further addressing the severe 
shortage of TWIC enrollment centers in Alaska?
    Answer. The Transportation Security Administration (TSA) will 
implement the OneVisit concept in three phases as follows:
  --Phase 1.--Launch Alaska OneVisit manual solution for 6-9 months 
        beginning in quarter 3 fiscal year 2013 (June/July).
  --Phase 2.--Implement OneVisit at a second location and semi-
        automated mailing solution in quarter 1-quarter 2 fiscal year 
        2014.
  --Phase 3.--Launch a nationwide, fully automated solution via 
        Technology Infrastructure Modernization Program, beginning in 
        quarter 3 fiscal year 2014.
    To address the Transportation Worker Identification Credential 
(TWIC) enrollment centers in Alaska, TSA will implement the following:
  --Add an enrollment center in Kodiak (completed May 15);
  --Continue to operate enrollment centers in Juneau, Valdez, 
        Anchorage, Unalaska, and Nikiski;
  --Convert independently operated centers in Ketchikan, Sitka, and 
        Skagway to full enrollment centers (completed May 15); and
  --Review Hazardous Material Endorsement enrollment locations for 
        suitability to add more TWIC enrollment locations (Fairbanks, 
        Craig, Soldotna, Wrangell, and Dillingham) (mid-July).
    Question. Two weeks ago the Coast Guard celebrated the Rescue 21 
(R21) System's 50,000th successful search-and-rescue (SAR) case. With 
Rescue 21, Coast Guard units performing SAR missions have been more 
efficient and effective. On these critical missions, this system 
determines a victim's location by lines of bearing and then 
automatically plots those allowing controllers to pretty much take the 
search out of search and rescue. Alaska has more than 33,000 miles of 
coastline, over 700 search-and-rescue cases a year, over 300 lives 
saved or assisted yearly by the Coast Guard, a $6 billion annual 
fishing industry, and 44 cruise ships transiting annually with more 
than 1 million passengers. Rescue 21 means less fuel consumption, less 
crew fatigue, and less wear and tear on assets. In addition, more lives 
are saved. Time to get on station is critical everywhere but no more so 
than Alaska. Rumor has it that Alaska is getting a watered down system 
using the funds left over in the R21 AC&I account. Is this true?
    Answer. Rescue 21 is capitalizing on the 17th Coast Guard 
District's operational expertise and experience to deploy a system 
design tailored to the unique geographic operational and environment 
requirements of the region. The Rescue 21 Alaska deployment will 
include a targeted recapitalization of existing capabilities and new 
remote tower sites to provide coverage in three areas prioritized by 
the district command.
    Question. Rescue 21 is operational along the entire Atlantic, 
Pacific and gulf coasts of the continental United States as well as 
along the shores of the Great Lakes, Hawaii, Puerto Rico, the U.S. 
Virgin Islands, Guam, and the Northern Marianas Islands, averaging 
approximately 1,000 cases per month. What is your plan for implementing 
this vital lifesaving tool in Alaska?
    Answer. The Coast Guard's plan for Alaska is to recapitalize the 
existing National Distress and Response System in Alaska. Specifically, 
the Coast Guard is already proceeding to:
  --Upgrade core communications infrastructure at 31 existing sites;
  --Replace Remote Radio Control Console System;
  --Add digital selective calling to all legacy National Distress 
        Sites; and
  --Fill three high priority coverage gap areas (Middle Cape, 
        Fairweather Banks, Peril Straits) in addition to the 31 
        existing sites.
    Additionally, though the continental U.S. (CONUS) Rescue 21 system 
is deployed to Coast Guard CONUS sector command centers (SCCs), in 
Alaska the recapitalization will not be limited to only the two SCCs in 
Juneau and Alaska. The 17th Coast Guard District command center as well 
as a number of other Coast Guard command centers in Alaska will also be 
recapitalized.
    Question. It is being said that the most notable difference between 
the plan for Alaska and the Rescue 21 system being deployed across the 
rest of the United States is in direction finding (DF) capability and 
that no DF service will be implemented in Alaska. If as we previously 
stated, location services is what is saving lives how is this plan not 
short-changing the residents of Alaska and most importantly the brave 
men and women of the Coast Guard who serve them?
    Answer. The Coast Guard's CONUS Rescue 21 direction finding (DF) 
capability only works from the shoreline out to 20 miles offshore. In 
Alaska, search-and-rescue cases occur well beyond 20 miles offshore 
requirement that is necessary for the continental U.S. Rescue 21 
coastline coverage. Consequently, establishing a new DF capability for 
Alaska is not an optimal approach.

                          SUBCOMMITTEE RECESS

    Senator Landrieu. And thank you, Madam Secretary, for your 
leadership.
    Secretary Napolitano. My pleasure. Thank you, Madam Chair.
    Senator Landrieu. Meeting is recessed.
    [Whereupon, at 3:58 p.m., Tuesday, April 23, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
